<html>
<title> - DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2014</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



        DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2014

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                     ONE HUNDRED THIRTEENTH CONGRESS
                              FIRST SESSION
                                ________

                    SUBCOMMITTEE ON HOMELAND SECURITY
                     JOHN R. CARTER, Texas, Chairman
 ROBERT B. ADERHOLT, Alabama          DAVID E. PRICE, North Carolina
 JOHN ABNEY CULBERSON, Texas          LUCILLE ROYBAL-ALLARD, California
 RODNEY P. FRELINGHUYSEN, New Jersey  HENRY CUELLAR, Texas
 TOM LATHAM, Iowa                     WILLIAM L. OWENS, New York
 CHARLES W. DENT, Pennsylvania        
 CHARLES J. FLEISCHMANN, Tennessee  

 NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mrs. Lowey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
              Ben Nicholson, Kris Mallard, Valerie Baldwin,
                     Cornell Teague, and Hilary May,
                            Staff Assistants
                                ________

                                 PART 2

                     DEPARTMENT OF HOMELAND SECURITY
                                                                   Page
 Transportation Security Administration...........................    1
 Federal Emergency Management Agency..............................  173
 U.S. Immigration and Customs Enforcement.........................  321
 National Protection and Programs Directorate.....................  647



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                ________

         Printed for the use of the Committee on Appropriations

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

82-379                    WASHINGTON : 2013





        DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2014

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                     ONE HUNDRED THIRTEENTH CONGRESS
                              FIRST SESSION
                                ________
                    SUBCOMMITTEE ON HOMELAND SECURITY
                     JOHN R. CARTER, Texas, Chairman
 ROBERT B. ADERHOLT, Alabama          DAVID E. PRICE, North Carolina
 JOHN ABNEY CULBERSON, Texas          LUCILLE ROYBAL-ALLARD, California
 RODNEY P. FRELINGHUYSEN, New Jersey  HENRY CUELLAR, Texas
 TOM LATHAM, Iowa                     WILLIAM L. OWENS, New York
 CHARLES W. DENT, Pennsylvania        
 CHARLES J. FLEISCHMANN, Tennessee  

 NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mrs. Lowey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
              Ben Nicholson, Kris Mallard, Valerie Baldwin,
                     Cornell Teague, and Hilary May,
                            Staff Assistants
                                ________

                                 PART 2

                     DEPARTMENT OF HOMELAND SECURITY
                                                                   Page
 Transportation Security Administration...........................    1
 Federal Emergency Management Agency..............................  173
 U.S. Immigration and Customs Enforcement.........................  321
 National Protection and Programs Directorate.....................  647





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                ________

         Printed for the use of the Committee on Appropriations
                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 82-379                     WASHINGTON : 2013



                                  COMMITTEE ON APPROPRIATIONS

                    HAROLD ROGERS, Kentucky, Chairman

 C. W. BILL YOUNG, Florida \1\        NITA M. LOWEY, New York
 FRANK R. WOLF, Virginia              MARCY KAPTUR, Ohio
 JACK KINGSTON, Georgia               PETER J. VISCLOSKY, Indiana
 RODNEY P. FRELINGHUYSEN, New Jersey  JOSE E. SERRANO, New York
 TOM LATHAM, Iowa                     ROSA L. DeLAURO, Connecticut
 ROBERT B. ADERHOLT, Alabama          JAMES P. MORAN, Virginia
 KAY GRANGER, Texas                   ED PASTOR, Arizona
 MICHAEL K. SIMPSON, Idaho            DAVID E. PRICE, North Carolina
 JOHN ABNEY CULBERSON, Texas          LUCILLE ROYBAL-ALLARD, California
 ANDER CRENSHAW, Florida              SAM FARR, California
 JOHN R. CARTER, Texas                CHAKA FATTAH, Pennsylvania
 RODNEY ALEXANDER, Louisiana          SANFORD D. BISHOP, Jr., Georgia
 KEN CALVERT, California              BARBARA LEE, California
 JO BONNER, Alabama                   ADAM B. SCHIFF, California
 TOM COLE, Oklahoma                   MICHAEL M. HONDA, California
 MARIO DIAZ-BALART, Florida           BETTY McCOLLUM, Minnesota
 CHARLES W. DENT, Pennsylvania        TIM RYAN, Ohio
 TOM GRAVES, Georgia                  DEBBIE WASSERMAN SCHULTZ, Florida
 KEVIN YODER, Kansas                  HENRY CUELLAR, Texas
 STEVE WOMACK, Arkansas               CHELLIE PINGREE, Maine
 ALAN NUNNELEE, Mississippi           MIKE QUIGLEY, Illinois
 JEFF FORTENBERRY, Nebraska           WILLIAM L. OWENS, New York
 THOMAS J. ROONEY, Florida            
 CHARLES J. FLEISCHMANN, Tennessee    
 JAIME HERRERA BEUTLER, Washington    
 DAVID P. JOYCE, Ohio                 
 DAVID G. VALADAO, California         
 ANDY HARRIS, Maryland                
   
 ----------
 \1\ Chairman Emeritus    

               William E. Smith, Clerk and Staff Director

                                  (ii)

 
             DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2014

                              ----------                             
                                      Wednesday, February 27, 2013.

                 TRANSPORTATION SECURITY ADMINISTRATION

                                WITNESS

JOHN S. PISTOLE, ADMINISTRATOR

                   Opening Statement: Chairman Carter

    Mr. Carter. All right. We will call this hearing to order. 
I am very glad to see my colleague, Mr. Price, here to help me 
with this hearing, and we are very honored to have Ms. Lowey 
join us. This is an important subject,--the security of our 
country is an important thing.
    This morning, we are welcoming Administrator John Pistole 
to explain how TSA uses the risk-based approach to 
transportation security.
    Administrator, thank you for joining us. We are pleased to 
have you here. And I look forward to hearing from you as to 
what your ideas are today and what is going on.
    Our aviation sector remains a primary target. From 9/11, to 
Richard Reid, to the Christmas Day and the printer cartridge 
plots, terrorists have demonstrated their diseased intent to 
bring down planes and harm our citizens in our aviation system. 
We have seen other transportation systems attacked around the 
world. Transportation security has and will remain a priority 
of this subcommittee.
    But budgetary reality means we simply cannot throw money at 
the problem. Even as we agree on this real threat to our 
security, we can't throw money at it. We must make the wise use 
of our limited resources and apply these resources to 
activities that have real, measurable security impacts. The 
risk-based approach to screening and other TSA activities has 
been long overdue. We have paid billions since 9/11 to build up 
a TSA workforce and infrastructure. It is nearly an $8 billion 
per year operation. Our goal is to achieve the best possible 
security at the lowest possible costs.
    Administrator, you have made risk-based security a 
signature initiative for TSA. I look forward to hearing today 
about your progress in this effort and how it will reduce costs 
to the taxpayer while also protecting the traveling public. 
Your written statement will be placed in the record, so I ask 
you to take about 5 minutes to summarize it.
    I would now like to recognize Mr. Price, our distinguished 
Ranking Member, for his opening remarks.
    Mr. Price.
    [The statement of Mr. Carter follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                      Opening Statement: Mr. Price

    Mr. Price. Thank you, Mr. Chairman.
    Administrator Pistole, thank you for being here today to 
discuss the Transportation Security Administration's risk-based 
security initiatives. Intelligence information as well as past 
history show us that the threat to our transportation system, 
particularly aviation, continues to evolve and remains a prized 
target for Al Qaeda, its affiliates and other fanatics. You, 
therefore, have an extremely tough job, one that doesn't permit 
any mistakes, yet comes with plenty of critics. We appreciate 
your service.
    As a person who travels weekly, I constantly see TSA in 
operation. That means I pick up criticisms from time to time. 
But I am mainly impressed by the professionalism of your 
workforce. I know how dedicated you and your staff are to our 
security. I appreciate your drive to make this agency more 
risk-based and more efficient.
    We do see improvements with the services and technologies 
deployed at our airports, however slow in coming some of them 
have been. The most widely-known risk-based security 
enhancement TSA is putting into place is the so-called PreCheck 
program, which has been in existence for about a year now. As I 
understand it, PreCheck allows TSA to prescreen certain 
passengers so that they have expedited screening at those 
airports with this program already in place. For example, these 
passengers might be able to leave their shoes or jacket on, 
keep their electronic devices and liquids in their carry-ons. 
While this program has received a lot of positive review, it is 
not something that benefits the average traveller yet. I am 
pleased to announce that my own home airport, Raleigh-Durham, 
will have the PreCheck program as of April 1.
    We must also ensure that TSA is using the best technologies 
at our airports to detect threat items. Since the attempted 
bombing on Christmas Day of 2009 and the more recent improved 
underwear bomb device discovered in a disrupted plot this past 
May, TSA has worked aggressively with industry and its Federal 
counterpart agencies to develop and deploy innovative screening 
technologies across our airports. For example, TSA has been 
installing Automated Target Recognition software in its 
Advanced Imaging Technology units. Not only will Automated 
Target Recognition (ATR) eliminate passenger-specific pictures, 
providing the traveller with more privacy, it will also 
increase the efficiency of the screening process so that more 
travellers can be reviewed. TSA and its contractors have had 
some difficulty with this technology, requiring TSA to rethink 
how many systems it will need to install nationwide. We look 
forward to an update on that today.
    At the same time, other technologies to enhance passenger 
screening and better detect threats appears to be progressing 
more slowly than originally anticipated. For example, last 
year, TSA issued a request for information to industry to 
explore the potential development of using a Computed 
Tomography-based Explosive Detection System at the passenger 
checkpoint, a system similar to what is used to detect 
explosive threats in checked baggage. Yet, in December, the 
Science and Technology Directorate put out a broad agency 
announcement on what appears to be a very similar concept 
suggesting a 2-year window of research and development before 
this next-generation technology is ready for testing and 
deployment. That seems like a step backward; perhaps you can 
clarify that today.
    We have also seen slowness in developing other 
technologies, such as Advanced Technology 2 (AT2) liquid 
detectors, and shoe scanners. While I recognize that each of 
these technologies must pass critical security and detection 
tests, which in some cases have taken devices completely out of 
the running for TSA procurement, it appears that even 
incremental improvements to our aviation security system are 
slow coming. These delays could give a head start to 
individuals and organizations who wish to do us harm. So it is 
imperative that we remain ahead of the curve in developing the 
next generation of detection capabilities.
    So, Mr. Administrator, I would like to focus on what else 
we can do to make aviation security policies more efficient and 
risk-based without compromising security. I look forward to a 
frank discussion and one, of course, that we will need to 
revisit when the Subcommittee receives your final 2014 budget 
request.
    In the meantime, we are happy to have you here today. Thank 
you.
    [The statement of Mr. Price follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Carter. Thank you, Mr. Price.
    We are pleased to have the ranking member of the whole 
committee, Mrs. Lowey, here.
    Mrs. Lowey, would you like to make an opening statement?
    Mrs. Lowey. I would be delighted. Thank you very much.
    Mr. Carter. Recognize. Thank you.

                     Opening Statement: Mrs. Lowey

    Mrs. Lowey. And I want to join you, Mr. Chairman and Mr. 
Ranking Member, in welcoming Administrator Pistole here today. 
It has been my pleasure to work with you over the past 3 years, 
particularly to provide workplace protections for 
Transportation Security Officers. You have professionalized 
TSA's workforce, improved security at our nation's airports, 
and never lost sight of the treats to our transportation 
infrastructure. And for that, we thank you.
    Next month marks the 10th-year anniversary of TSA's move to 
the Department of Homeland Security. Threats to our country 
have not diminished, but the threat of sequestration would 
significantly reduce resources. In just 48 hours, this lazy, 
frankly, budgetary device will force across-the-board spending 
cuts throughout the government. I understand that TSA would be 
forced to cut its frontline workforce, furlough its nearly 
50,000 officers for 7 work days, and initiate a hiring freeze. 
As a result, passenger wait times at airport security 
checkpoints will be longer, adding to passenger flight and 
cargo delays.
    These delays will not just be a matter of inconvenience, 
they will have real economic and security impacts. Cargo delays 
mean a slower chain of commerce. Passenger delays will result 
in missed and delayed flights. And budget constraints that slow 
the development of new screening technologies and limit your 
ability to fully staff airport checkpoints put our aviation 
security at risk.
    I know you will do your best to work within these 
boundaries, but I continue to be concerned for our long-term 
security if we cannot keep up with the advances in technology 
and planning done by our enemies. Frankly, it is disheartening 
that the majority has rejected Democrats' calls to prevent 
sequestration by closing tax loopholes and reigning in the 
growth of future spending. But I have always been an optimist. 
And I do hope reasonable people, such as those serving on this 
committee and others, can begin to work together to resolve 
this impasse that does such damage to our economy. And it is 
estimated that we could lose 750,000 jobs by the end of the 
year.
    You have made positive steps on risk-based screening 
techniques. I have noticed that TSA PreCheck is up and running 
at LaGuardia and Kennedy Airports and is expanding to other 
terminals, with 8 percent of fliers utilizing PreCheck and a 
goal of 25 percent.
    I do hope we will discuss, and I am sure we will, the 
accuracy of these measures. We want to be able to differentiate 
between those who do us harm and those who are good people 
among us. Thank you for coming before the Subcommittee. I would 
like to thank Chairman Carter and Ranking Member Price again 
for holding this very important hearing.
    [The statement of Mrs. Lowey follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Carter. Thank you, Mrs. Lowey.
    Before we get started, I would like to get something 
straight. Our focus today is not the looming sequester. But I 
understand it is the elephant in the room. And when it comes to 
Federal resources, I know this will have a real impact on 
agencies. I don't like the President's sequester, and I don't 
agree with it. As a policy tool or any other way, it is the 
wrong thing to do. In my view, its crude bluntness reminds us 
all of the importance that we need to follow regular order in 
everything we do. It is one of the things that I felt very 
strongly about for multiple years now.
    So it is one thing to have a serious discussion about 
resource impacts, but it is entirely another to explore the 
sequester for political purposes. And, sadly, we are seeing 
just that almost every day. The President's decision to violate 
the law and release illegal immigrants almost a week before the 
sequester even takes effect reveals just such political 
exploitation. This action is a violation of law. And it was 
premature, wasn't necessary under the current funding, and is a 
return to the flawed policy of catch and release. So much so, 
that it might undermine serious Congressional efforts at 
reform.
    My expectation is that the Department makes the most of 
available resources to make a full effort to comply with and 
enforce the law. And that is true for ICE, as it is true for 
TSA and for all the other DHS components. I remind the Members 
today that this hearing is focused on TSA's risk-based 
programs, programs that will hopefully save us money in the 
long run and will also provide sufficient security.
    And with that, we will let Mr. Pistole give his testimony 
here today.

                Opening Statement: Administrator Pistole

    Mr. Pistole. Good morning, and thank you, Chairman Carter 
and Ranking Member Price and Congresswoman Lowey and former 
Chair Aderholt. It is good to be with you this morning. Thank 
you for the opportunity to testify.
    As the sequester looms, let me provide some updates on TSA 
initiatives, particularly risk-based security, RBS, as we seek 
to provide the most effective security in the most efficient 
way. As we know, since its standup after 9/11, TSA has refined 
and evolved our security approach by assessing the procedures 
and technologies we use. We are dedicated to preventing 
terrorist attacks, reducing the vulnerability of our 
transportation system to terrorism, and improving the 
experience of the over 1.7 million passengers who travel by air 
every day.
    Shifting away from a one-size-fits-all construct, we have 
introduced and expanded a number of RBS programs. Many of these 
are in place nationwide, for example, the over 75 and under 12 
years old expedited screening programs. And others are still 
being developed with plans to expand them throughout 2013 and 
going into next year.
    As mentioned, one of the most visible components of RBS is 
the TSA PreCheck initiative, which enables us to focus efforts 
on passengers who may pose a higher risk to transportation 
while expediting the known and trusted travelers. Now in 35 
airports, with nearly 7 million low-risk passengers having been 
screened with TSA PreCheck procedures, we believe--we are 
getting very positive feedback from that. Last week, I 
announced five additional airports, those in Austin, Cleveland, 
Memphis, Nashville, and Raleigh-Durham, which will be offering 
TSA PreCheck benefits by the end of March.
    We just hit a milestone this past week of 1 million 
individuals going through some type of RBS screening in a 
week's time. And we are committed to expanding the risk-based 
security benefits to more and more of the traveling public.
    To that end, I have established a goal that by the end of 
this year, TSA will provide the expedited screening to 25 
percent of all passengers, thereby creating efficiencies, 
improving the passenger experience, and maintaining or 
improving world-class security.
    So while expanding the number of passengers eligible to 
participate in risk-based security, TSA must use the best 
technology available to screen those passengers about whom we 
know less. Advanced Imaging Technology, or AIT, is one example 
of our commitment to deploying the best available equipment to 
address emergent threats, particularly in regard to the 
nonmetallic Improvized Explosive Devices, the IEDs, carried by 
suicide bombers. Since TSA began using AIT in 2008, our 
officers have found hundreds of prohibited, illegal, or 
dangerous items, many of which would not have been detected by 
a traditional walk-through metal detector. As you know, last 
year, 2012, we found nearly 1,550 hand guns at checkpoints last 
year, or more than 4 per day.
    TSA's dedicated men and women are an essential component of 
our multi-layered risk-based security strategy. Our employees 
comprise a highly adaptive workforce as it has evolved over the 
7 years--11 years, excuse me--providing layers of security to 
thwart innovative and determined terrorists. Our risk-based 
programs and training initiatives are accelerating the 
transformation of our workforce as we strive to tailor the 
screening experience more precisely. The Passenger Support 
Program is one of our recent customer service initiatives. This 
program establishes a group of officers acting in a collateral 
duty to serve as what we call Passenger Support Specialists, or 
PSSs, at airports. And they provide real-time support to 
individuals who may require additional assistance through the 
checkpoint screening process. And today we have more than 2,500 
PSSs operating at airports across the country. Another vital 
component of our layered approach to transportation security is 
our canine program.
    During 2011 and 2012, with this subcommittees's strong 
support, we expanded the canine programs by deploying 
passenger-screening canines [PSCs], which now operate in 24 
airports, working to detect explosives in and around 
passengers. By the end of this year, PSC-funded teams will be 
deployed. And, again, I appreciate the subcommittee's strong 
support for these valuable assets. Now, these canines, along 
with our behavior detection officers, also support TSA's 
initiative, what we call ``managed inclusion,'' where we have 
pilot programs in Indianapolis, Tampa, and now, beginning 
tomorrow, Honolulu International Airport. Managed inclusion 
provides TSA with a real-time threat-assessment capability and 
enables us to improve security, operational efficiency, and the 
passenger experience by utilizing more fully those lanes set 
aside for TSA PreCheck.
    So as we strive to secure the Nation's transportation 
networks, that also applies beyond our borders. One area of 
particular focus for TSA in the international arena has been 
increasing security of air cargo without restricting unduly the 
movement of goods and products. And since December 3rd of last 
year, TSA has required 100-percent screening of all 
international cargo on inbound passenger aircraft.
    We appreciate the committee's efforts to pass and enact a 
regular fiscal year 2013 approps bill in a challenging fiscal 
climate. Operating under a continuing resolution can and does 
present operational challenges, as an extension of prior-year 
appropriations generally does not reflect developing budget 
requirements. And the short-term nature of this CR does not 
allow us to make long-term financial commitments. So we look 
forward to working with the committee on the funding for the 
remainder of this year and obviously for the upcoming fiscal 
year 2014 budget and as we deal with this possible sequester.
    Again, Mr. Chairman, Ranking Member Price, thank you for 
the opportunity to appear before you today. Look forward to 
taking your questions.
    [The statement of Mr. Pistole follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                    RISK-BASED SECURITY INITIATIVES

    Mr. Carter. Thank you, Mr. Administrator.
    This subcommittee has consistently supported risk-based 
approaches, including for air travel, which we feel would 
improve security while reducing screening time and cutting 
costs. Two examples include TSA PreCheck and Screening 
Partnership Program, or SPP. I understand you offer expedited 
screening at 40 PreCheck sites for trusted travellers and 
provide it more broadly to active-duty military, children under 
12, and elderly persons.
    In fact, I have seen the sign. Notably, the Secretary has 
projected that precheck or similar expedited programs will be 
extended to half the eligible traveling public within 2 years. 
Based on that, I have two questions I would like for you to 
answer together or separately. First, how are initiatives such 
as PreCheck improving performance, screening time, and cutting 
costs? What are your plans to expand PreCheck and similar risk-
based strategies that will reduce costs? Second, given revised 
guidelines mandated by Congress, do you anticipate approving 
new applications for the Screening Partnership Program? If so, 
how and when would you shift funds from TSA operations to the 
SPP budget to fund transitions to private contracts?
    Mr. Pistole. Thank you, Mr. Chairman.
    On your first point about the expansion of RBS initiatives, 
we are continually looking for additional ways to expand. So we 
do have the 35 existing airports, the additional 5, so that 
will be the 40 by the end of next month. We are looking at 
additional airports. There is at some point a point of 
diminishing return on investment for us in terms of diverting 
resources from the regular lanes to the PreCheck lanes, if 
there is not a passenger load that can justify that diversion 
of resources. So we look at that very closely and do a cost-
benefit analysis to assess that.
    That being said, I anticipate some additional airports 
throughout 2013 beyond this first tier. Obviously, we started 
with the 35 busiest airports, and now these additional 5 that I 
just noted, have that passenger load that we can justify that 
diversion resources, if you will. That being said, we are 
looking at other opportunities to expand the known and trusted 
population beyond the active duty military, where we are in 
seven airports now; we will be in nine where the members of the 
active-duty military can use their Common Access Card, their 
CAC card. But we are looking for a system-wide, all 450 
airports, solution later this year. Obviously, the application 
of that will only be where there are TSA PreCheck lanes for the 
Active Duty military, to receive those benefits. But we are 
working with the Department of Defense to achieve that 
hopefully here in the next several months.
    Obviously, the 75 and older and 12 and under on the 
expedited screening, that gives us additional opportunities. 
Also members of the U.S. intelligence community, Federal 
judges, Members of Congress, other groups that we--Fortune 500 
company executives--those are all some that we have a great 
deal of information about because either the U.S. Government 
has the information and people are voluntarily sharing or 
private citizens are voluntarily sharing by signing up through 
the Customs and Border Protection's [CBP's] Global Entry 
Program.
    We are also looking at some opportunities through managed 
inclusion, as I mentioned. We are starting the third pilot 
airport tomorrow, and then simply using a couple of different 
initiatives. We have a request for information out for third-
party private vendors, from whom we have requested white 
papers, which are due by the end of next month, or April 1, 
where they provide a service to private citizens who might want 
to pay them a fee for vetting as a known and trusted traveler 
to our criteria. So we would set the criteria, the information 
that would be beneficial to us. They would then give a yes or 
no, showing whether that person meets the criteria. And then we 
would, obviously, do all of our assessment. So that is another 
opportunity that we are looking at expanding, that known and 
trusted population.
    Obviously, the pilots and flight attendants, we now have 
approximately 175,000 pilots and flight attendants who go 
through a risk-based security screening initiative called Known 
Crew Member every week. So 175,000 pilots and flight crew are 
not going to the front of the lines. They don't like doing 
that; passengers don't like them cutting in front. And so it is 
just a part of the commonsense approach that we are trying to 
use to say, look, we trust these people with our lives 27,000 
times per day around the country, so let's make sure we can 
verify who they are.
    Those are some of the initiatives we are doing. As relates 
to the privatized airports, we do have the 16 privatized 
airports. We have additional applications that have been made. 
And we are in the process of reviewing those and providing--
going through the statutory requirements from the FAA [Federal 
Aviation Administration] Modernization Bill from last year. So 
we are assessing those, and we are applying the same risk-based 
security initiatives to those airports as we are to all the TSA 
airports and want to continue assessing those as they come in.
    Mr. Carter. What about cost savings? Have you done any 
analysis of the cost savings? Do you have any statistics that 
you can share with us?
    Mr. Pistole. We are working on those--those costs figures, 
Mr. Chairman. And we have--we believe long term, we will 
clearly achieve some efficiencies in terms of TSA's overall 
budget. I still don't have the specific data to say, here is 
how much we save if we are able to obtain that 25-percent goal 
that we have set for people going through expedited physical 
screening by the end of this year. But I can say that just 
based on some initial figures, we are looking at the--in the 
$30 million to $35 million range in terms of some efficiencies 
we would see still this year. But I will have further 
information as we see how successful they are in accomplishing 
that goal of 25 percent.
    Mr. Carter. As you get things we could take a look at, we 
would appreciate it if you could share this with us.
    Mr. Pistole. Absolutely.
    Mr. Carter. I will now recognize Ranking Member Price for 
his questions.
    Mr. Price. Thank you, Mr. Chairman.
    Mr. Administrator, I know there are some tradeoffs here as 
you implement this PreCheck program in terms of how many 
personnel you devote to the new lanes versus how many you keep 
on the conventional lanes.
    You are going to need a dramatic growth in participation in 
order to make this efficient and viable for the long term. Is 
this 25 percent goal about the level you are anticipating will 
be needed to get to the efficiencies you would like?
    Mr. Pistole. Yes. And I will say it is an ambitious goal. I 
usually like to underpromise and over-deliver. I try to manage 
expectations. But I do have confidence that we will be able to 
make that if we look at all individuals, including pilots and 
flight attendants going through some type of RBS screening 
process.
    Mr. Price. Let me ask you two further questions about this, 
just to drill down a bit.
    Obviously, risk-based security done the wrong way could 
increase risk if even isolated terrorists were able to enroll 
in the program, for example, because they met the criteria 
somehow or if they became a threat after becoming program 
participants. I am sure you have thought about all this. What 
are you doing to counter such potential risks?
    And then secondly, can you just clarify for us what sets 
PreCheck apart from the failed predecessors, especially 
Registered Traveler? Is it simply the behind-the-screens 
vetting technology has improved to the point that TSA can now 
effectively screen these individuals without diverting 
resources? Or are there other characteristics that would 
distinguish this effort?
    Mr. Pistole. Thank you, Ranking Member Price.
    Yes, there are two distinguishing features from those old 
programs from what TSA PreCheck is today. One is the 
intelligence, as you mentioned. We start off every day with a 
classified intelligence briefing talking about terrorists' 
intent, how they are trying to devise and construct and conceal 
nonmetallic improvised explosive devices particularly. But we 
know a lot more about the traveling public, especially those 
coming from overseas, than we did previously, just based on 
improved intelligence community collection and sharing of that 
information. So that is one issue. The private companies, 
obviously, wouldn't have access to that information.
    The second, under the old programs, it was basically a 
front-of-the-line or front-of-the-queue privilege, where people 
could pay a fee and go to the front of the queue at the 
checkpoint, but then they would go through the exact same 
screening as if they were an untrusted traveler. So it was 
really a service that cut down the wait times.
    Now, with our PreCheck lanes, in--we have right around 50 
PreCheck lanes in those 35 airports right now because the 
larger airports obviously need more. It is unusual to have more 
than a 5-minute wait time in a dedicated PreCheck lane. 
Whereas, you know, you may have, you know, a 15-, 20-, 25-
minute wait on a regular lane at a busy time. So those are some 
of the key distinguishing factors.
    In this request for white papers that we put out recently, 
we are interested in private industry's possible solutions to 
that, working in a partnership. So, as opposed to the Federal 
Government doing that upfront vetting, we will see what the 
private companies, whether people would want to pay a fee for 
that service that then they provide us that--basically, it is a 
binary; yes or no, this person meets your criteria, TSA. Then 
we do all of our vetting.
    As to your first point, the other issue is in terms of 
potential vulnerabilities, probably still the best tool that we 
have for the U.S. Government is intelligence. So whether it is 
an agency to collect intelligence overseas, for example, about 
this attempted underwear bomb, part two, from April of last 
year, not the Christmas Day bomber from 2009 that everybody 
knows about, but this second one where Al Qaeda in the Arabian 
Peninsula gave a new, improved, nonmetallic IED to a putative 
terrorist and told that individual to get on a flight from a 
safe airport, presumably outside the Middle East, to come to 
the U.S. and blow the plane up over the U.S., that was an 
intelligence coup. Because that terrorist turned out to be a 
double agent and provided that device intact to the U.S. 
intelligence community, brought it back here. We did the 
analysis. And so we know exactly not only what they are 
thinking but how, again, they are devising, constructing, and 
concealing devices. And there are a number of challenges to 
that. So we have a significant benefit from that.
    That being said, we are always looking at the multiple 
layers of security so we don't have a single point of failure. 
So there are a number of aspects to that to make sure that we 
don't miss something like that.
    Mr. Price. Thank you.
    Thank you, Mr. Chairman.
    Mr. Carter. At this time, I recognize Mr. Aderholt, the 
former chairman of this subcommittee.

                      CANINES: PASSENGER SCREENING

    Mr. Aderholt. Thank you, Mr. Chairman. It is good to be 
here.
    Thank you, Mr. Pistole, for your presence here this morning 
and thank you for your testimony.
    You talked about this in your opening remarks. And of 
course, one of the best detection devices seems to be canines. 
I know TSA has been working to increase the number of canines 
that are deployed and determine how best to integrate them as a 
key component of our transportation security system.
    I believe that it is important to look at canine detection 
teams as a piece of technology; that with the right research, 
the right development, training, and support can fill a number 
of roles really better than any other technology.
    At the time of your testimony last year, there were 900 
canine teams. And you have talked about it in your opening 
remarks, but can you give us--can you expand a little bit and 
tell us a little more about how TSA and its partners are 
working to make sure that canines are on the cutting edge and 
the detection of and technology and trained in the development 
in a manner that assures success and the increases in the 
security of our transportation system?
    Mr. Pistole. Thank you, Congressman Aderholt.
    I am a big proponent of canines, especially the passenger-
screening canines, the vapor wake dogs that we are funded for 
and acquiring, because of their ability to do the detection in 
a vibrant environment where it is not simply a matter of going 
to a stationary object, whether it is a suitcase, a package, or 
something, and sniffing that object, but being able to pick up 
the vapor from the explosive residue, either on the person or 
the carry-on bag, going through a checkpoint, for example. And 
that is exactly what is one of our key enablers for managed 
inclusion.
    So, for example, where we started managed inclusion in 
Indianapolis on November 1st, I believe, the day before 
Thanksgiving, obviously one of the busiest travel days of the 
year, there is a TSA PreCheck lane at Indianapolis; there are 
two checkpoints. At that checkpoint, we actually had 31 percent 
of all the travelers go through to the TSA PreCheck lane 
because, one, they had been past a passenger-screening canine, 
so we had a high confidence that they were not carrying 
explosives; then, two, we had behavior detection officers 
looking for any suspicious behavior. So when they got up to the 
document checker, they were then invited to go to the PreCheck 
lane. So we fully utilized the PreCheck lane, and the canines 
were a key enabler of that. So given that assistance that the 
canines provide, we want to continue to be funded for, 
obviously, and acquire and deploy as many of those as possible.
    I will say because of RBS, risk-based strategy approach, we 
are looking at our deployment in different ways, and we are 
engaging with airports in different ways. There had been some 
concern expressed by some about, well, what is the 
jurisdictional reach of TSA in airports? And so we are trying 
to be sensitive to that to make sure we are focused on 
passengers, particularly in the queue, and to make sure that we 
work through any resolution issue. So if a dog does alarm or 
hit on a person or a package, what is the alarm resolution for 
that? So those are issues that we are continuing to work 
through. But, as I say, we are in two dozen airports now. We 
hope to expand that and try to use them in our highest impact 
areas.
    Mr. Aderholt. Well, the responsibility for development and 
employment of a well-trained and conditioned detector of 
canines is certainly--has consequences well beyond the 
transportation system, as I mentioned. Despite years of 
research to develop much better mechanical system, nothing 
beats canines' inherit capability to detect explosives and 
similar agents through the sense of smell.
    As we look at ways to prevent mass shootings, is TSA 
considering directing the National Canine Program assets toward 
development of animals that can detect concealed firearms in 
public areas of our transportation system other than airports 
and beyond to other sensitive areas, such as schools, 
courthouses, or hospitals?
    Mr. Pistole. So, without regard to this specific mass-
shooting situation, we do have canines who participate in our 
Visible Intermodal Prevention and Response, the VIPR teams, 
which is just designed to go to the deterrent aspect of all 
this. So we know that a terrorist and some criminals, 
obviously, are deterred by a uniform law enforcement presence, 
a canine and, for some, CCTV.
    So the whole purpose of the VIPR teams, where we use 
canines oftentimes, probably two-thirds of the time, outside of 
the aviation sector, surface transportation, that is designed 
exactly for that.
    We have not looked at public buildings, courthouses, 
schools, and things like that. We have not been approached 
about doing that. We are trying to focus on the transportation 
sector, given our specific mandate.

                                PRECHECK

    Mr. Aderholt. One last follow-up question on the PreCheck. 
I was talking with the staff earlier. Is there a mechanism for 
the airlines if, for example, a frequent flyer, of course, once 
their information is in the database and they are perceived as 
a trusted traveller and approved for the prechecked and then 
they were to switch airlines, not because of, you know, just 
because of maybe their route for business or whatever may 
change or just the different airlines, and they become a 
frequent flier on another airline, is there a mechanism where 
the airlines go in and reassess it after awhile? Because if 
they are approved on one--and I mention this because, quite 
honestly, it has happened to me. I fly Delta quite a bit. And, 
of course, I have been approved for the PreCheck. But I also 
fly U.S. Air as well and but not approved on the U.S. Air. I 
just wonder if there are a mechanism where two airlines are 
allowed to do the PreCheck.
    Mr. Pistole. Yes. We have been discussing that with the 
airlines in terms of the reciprocity basically between 
airlines. The one way that you overcome that is by enrolling in 
the Global Entry Program, in which--so is it $100 for 5 years, 
$20 per year. So that applies to every airline that 
participates in PreCheck, which is the major five right now, 
anyplace there is a TSA PreCheck lane. So Global Entry 
basically supersedes all that. That is like the umbrella, if 
you will.
    Mr. Aderholt. Right. Okay. Thank you.
    Mr. Carter. Ms. Lowey.

       SEQUESTRATION IMPACTS: COORDINATION WITH FEDERAL AVIATION 
                     ADMINISTRATION, HIRING FREEZE

    Mrs. Lowey. Thank you very much.
    And before I ask my question, I just want to associate 
myself with my colleague Mr. Aderholt and your response. I am a 
great fan of the canine teams. I think they really seem to be 
doing an extraordinary job. So thank you.
    As I noted a few minutes ago, I am very concerned with the 
impact of the sequester on TSA's core mission. Secretary 
Napolitano has repeatedly testified that the TSA would need to 
furlough a significant number of its frontline workforce, 
including TSOs, for up to 7 days to mitigate the impact of 
sequestration. These furloughs could increase wait times for 
airport security screening by up to an hour at our Nation's 
busiest airports, including the New York market.
    Last Friday, Transportation Secretary LaHood announced that 
if sequestration were to occur, he would close air traffic 
control facilities at a number of smaller airports and curtail 
operations at other airports. Many of these smaller airports 
have airport screeners.
    Administrator Pistole, have you coordinated sequester 
impacts with the FAA? For example, have they informed you which 
airports would have reduced operations so that you could shift 
your screener workforce hours appropriately? And has FAA 
informed you which of the smaller airports would be closed? If 
airports are closed, what are the implications for screeners 
working at those facilities? Would they be moved elsewhere in 
the system, for example? And is Westchester County Airport on 
that list?
    And I also want to just say that I am particularly 
concerned about the impact of sequestration on our Nation's 
busiest airports, including LaGuardia, Kennedy, and Newark. 
They play a role as central hub for domestic and international 
travel. So, essentially, could you tell us--we are all holding 
our breath and hoping it doesn't happen--but what sequestration 
would do to the smaller airports, the biggest airports, 
coordination? Perhaps you can enlighten us.
    Mr. Pistole. Thank you, Congresswoman Lowey.
    Yes, there are a number of aspects here. Let me start with 
the smaller airports and the FAA question that you have raised. 
Yes, we are working with FAA. FAA has identified a number of 
smaller airports that would either shut down operations 
overnight or that it could close. And FAA has listed all of 
those. I believe there are 72 where FAA has said the overnight 
shift could be eliminated. And then there are 238 air traffic 
control facilities that could be shut down. So there are a 
couple aspects here. One, if there is--generally, if there is 
no air traffic control, then it is a question of whether their 
airlines want to have any traffic out of there. And it is--even 
though it is possible and is done from time to time in the very 
smallest airports, it becomes a question for the airlines.
    So if the airlines aren't flying, no FAA, then obviously, 
there is not a need for TSA security because nobody would be 
flying. So we are watching all that very closely.
    The bottom line for us is that we have been watching the 
whole sequester discussion closely in assessing what impact it 
will have for us. The longer--if it does go into effect--and I 
am an optimist, too, but we will see. So then the longer it 
goes, the greater potential impact it has for us. So we are 
doing other things before furloughing. So, for example, we 
are--we would look at a hiring freeze, and just, for example, 
on that, with our Federal air marshals, which are separate in 
some regards, but part of TSA. We have actually had a hiring 
freeze with them in anticipation of some budget challenges and 
constraints. The last class graduated January of last year. And 
so it was actually September of 2011 for the last Federal air 
marshal new-hire class. So we are trying to be prudent about 
that.
    So we would look at a hiring freeze for the TSOs, security 
officers and then cutting back on overtime, which would have an 
impact more so--when you think about holiday travel, and with 
spring, spring breaks and summer travel coming up, the impact 
would be more noticeable I think longer term as we look at our 
ability to surge resources to those busiest times. If we are 
not paying overtime and we still have questions about 
sequester, then we would not have that ability to surge those 
resources. So that is where I think we will see the greatest 
impact, as opposed to today, for example, which is not that 
busy a travel day. And so as the passenger traffic builds for 
spring and summer, that is where we will see the greater 
potential impact.
    Mrs. Lowey. Thank you so much. I hope that we can all 
continue bipartisan work, as we have done in the past, and 
avoid these really drastic, drastic changes in our airport 
security system. I am very concerned about it.
    Thank you very much.
    Mr. Carter. Mr. Dent.
    Mr. Dent. Thanks, Mr. Chairman.
    Morning, Mr. Pistole.
    Mr. Pistole. Good morning.

                    MAN-PORTABLE AIR DEFENSE SYSTEMS

    Mr. Dent. State Department recently said that while former 
Libyan Dictator Gadaffi had as many as 20,000 MANPADS in his 
arsenal, only about 5,000 had been specifically accounted for 
and secured since his demise. Has this increased threat of 
MANPADS led to in intensification of TSA efforts, including 
domestic or international vulnerability assessments?
    Mr. Pistole. Yes. Thank you, Congressman. Yes. We, the U.S. 
intelligence community, obviously the State Department, Defense 
Department, are concerned about if you want to call them loose 
MANPADS, particularly use by, for example, Al Qaeda Islamic 
Maghreb, AQIM or by others who just want to make a statement. 
So throughout North Africa, there is an effort to locate and 
acquire those by allies or by the U.S. Government.
    The good news is there is no indication that any of those 
are in the U.S. and so there is just--that is not the issue. It 
is more the overseas flights of--originating from some of those 
challenging areas.
    Mr. Dent. This is not a classified briefing, obviously. But 
in a general sense, is TSA working with other nations right now 
to improve aviation security and mitigate the risk of these 
MANPADS?
    Mr. Pistole. Yes. We do several things. We work with the 
275 or so foreign airports that serve as a last point of 
departure, have non-stop service to the U.S. particularly, both 
on MANPAD vulnerabilities and then perimeter security 
assessments. So there are a number of steps that we could go 
into if you would like to.

                         CREDENTIALING PROGRAMS

    Mr. Dent. Thank you. Also one key mission at TSA is to 
manage eight credentialing programs, with TWIC being, by far, 
the largest. You have made a $30 million request for the 
Transportation Threat Assessment and Credentialing, or TTAC, 
TTAC, Technology Infrastructure Modernization, to put your 
different credentialing and vetting programs under one roof. 
TIM was supposed to support the universal fee rule, which is 
currently under DHS rule. TSA has argued that TIM has financial 
benefits. What security benefits would be generated from 
consolidating the existing systems into TIM?
    Mr. Pistole. So it is not only security benefits, but it is 
efficiencies and better customer service, frankly--if we can 
have a consolidated one-stop shopping, if you will, for the 
different credentials. So whether it is a TWIC cardholder, a 
HAZMAT, carriers who may drive a HAZMAT load over the road to a 
port where right now that driver would need two cards--the 
HAZMAT credential and then the TWIC card--that is just not an 
efficient way of going about business from our perspective. So 
that is why we want to have that one-stop shopping and to give 
us better security, to answer your question. From the 
standpoint of knowing real time what that person's background 
is, that there is--it is consolidated in one setting. So there 
is no bifurcation or any gaps there.
    Mr. Dent. Thank you. And your fiscal year 2013 budget 
request predicted a rule in 2014, but the dates have slipped. 
When do you think DHS will issue a final rule?
    Mr. Pistole. Obviously, there is the department review, 
there are other components' review. And it is--the good news is 
that there has been progress made since our last hearing. I 
cannot give you a specific date because I don't know. But there 
is good progress. And as far as the $30 million, what that will 
help us do is make sure we don't have a slippage in our--the 
infrastructure modernization, which would have a detrimental 
impact on our ability to provide, for example, the one visit 
application and enrollment for future TWIC cardholders. So 
those are things that we are looking for on that.

               TRANSPORTATION WORKERS IDENTIFICATION CARD

    Mr. Dent. Finally, I understand we are waiting on final 
ruling on the TWIC readers from the Coast Guard. But can you 
share with us any progress that has been made over the last 
year to get us to that final rule? I know this rule has been 
about 10 years in the making with almost 2 million people 
enrolled in the program, so utilizing their TWIC cards, simple 
flash pass.
    Mr. Pistole. There has been good progress on that, 
Congressman.
    And the Secretary has been personally involved in directing 
all DHS efforts and then for the U.S. Government as that 
applies to make sure that we can get that out, that these card 
readers that the Coast Guard has at ports, that they can be 
used as a viable way of establishing better security in a cost-
effective manner. So there has been good progress.

           ADVANCED IMAGING TECHNOLOGY: USE BY OTHER AGENCIES

    Mr. Dent. One last thing, too. With respect to these AIT 
machines, those whole-body scans, I know we have made--you have 
made a changeover, too, with a lot of the machines going to--we 
spent a lot of money on the--on the old machines. How much 
money did we spend and how much--how many of those machines are 
now being mothballed?
    Mr. Pistole. So they are not being mothballed. And I would 
have to check. I think it is around $40 million that we spent 
to acquire the type that have--that--called backscatter, that 
don't have the ATR [authomated target recognition], the privacy 
filter built in.
    Of course, Congress passed a law last year, that said that 
by May 31st of last year, all body scanners, all AIT will have 
the privacy filter built in the ATR. They did allow me to give 
a 1-year extension to the company that produced those. And I 
did that, in the belief that the company would be able to 
produce those privacy filters. So we have done an estimate. I 
think it was over 130 million people who went through those. At 
an average--so the average cost was about 30 cents per person 
to buy down the risk from a nonmetallic AIT. And then other 
government agencies are very much interested in using those 
machines in different settings, so not airport security. So 
they work fine but not to comply with the Congressional mandate 
of the privacy filters in our own personal--my personal 
preference to have all machines equipped with privacy filters 
by May 31st.
    So the company that manufactured them is paying for the 
cost of removal, the cost of storage of all those equipment. So 
the taxpayers aren't paying for any of that. And, of course, we 
withheld the funds under the contract that were going to the 
company to provide the privacy filters because they didn't do 
that.
    Mr. Dent. Thank you.
    Yield back.
    Mr. Carter. Mr. Cuellar.
    Mr. Cuellar. Thank you, Mr. Chairman.
    Let me just follow up on that line of questioning. Thank 
you, again, for the work that you and the rest of the men and 
women do.
    I thought the amount was about $184 million in the back 
scatter units.
    Mr. Pistole. No. I think--have to check on the exact amount 
for all of the AIT and the actual purchase.
    So that is the total cost for all the AIT. But the back 
scatter, is it $40 million?
    Mr. Cuellar. About a quarter. So the cost of putting them--
I thought they were at a Texas warehouse. So all that cost is 
not being bared by the taxpayers; it is the companies doing 
that.
    Mr. Pistole. Right.
    Mr. Cuellar. But we did pay for that equipment.
    Mr. Pistole. Sure, we paid for it.
    Mr. Cuellar. I know there is value added by the number of 
people that went in. I know there are a Congressional mandate 
on that. I am more interested, what are we going to do with 
them? Have you all started talking to the Federal agencies, 
let's say, the prison system? Can you go into a little bit of 
details? Because I want to use that equipment in places where 
privacy might be less of a concern.
    Mr. Pistole. Exactly, Congressman. So, yes, we have had a 
number of discussions. The manufacturer, obviously, is very 
much interested in using them, so they are not mothballed. So 
there is a use for them. I can't go into detail now because of 
some of the sensitivity of that. I would just say there is 
possible usage both domestically and internationally for those 
very reasons.
    Mr. Cuellar. Okay. That was the next question I was asking 
you. I am from Laredo, Texas, cover a lot of border area. Our 
work that we have been doing with Mexico has been very 
important. As you know, they are in a very difficult situation. 
If we can't talk about it at this time, I would like to sit 
down with you and any other Member that might be interested. 
But anything we can do with, let's say, the Republic of Mexico, 
so they can provide their--any surplus instead of being 
mothballed----
    Mr. Pistole. Right.
    Mr. Cuellar [continuing]. We use it either for our prison 
system or whatever the case might be, domestically. But, 
internationally, I would like to follow up with you all on that 
conversation.
    Mr. Pistole. Yes.

          NATIONAL CARGO SECURITY PROGRAM: INTERNATIONAL CARGO

    Mr. Cuellar. If I have just one more question. Talk to me a 
little bit about the good work that you all have been doing on 
the National Cargo Security Program to strengthen international 
air cargo security.
    Mr. Pistole. Yes, thank you, Congressman. The National 
Cargo Security Program is something that we are utilizing 
internationally to help buy down the risk from that 
international cargo coming to the U.S. And so we have now 
signed agreements with 33 countries around the world, about 60 
percent of the cargo coming into the U.S. And it is basically a 
recognition that they have upped their game, if you will. They 
have raised their standards in terms of their own cargo 
inspection at key airports that fly to the U.S. with cargo, 
rather--either on passenger flights or on all-cargo flights. So 
these 33 countries, including the EU [European Union], are key 
drivers of economic prosperity, if you will, because it allows 
for a more risk-based approach to how we screen cargo. And it 
is all premised on a notion that is similar to passengers: The 
more we can know about the cargo, the better job we can do of 
assessing how much and what type of security screening should 
be applied to that cargo. It really comes down to two 
categories: known shippers and known shipments. So if you are a 
known shipper, you are a Fortune 500 company, and this is what 
your shipping is, and this is what you do every day or every 
week, then we apply this standard. If it is an unknown shipper, 
such as a young woman in October of 2010, who walked into a 
freight forwarder in Sanaa, Yemen. She had two packages, both 
addressed to locations in Chicago. She was an unknown shipper; 
she had an unknown shipment. And it turns out that is where 
those cargo bombs in the cartridge toner printers were located. 
So that would receive the maximum amount because it is coming 
from a high-risk area from an unknown shipper and an unknown 
shipment. So that is the scale, if you will, that we are 
applying.
    So we are making good progress. We are hoping to sign some 
additional agreements later this year that would increase the 
percentage of air cargo coming here well beyond that 60 
percent.
    Mr. Cuellar. Thank you so much.
    Mr. Cuellar. Thank you. Thank you so much.
    Thank you, Mr. Chairman.
    Mr. Carter. Mr. Latham.

                    FOREIGN REPAIR STATION SECURITY

    Mr. Latham. Thank you, Mr. Chairman, and welcome.
    About 10 years ago, Congress required the TSA to have a 
rule in place for the Foreign Repair Station Security, yet the 
rule, 10 years later, still hasn't been finalized, and it is 
putting us at a huge disadvantage in the global market. I 
understand you went back in 2011, I think, gave the department 
a proposed rule and nothing has happened. What is the problem?
    Mr. Pistole. Yeah. Thank you, Congressman.
    There has been a long and frankly unacceptable process for 
this, this rule also, from the standpoint of us. It was put out 
as a notice of proposed rulemaking, [NPRM] and a number of very 
helpful comments from industry and others were provided, which 
changed the economic impact that had originally been done. So 
the economists went back to update that and so that has all 
been done, and again, similar to the other rule, it has made 
progress, and it is overdue. I agree.
    Mr. Latham. So what is the status?
    Mr. Pistole. I can't tell you specifically, but it is----
    Mr. Latham. Where is it?
    Mr. Pistole. It is somewhere under review. I would have to 
get back with you on that, but I know it has been back and 
forth among a number of--between the lawyers and the economists 
and the budget people.
    Mr. Latham. At the department or OMB, or where is it?
    Mr. Pistole. I would have to check exactly, but I believe, 
yes, to all those, and again, good questions are coming back, 
similar to the public comments we got to the NPRM, but I would 
have to go back and find that specifically to tell you with 
accuracy.

                         PIPELINES, SECURITY OF

    Mr. Latham. Okay. If you could, I would be very interested 
as to what the status is.
    You have some responsibility for pipeline security; can you 
explain a little bit about your role and where cyberprotection 
fits in with respect to pipelines? I don't know what role TSA 
has with the cyber part of this, and I would be curious if you 
engage on advising on security issues for the pipelines.
    Mr. Pistole. Yes. So we do have that responsibility under 
the Enabling Legislation Act, obviously, and so what we do is 
provide classified briefings for the pipeline industry 
representative of the security chiefs. Several months back, I 
guess it was in September, I met with the Alyeska pipeline 
people for obviously the Alaska pipeline, and we talked about 
not only the physical security aspects, but as you mentioned, 
the cyber vulnerabilities and what Alyeska is doing to make 
sure that there is not some type of attack that could adversely 
affect the flow of the oil or gas, whatever it may be.
    We also engage with the pipeline industry on a regular 
basis and say, here is what we have seen around the world in 
terms of attacks or attempted attacks and here are some of the 
things that we strongly encourage you to do. We try to do it 
from a cooperative standpoint, simply from a standpoint of 
buying down risk, because that is a good return on investment 
for the shareholders as opposed to through regulation, and that 
has worked successfully thus far.
    You are still going to have the one-offs. We have had two 
attempted attacks in the last 3 years, one in Texas, one in 
Oklahoma, minor IEDs, if you will. And then, of course, in 
Alaska, we did, every once in awhile, have a person with a 
rifle fire a round through the pipeline, and they deal with 
that. But that is not a terrorist. That is usually somebody 
that has been drinking too much or something else.
    [The information follows:]

    Response: The Final Rule on Repair State Security is undergoing 
review. TSA is committed to issuing the Final Rule as soon as possible.

    Mr. Latham. Thank you, Mr. Chairman.
    Mr. Carter. Mr. Owens.

                              NEXUS CARDS

    Mr. Owens. Thank you, Mr. Chairman.
    Thank you for coming today.
    You mentioned about the Global, Global Entry pass. Are you 
treating NEXUS passes in the same way.
    Mr. Pistole. Yes. We made a policy decision last--I did 
last fall, the 530,000 Canadian citizens who are NEXUS 
cardholders are the first foreign non-U.S. citizens who are a 
part of the TSA PreCheck program, so yes. So if they fly in and 
out of or through the U.S., then they are afforded the same TSA 
PreCheck benefits as if they were a U.S. citizen.
    Mr. Owens. Now, if you display the NEXUS card when you 
appear at a TSA checkpoint, what will the reaction be?
    Mr. Pistole. So you don't have to display the card just 
like you don't have to do the Global Entry card. That 
information, if the person has taken the known traveler number 
from the back of the card and put that in the travel profile 
for the airline you travel on, then that information, the fact 
that they are known and trusted, is embedded in the bar code of 
the boarding pass.
    Mr. Owens. Okay.
    Mr. Pistole. And so it is a boarding pass that is scanned. 
So if you have a card, that can be a form of ID, but that is 
not going to get you in the PreCheck lane in and of itself.

  NATIONAL CARGO SECURITY PROGRAM: COORDINATION WITH U.S. CUSTOMS AND 
                           BORDER PROTECTION

    Mr. Owens. Thanks.
    Follow up on Mr. Cuellar's question before. You talked 
about the National Cargo Security programs and the movement of 
goods. What type of coordination goes on between TSA and CBP? 
As I am assuming CBP is also gathering very similar data.
    Mr. Pistole. Yes. We work in close partnerships. CBP 
obviously has the Air Cargo Advance Screening, ACAS, system and 
the National Targeting Center for both passengers and cargo, 
and so we are embedded with them, and we are very close, 
particularly as it relates to overseas cargo. Of course, we 
have our own regimen here through our Certified Cargo Screening 
Program, CCSP, and facilities. The 150 or so private companies 
that do screening account for about half of the domestic 
uplift.
    As it relates to CBP, CBP acquires that information that 
goes into the decision of, is it a known shipper; is it a known 
shipment; and is it a high-risk location? And so there has been 
great progress over the last year, year and a half, in that 
regard, applying the risk-based, intelligence-driven protocols 
to cargo. So we would not be able to do much of what we do, 
frankly, without CBP's partnership on that.
    Mr. Owens. So, are they providing you the data upon which 
you are making your decision.
    Mr. Pistole. So it depends on--yeah, it works both ways. So 
if it is--if the cargo is going on aircraft, yes. If it is 
going on ships, then, no, so we don't deal with the cargo on 
the ships. CBP would have that.
    Mr. Owens. I understand.
    Mr. Pistole. So, yes, so if it is air cargo--and again, we 
do classified briefings for all the major air cargo carriers, 
and I will say, particularly FedEx and UPS, because they were 
the two carriers that had those printer toner cartridge bombs 
on them back in October 2010. We have worked very closely with 
them in terms of, okay, here is the device, here is what it can 
do, what can you do without regulation that will up your 
security protocols worldwide?
    And of course, again, as I mentioned, it is clearly in 
their best interest to buy down risk and things, regardless of 
what TSA or anybody else says, and they have done that in some 
truly remarkable ways. So it is a great partnership with the 
industry in that regard.

                           BEYOND THE BORDER

    Mr. Owens. Just one last question. Are you engaged in 
Beyond the Border discussions with Canada in terms of, again, 
going back to the movement of cargo, particularly offloading in 
places like Montreal and trying to get the single entry process 
in place?
    Mr. Pistole. We are. And in fact, the recognition of the 
Canadian citizen and NEXUS cardholders was part of the Beyond 
the Border initiative between the two governments, so I went to 
Ottawa, and we signed the agreement, had a little press 
conference and all that.
    But as it relates to what we do have, the one statute 
allows for the one-stop security, if it will, for checked bags, 
as opposed to cargo coming from Canadian airports that have 
commensurate explosive detection screening capabilities, so 
that is in place in select airports. The 14, I believe it is, 
CBP preclearance airports, 8 in Canada, a couple in Ireland, 
and the Caribbean, and one other location, we are working with 
them, so it is a joint requirement. Both TSA and CBP have to 
say that, yes, the security protocols are commensurate with 
ours here before we would recognize that one-stop security.
    Mr. Owens. Thank you very much.
    Mr. Pistole. Thank you, Congressman.
    Mr. Carter. Mr. Fleischmann.
    Mr. Fleischmann. Thank you, Mr. Chairman.
    Good morning, Mr. Administrator.
    Mr. Pistole. Good morning.

                    TECHNOLOGY OPTIMIZATION PROCESS

    Mr. Fleischmann. Technology development is essential to 
being prepared for emerging threats. New technology often faces 
an uncertain path going through TSA evaluation and procurement. 
I understand TSA has initiated a Technology Optimization 
Process, TOPS for short, to expedite technologies in what could 
be a lengthy process. What technologies has TOPS yielded, sir?
    Mr. Pistole. I would have to get back on anything specific 
in terms of deployment. It is a relatively recent initiative, 
and it is primarily our Office of Acquisition doing much more 
industry outreach.
    So, for example, was it Monday, I believe it was, we had 
another industry day inviting any vendor in who is interested 
in submitting a white paper for a third-party vetting for 
trusted travel populations. I would have to get back with you 
on specifics of anything already delivered.
    [The information follows.]

    Response: The Technology Optimization Partnership (TOPS) process is 
part of the developmental test and evaluation process developed by the 
Science and Technology Directorate (S&T) to provide industry with 
specialized government resources and guidance to finish development of 
a product that can pass certification and qualification. A traditional 
qualification test yields simply a Pass/Fail designation, with no 
additional context for industry to attempt to correct the fail points. 
The TOPS process enables industry and government to work 
collaboratively to improve systems that initially fail qualification 
testing by categorizing system deficiencies, offering test articles, 
and providing feedback on ongoing remedial actions. With this 
assistance, industry is often able to successfully course-correct and 
gain certification for their systems. Readiness Assistance provides 
industry with a wide spectrum library of explosives to help companies 
improve detection capabilities, while readiness testing provides 
industry with feedback on the success of their efforts. Recent yields 
from the TOPS process include:
          <bullet>  An American trace explosive detection manufacturer, 
        Implant Sciences, recently qualified the QS B220 ETD as a TSA 
        approved cargo explosives trace screening device.
          <bullet>  An Explosive Detection System (EDS) manufacturer, 
        L-3 Communications Examiner 3DX ES, certified against an 
        enhanced list of improvised explosives, expanding capability.
    The TOPS process decreased the time required for the technical 
maturation of the two referenced technologies, ultimately bringing them 
closer to deployment. The TOPS process is supportive of TSA's 
acquisition cycle because it enables more transportation security 
systems to be qualified/certified in a shorter period of time, helping 
to increase the pool of viable solutions available to TSA.

                     SCREENING PARTNERSHIP PROGRAM

    Mr. Fleischmann. So you will provide that. Thank you, sir.
    My next question. The GAO has conducted 3 studies regarding 
the Screening Partnership Program, the SPP, in an effort to 
establish meaningful apples-to-apples evaluations and 
performance comparisons between SPP and non-SPP security 
officers. In the 2009 study, the GAO identified 10 analysis 
limitations regarding TSA's information which a 2011 study 
recognized had only been partially addressed. Still there 
remain 4 of 7 cost analysis limitations and 3 out of 3 
performance analysis limitations which still require further 
TSA information and clarification.
    The 2012 GAO study noted cost issues still remain 
unaddressed and that the TSA had committed to provide 
meaningful apples-to-apples performance comparisons by the 
first quarter of Fiscal Year 2013.
    Mr. Administrator, when may Congress and the GAO expect to 
see meaningful cost and performance comparisons between SPP and 
non-SPP airports?
    Mr. Pistole. Thank you, Congressman.
    I would say as quickly as possible. I can't give you an 
exact date, but I will say that both IG and GAO have provided 
some very good recommendations for us. We collect a lot of 
data. I can tell you exactly how much we spend on TSA security 
at the 435 or so airports and exactly how much we, the U.S. 
taxpayers pay, at the SPP airports. The one thing I would note, 
although the GAO and IG reports again have those good 
recommendations, there was a particular committee report that 
did an apples-to-oranges comparison that I think was 
misleading. They compared San Francisco to LAX and came up with 
some different efficiencies. A more, if I could suggest, a more 
accurate comparison would be San Francisco to Atlanta, where 
the cost, because of airport configuration, number of travelers 
and all that, and the cost is actually less per passenger for 
security screening at Atlanta. Of course, the TSA airport 
versus SFO, San Francisco, and SPP airport, so it is a number 
of ways you can look at the dollar figures and stuff, but I 
commit to you to get those as quickly as we can.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Fleischmann. Thank you.
    Mr. Chairman, do I have time for one more question?
    Mr. Carter. Yes.

             TECHNOLOGY CERTIFICATION PROCESS, STREAMLINING

    Mr. Fleischmann. Thank you, Mr. Chairman.
    One final question, Mr. Administrator. Innovation can be 
driven by small businesses, which may be innovators but face 
financial constraints in meeting TSA technology certification. 
How is TSA working to streamline its certification process to 
preserve the integrity of that process, while making it more 
accessible for participation by small, innovative, but more 
financially limited companies, sir?
    Mr. Pistole. Thank you. Along with our expanded industry 
outreach and having additional industry days where any 
interested vendor, small business, disadvantaged, all the--any 
vendor who is interested in working with us to provide the best 
possible security at the best price, we have expanded those 
significantly. There is also an initiative that we undertook 
last year with the private sector to hold at least several 
times a broader open, so not just the big vendors but any small 
vendor, and I will go and speak to that group and say, 
``Provide the vision. That is what they are looking for, so 
where is TSA going? What does PreCheck look like down the road? 
What technology do you need to enable that broader expansion 
and then have several engagements along those lines.''
    So, I think we are in a much better spot now than we were 
say even a year ago, and we are making good progress, but 
obviously always are open to suggestions, recommendations how 
we can improve.
    Mr. Fleischmann. Thank you, sir.
    Mr. Chairman, I yield back.
    Mr. Carter. Ms. Roybal-Allard.

        SEQUESTRATION IMPACTS: TRANSPORTATION SECURITY OFFICERS

    Ms. Roybal-Allard. Okay. Thank you, Mr. Chairman.
    And welcome, Mr. Pistole.
    Before I ask my question, I would like to clarify the issue 
of the release of undocumented individuals from detention 
facilities that was mentioned in the beginning of the hearing 
because I don't want the public to be unnecessarily alarmed.
    The detainees in question are not dangerous criminals; they 
pose no risk to society. And they were not simply released into 
society, but rather they were placed in a alternatives to 
detention program, which has proven to be a very secure program 
with a success rate of over 90 percent. By putting them into 
this alternatives detention program, the cost is $10 a day, as 
opposed to $120 a day when they are held in a detention 
facility, so it was my understanding that it was a cost-saving 
move by the agency.
    You know, I also am very concerned about what the impact of 
sequestration will be and particularly as it applies to LAX, so 
I am not going to take up the time of the committee to discuss 
LAX, but I would like some information on how you plan to 
mitigate the impact there, but also, it is also my 
understanding that the hiring freeze could have an impact even 
months after the sequestration is lifted because it typically 
takes more than 2 months between the time a new TSO is hired 
and then when he or she can actually start working at an 
airport.
    So how much time, in terms of the hiring freeze, can go by 
before you would actually start to feel that impact, and 
perhaps we could end up with a void in the number of TSOs that 
we actually need?
    Mr. Pistole. Right. So, again, the hiring freeze is all 
predicated on if the sequester goes in effect and then for how 
long, and obviously, we will monitor that very closely. That 
being said, even if we put on a hiring freeze, we could still 
process applications for positions that would be in queue when 
the sequester and then the March 27 date comes and goes, 
presumably positively. Then we would be in a position later on, 
the spring or summer, whatever we are talking about, to have 
people in queue ready to be hired. From the time they are 
hired, I mean, there is some basic training and then on-the-job 
training, but that is a fairly short period as opposed to the 2 
months that you mentioned.
    Ms. Roybal-Allard. Oh, okay. So, are you talking a short 
period of time, you talking 2 weeks, 3 weeks?
    Mr. Pistole. Yeah, closer to 2 weeks rather than 2 months.
    Ms. Roybal-Allard. Okay. And this is on-the-job training?
    Mr. Pistole. There is formal classroom and other training 
just to learn our standard operating protocols, all the basics, 
and then they do have some OJT [on-the-job training], so--and 
you will see them; they won't have the same uniform, and they 
are usually following somebody else around so they can learn 
the ropes, so yeah.

                      RACIAL PROFILING ALLEGATIONS

    Ms. Roybal-Allard. Okay.
    In August, the New York Times reported that TSA behavior 
detention officers at Logan Airport in Boston had been accused 
of engaging in widespread racial profiling, and according to 
the Times, this pattern of misconduct was so blatant that the 
Massachusetts State Police eventually questioned why all of the 
cases referred to them by your agency involved minorities. One 
TSA officer even complained that, and this is a quote, ``the 
behavior detection program is no longer a behavior based 
program, but it is a racial profiling program.''
    Similar allegations have also been made at airports in 
Honolulu and Newark. It is my understanding that the DHS Office 
of the Inspector General and DHS Office of Civil Rights and 
Civil Liberties are looking into the racial profiling charges. 
Can you update us on that investigation and describe the steps 
that you are taking to insure that behavior detection officers 
at other airports, including LAX, are not unfairly profiling 
the traveling public?
    Mr. Pistole. Yes. Thank you, Congresswoman. And I am 
looking forward to the DHS inspector general report as it so 
that relates specifically to the Boston allegations that the 
New York Times ran, and I am looking forward to an updated 
story from the New York Times when that report comes out. I 
have had a couple of conversations with the acting inspector 
general of the IG to get those updates. I am not in a position 
to provide what those initial results of that inspection or 
investigation are, but I am looking forward to that coming out. 
I believe it will be in the next 30 days, and I have been 
waiting on that report to use as a barometer, if you will, for 
how we go forward.
    Now, that being said, as soon as those allegations surfaced 
late last summer, we undertook a retraining of every behavior 
detection officer across the country to make sure that they are 
not profiling based on anything, not race, ethnicity, gender, 
religion, whatever it may be. It is all behavior based, and it 
is similar to, you know, my career in the FBI [Federal Bureau 
of Investigation] in looking--and in law enforcement--you look 
at behaviors of people, not who they are, because we teach our 
security officers that terrorists don't have any particular 
face. We have a chart that shows, for example, Timothy McVeigh, 
you know, U.S. born and bred, Army veteran and yet he blew up 
Oklahoma City, the courthouse, the Murrah courthouse. So we 
have--it can be anyone.
    So the focus is on their behavior. And our BDOs, behavior 
detection officers, several times per week will identify 
somebody who is either, they are demonstrating suspicious 
behavior, and when approached, they are perhaps a drug courier; 
they may be a money launderer carrying excess cash and secreted 
or something; they may be an illegal alien; they may be a 
wanted fugitive, and there is an outstanding warrant for them. 
So those are all types of categories that we look at, but I am 
looking forward to that IG report to help us and to any 
recommendations that come from that to say, yes, this is a 
valuable program. If we need to make changes in either the way 
we train or deploy and execute on that mission, then I am 
obviously very much interested in that because, obviously, we 
are not going to profile, we are going to look at suspicious 
behavior as one of our many layers of security.
    Ms. Roybal-Allard. And that report will be available to the 
committee?
    Mr. Pistole. Yes. I understand that, again, in the next 30 
days, it should be available.
    Ms. Roybal-Allard. Okay.

                           CANINES: PRECHECK

    Mr. Carter. Ms. Roybal-Allard, I would like to thank you 
for your comments on the information you provided us.
    This committee actually has asked the Administration to 
provide the information about those released prisoners, and I 
actually talked to Ms. Napolitano last night about it. We have 
not been given as clear a definition as you gave us. It is my 
understanding from various reports that some of those people 
were released on their own recognizance, so you gave us some 
additional information, even though we kind of tried to lay the 
framework that we were not going to go into all that, but we 
have done it, and that is fine. And I guess for another day, we 
will determine whether or not that is catch or release.
    I guess it is my turn. I am a big fan of dogs, too. I think 
I told you that when we met before. At one time, I owned as 
many as 17 dogs, which is kind of insane, quite honestly. I 
have a wife who is quite a dog lover, and I love her very much, 
so we have lots of dogs. We are down to five now.
    How is TSA including the canines in TSA PreCheck today to 
expedite the flow of passengers through security lanes? Is TSA 
planning future initiatives that include canines where 
passengers can qualify for the expedited screening process?
    Mr. Pistole. Yes. Thank you, Chairman.
    We are using them on an as-available basis for people in 
TSA PreCheck, but the greatest opportunity that I see for 
assisting in the expansion of the known and trusted population 
is that real-time assessment at the airport through managed 
inclusion, which I mentioned is in Indianapolis, Tampa, and now 
Honolulu starting tomorrow, where again, if we can have high 
confidence that the passenger going past that canine is not 
carrying explosives and then behavior detection officers can 
make that assessment, then that will allow us to populate, if 
you will, the PreCheck lanes in a more efficient way.
    So the PSC dogs, they are not the only--the passenger 
screening canine, are not the only way of doing that, but it is 
a key way.
    Now, for example, the day after the Superbowl in New 
Orleans, where New Orleans may have the low tens of thousands, 
or 10,000; 12,000; 13,000 people traveling every day, they had 
39,000 people leaving New Orleans the day after Superbowl. 
Using the passenger screening canines that we brought in from 
other airports and then the whole notion of managed inclusion, 
we were able to expedite the physical screening because of 
those two criteria. So the dogs were a great assistance and 
some of your colleagues, both in the House and in the Senate, 
remarked very favorably about that use of the passenger 
screening canines to achieve that outcome.
    Mr. Carter. They are pretty amazing at what they can do. 
Now, I do know that they are just like any other employee; once 
in awhile, they have to rest.
    Mr. Pistole. They do need breaks every once in awhile.

               ADVANCED IMAGING TECHNOLOGY: REDEPLOYMENT

    Mr. Carter. And you will evaluate that resource and 
determine what their work period is.
    TSA originally proposed to deploy 1,800 AIT systems 
nationwide. They have been funded for 1,250 of them. However, 
because one vendor could not provide the automated target 
recognition on its systems, you have withdrawn 250 systems in 
your current inventory. What is your current plan for 
backfilling those systems and what will your coverage be for 
the near term, and finally, can TSA substantially reengineer 
its checkpoints for security efficiency and cost control?
    Mr. Pistole. Yes. Thank you, Mr. Chairman.
    So, given those manufacturer issues, not complying with the 
contract and having to remove those and really the expansion of 
the risk-based security initiatives, where we want to use the 
advanced technology for those higher unknown risks, if you 
will, while we expedite the known and trusted travelers, we 
have done a reassessment of our need, so we don't--I don't 
believe we need 1,800 now. It is a lesser number than that, and 
we are in the process of doing a redeployment as those--the 
machines without the privacy filter, the ATR. As we pull those 
out, then we strategically redeploy the existing ones with ATR, 
and that will all be accomplished by May 31.
    I think we are down to 140-some of those machines out there 
now, and we have a good schedule each week on that 
redeployment, so we would be glad to provide that to the 
subcommittee in terms of that specific deployment schedule if 
you are interested.
    [The information follows:]

    Response: As of March 7, 2013, there were 130 Rapiscan Advanced 
Imaging Technology (AIT) machines remaining at airports nationwide. All 
Rapiscan AIT units will be removed from airports by May 31, 2013, to 
comply with requirements in Section 826 of the ``FAA Modernization and 
Reform Act of 2012.'' More detailed information is designated Sensitive 
Security Information and can be provided separately to the Committee.

                      EXPLOSIVES DETECTION SYSTEMS

    Mr. Carter. All right. Thank you. That is good.
    Finally, TSA has invested about $3.5 billion in the EDS and 
infrastructure. It is now looking at requirements to 
recapitalize and upgrade the systems, some of which are a 
decade old. Your December spend plan reflected procurement of 
about 40 percent of the total number of EDS proposed in your 
fiscal year 2013 budget at the same time that--your most recent 
monthly report showed that you had $728 million in unobligated 
balances to be applied to this effort, including $576 million 
in mandatory capital fund resources. These are large balances 
to carry under a CR.
    What are your priorities for the EDS replacement and 
upgrades? Are you expediting this effort or withholding funds 
subject to completion of the competitive process, and why are 
you carrying such large balances in these accounts?
    Mr. Pistole. Thank you, Mr. Chairman.
    Obviously, our explosive detection systems are a key 
enabler of facilitating the movement of people and goods, and 
in those airports where we have the most efficient, the in-line 
systems, they greatly facilitate that travel and safe travel by 
screening every checked bag for explosives.
    That being said, as you correctly noted, some of the 
equipment is 10-plus years old now and is in need of 
replacement, and so that whole recapitalization focus has been 
on those machines that are in greatest need. We have seen some 
limited circumstances of machines outliving their useful life 
as had been projected, and so we are trying to maximize those. 
And so the whole notion has been let's not have a tidal wave, 
if you will, in one fiscal year in which all the equipment 
stops working. So we are trying to be very judicious in our use 
of funds.
    And so part of that was some of the equipment lasted longer 
than we thought, so we did not have to apply those funds, let's 
say in fiscal year 2012. So we are now in 2013, and we are 
trying to be good stewards of taxpayers' dollars in that 
regard.
    Mr. Carter. How are you applying the $33.5 million you 
identify in the plan for technological engineering initiatives? 
Will these include potentially major changes in the process and 
result in large savings in resources and efficiency? Will this 
include looking at the entire checked baggage process, 
including using lease agreements or arrangements and pre-
engineered modules?
    Mr. Pistole. So, we have looked at some other options, such 
as lease agreements, as opposed to the acquisition and the 
maintenance cost that are associated with that. What we have 
seen thus far in terms of informal proposals, if you will, is 
that the cost and the requirements upon basically Congress and 
budgeting exceed not only 1 year or 2 years but longer term, so 
that has been one of the limitations. Do you and do we bind 
future Congresses and administrations into something that would 
be perhaps the most cost efficient but long term? So, we have 
looked at that, but we have continued with our acquisition and 
recapitalization initiative to best address that in the most 
cost-efficient way.
    That being said, I will have to get back with you in terms 
of the specifics that you mentioned, and we will pledge to do 
that.
    [The information follows:] 


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Carter. Your December spend plan showed some 
improvements in coverage for the top four categories at 
airports, with 91 percent having some coverage. Are you 
planning to introduce more EDS at airports that currently lack 
coverage?
    Mr. Pistole. Obviously the goal would be to have EDS 
everywhere. It really becomes a fiscal budgetary issue then, 
and how much risk do we buy down by having a system in an 
airport where there is a lower number of passengers? And simply 
from a risk-mitigation standpoint, how much do we buy down? And 
so, in an ideal world, yes, I would say, here is where we will 
be. We are not in that world----
    Mr. Carter. No we are not.
    Mr. Pistole. So we deal with what we have and try--we make 
a very informed judgment as to where we can achieve the 
greatest risk reduction with the greatest efficiencies in 
partnership with the airport authority, so it is a very active 
discussion, let's say, when it comes down to where we are going 
to be and who should be reimbursed and all those things.
    Mr. Carter. Thank you, Mr. Pistole.
    Mr. Price.

                           MANAGED INCLUSION

    Mr. Price. Thank you, Mr. Chairman.
    I would like, in this final round, to touch on two matters 
that you have mentioned but not given full details on, and so I 
would like to explore some of those details.
    First, the managed inclusion pilot program, and secondly, 
some of the technologies that you are developing for next-
generation detection.
    Managed inclusion first. This is a pilot at two airports, 
as I understand it, Indianapolis and Tampa. These pilots allow 
passengers, who are not enrolled in PreCheck but are favorably 
vetted by Secure Flight, to be randomly sent to the PreCheck 
lane for screening. Now, there is some flexibility in the 
screening protocols at PreCheck lane, so you are deploying 
canines and additional behavior detection officers at these 
PreCheck lanes that are piloting this managed inclusion 
approach. Due to low PreCheck enrollment to date, this permits 
the underutilized checkpoint lanes to be utilized more fully. I 
understand you tried this out at the Superbowl period in New 
Orleans.
    So, two questions. How do you evaluate the managed 
inclusion pilot so far? If they are successful, are you working 
with other airports to roll out this approach and locations 
that currently have underutilized PreCheck lanes? And then, 
secondly, what other plans do you have to make existing 
checkpoint screening capabilities both more secure and less 
cumbersome for travelers not on PreCheck? Are there any 
programs in place to provide some or all of the same PreCheck 
benefits to all passengers based on technological developments?
    Mr. Pistole. Thank you, Ranking Member Price.
    So, as we assess the results of managed inclusion, it has 
been very positive thus far in several respects. One is from an 
efficiency standpoint, where we are better able to utilize our 
workforce to accomplish the security screening of larger 
numbers of people with a better throughput rate and, frankly, 
better passenger satisfaction, but that is all undergirded by 
the security benefit we get because, as you noted, these are 
people who are not on a terrorist watch list. They are people 
who we just don't know much about, other than name, date of 
birth and gender, as required by statute. And so if our focus 
is on the non-metallic improvised explosive device, which that 
is what I have been told under RBS--I said that is where we 
have to focus because that is what the terrorists are using to 
try and exploit what they see as vulnerabilities. If we can buy 
down that risk through the passenger screening canine and the 
behavior detection officers, the person is not on a watch list, 
and we have that opportunity to get them into a PreCheck lane, 
then let's do that.
    So, you mentioned Tampa and Indianapolis. Tomorrow, again, 
we will start a third pilot site at Honolulu. There are some 
unique characteristics about intra-island travel that 
facilitates that, and so that is a benefit for us. We are 
looking at several other airports that we want to roll out 
managed inclusion, as we did the day after the Superbowl in New 
Orleans.
    Part of it has been this inspector general report on 
behavior detection officers, and some of the allegations in the 
New York Times that I am hoping will prove to be unfounded--
and, again, I look forward to that story if that is the case, 
because if that is the case, then we are able to use our 
behavior detection officers and the passenger screening canines 
in a much more effective and efficient way to get to your 
latter point about moving more people into the PreCheck lanes.
    Now, the last part of that. We are looking at other 
opportunities to do that with the general public. It is a 
little bit premature to go in that detail now, but I am hopeful 
that, later this year, we will have some other initiatives that 
we can talk about and inform the committee about that will 
accomplish exactly what you are talking about.
    And then one of the--the one thing I can comment on is that 
we are looking at a TSA-enabled trusted traveler program so 
people can sign up for PreCheck without having to sign up for 
Global Entry. So, for example, Acting Commissioner of CBP told 
me after the first of the year that 41 percent of the people 
who were signing up for Global Entry in the last quarter of 
2012 were actually just interested in the TSA PreCheck 
benefits, so they either didn't have a passport, which you have 
to have for Global Entry, or they weren't planning on 
international travel. They just wanted the TSA PreCheck 
benefits.
    So, right now, unless you are invited by the airline as a 
frequent flier, signing up for Global Entry is the only way and 
you have to get a passport if you do not have that. So what we 
are working on is a TSA solution to that, which will be similar 
to what we do with the vetted populations on credentialing with 
the Security Threat Assessment, the STA that we do, something 
similar to that where people could sign up with TSA, rather 
than CBP, to get simply the TSA PreCheck benefits and then 
hopefully be able to, quote, upgrade, if you will, to the 
Global Entry benefits if they got a passport and could use some 
of that same information.
    There may be some additional requirements involved in that. 
So those are some of the discussions. I am hopeful and 
confident, actually, that, later this year, we will roll that 
out, which will greatly expand the accessibility, if you will, 
and still be a fee-based service. We still have those issues to 
go through, but that is one of the ways we looked at expanding 
that known and trusted population.

                  NEXT-GENERATION DETECTION TECHNOLOGY

    Mr. Price. All right. That is helpful. Thank you.
    Let me quickly move to the question of the next generation 
detection technology. I raised this in my opening statement, 
and I want to ask you to address the apparent puzzle about the 
stage we are now at with regard to developing this technology.
    Last June, TSA released a request for information for 
industry to explore the potential development of a computed 
tomography-based explosives detection system for use at 
passenger screening checkpoints. This is the same technology 
that has long been used to screen checked baggage for 
explosives, but now, here comes the puzzle. On December 20th 
last year, S&T released a broad agency announcement, that is a 
precursor in many ways to request for information for the next 
generation of EDS devices which would improve TSA's 
capabilities to detect current and emerging improvised 
explosives threats while reducing the likelihood of a false 
alarm partly through an improved library of improvised 
explosive threats.
    This technology, according to S&T, would change TSA's 
procedure for scanning baggage as to checkpoints and screening 
facilities. So S&T plans, we understand, to spend $25 million 
on this effort over a 2-year period. Contract award, however, 
is not anticipated until later this year, in August, I think.
    Okay. So an accepted threat is the lone wolf scenario, 
generally, and as we have all seen, what seems to be the 
growing propensity for suicide threats. Why is it that the 
computed tomography technology used for explosive detection in 
checked bags, which is quite mature and may be readily 
adaptable to the checkpoint, why has that not been developed 
for the specific requirements of the checkpoint?
    Has TSA identified any credible suppliers for this 
capability? Has TSA funded any developments for these 
solutions? If so, how much more funding is going to be required 
to develop this capability?
    And then, secondly, what is S&T undertaking? Are you 
working on two separate technology projects using EDS that will 
better identify explosive materials hidden in carry-on baggage 
or should we consider S&T's efforts a step backwards from the 
request for information TSA issued last June. Just help us 
understand what is going on here.
    Mr. Pistole. Yes. There are a number of details involved in 
your two-part question there. Let me first say, on technology, 
we--TSA and S&T [Science & Technology Directorate], 
particularly TSA because we are the users of that--are always 
looking at the best detection capabilities at the best price, 
and so that is why we have our Transportation Security 
Integration Facility, just south of Reagan airport here, to 
make sure that we can test and assess and validate the 
effectiveness of the technology before we deploy it in the 
airport, which was not something that we did several years ago, 
and there is some not good success stories stemming from that 
inability to do that.
    As relates to the interaction with S&T, we usually work 
very closely together. Dr. Tara O'Toole and I talk frequently 
in terms of what are we looking for, and so whether it is shoe 
detection, explosives in shoes or is it on--with bottled liquid 
scanners, all those things--we help drive and, set and drive 
the requirements for that.
    In terms of the specific, the computer topography-assisted 
technology, there have been some issues about the application 
at the checkpoint in terms of the size of the detection 
equipment and the usefulness and the cost as it relates. I will 
have to get back with you on the specifics of that. I have not 
focused on that in awhile, so I will have to get updated on 
that and get back with you and the committee on that.
    Mr. Price. Well, it is a puzzle, and I must say you are not 
totally clearing it up, so I look forward to your getting back 
to us.
    Just on the face of it, why would S&T undertake a project 
of this sort without full consultation and without it being 
designed in a way that is fully responsive to the needs you are 
already in the process of addressing?
    Mr. Pistole. Sure. Obviously, S&T is responsible for the 
entire department, and so CBP, Coast Guard, perhaps even ICE 
[U.S. Immigration and Customs Enforcement], you know, have some 
requirements, and part of their--S&T's challenge is to find the 
most cost-effective technology that can be deployed more 
broadly than just one particular agency. So if you can have a 
particular--let's take the advancing technology. If there was 
some application to another DHS component or a U.S. Government 
component with slight modifications, then is that more cost-
effective for the taxpayers than having stand-alone systems? 
And so that is part of the challenge S&T has.
    But again, I will have to get back with you on the details 
because generally, we have very good cooperation and 
requirements-driven processes where we are always interested in 
spiral development, the next generation, if you will, of the 
existing technology, but we are also looking for that 
breakthrough technology that can get us to the best possible 
detection level at the best price. So that is, again, that is 
our under- or overriding architecture that we want to use. I 
just have to get back on the specifics on this.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Price. Thank you.
    Thank you, Mr. Chairman.
    Mr. Carter. Ms. Roybal-Allard.

                            EMPLOYEE MORALE

    Ms. Roybal-Allard. Mr. Pistole, I would like to talk a 
little bit about low employee morale at TSA.
    In a recently released Partnership For Public Service 
ranking, DHS, as a whole, finished last on the list of the best 
places to work in the Federal Government, and TSA was at 45 
percent, I believe, was second to the last and had the worst 
job satisfaction rate of any DHS component.
    These are troubling statistics, given that morale does have 
an impact on how someone performs their job, and it also, in 
this case, is also important because of the way TSA agents come 
across to the public also impacts the public's attitude toward 
TSA.
    A hopeful sign was that you just completed a new collective 
bargaining agreement on which you negotiated with the American 
Federation of Government Employees Union, and I believe that 
that agreement gives transportation security officers a 
stronger voice under working conditions and in the system used 
to evaluate their performance.
    What other steps are you taking to improve employee morale 
at TSA to improve job satisfaction, reduce the attrition rate 
and also to give the traveling public a more pleasant 
experience?
    Mr. Pistole. Thank you, Congresswoman.
    A number of good questions in there. Let me start by saying 
that, you know, the vast majority of men and women in TSA are 
dedicated public servants who want to do the best possible job 
in the most professional way day in and day out. And let's face 
it, it is a very demanding, challenging job where you deal with 
people who sometimes are not friendly, not engaging, not 
positive, and we have even had TSOs assaulted, physically 
assaulted, in addition to the verbal abuse that some take, so 
it is a very demanding job to start with.
    That being said, our attrition rate is actually much lower 
than what most people would access. We are around 7.5 percent 
for our full-time workforce, and so that is a positive.
    I think part of it has been the policies that we in 
Washington have put on all of our security officers to be 
focused on these items, if you will, these prohibited items as 
opposed to the person and what that person may do. And an 
example I give is, so as an FBI agent for almost 27 years, I 
traveled armed every time I traveled, but I never went through 
airport security because, you know, I would go the alternate 
route, but I got on the plane armed.
    So as we can focus more on known and trusted and treat 
people with respect and dignity and professionalism, especially 
those that we know and trust because we are exercising physical 
security, what we have seen is a much more positive 
interaction. So that the nearly 7 million people who have been 
through PreCheck, those are people who have a positive 
experience with TSA, and they are giving that feedback 
oftentimes to the TSOs at the checkpoint, which has a positive 
impact in sharing that.
    And so, one of the things we have done is try to focus on 
the training in the workforce. So, for example, last year, we 
provided every TSO with training in what we call TACCOM, 
tactical communications. And the whole purpose of that is to, 
if you are a TSO and I am an unruly passenger coming through 
and I start yelling at you, the normal response may be to get 
in you--to react in the same way. The whole purpose of TACCOM 
is to help diffuse that situation and to work with that person 
to get through whatever the issue is, recognizing they still 
need to go through security; they are going to go through 
whatever that is but do it in a more professional way, an 
engaging way, in a partnership, rather than it is us versus 
them.
    So I think that training has been helpful. We also created 
last year just out of hide, a TSA academy, and that is at the 
Federal Law Enforcement Training Center in Glynco, Georgia. The 
whole goal is to help empower and professionalize the workforce 
through training opportunities. We have what we call 
associate's programs in Homeland Security around the country, 
where hundreds and hundreds of TSOs have taken Homeland 
Security classes and received an associate's degree in Homeland 
studies. So that is helping in that regard.
    This TSA academy, though, we have had over 500-650, I 
believe--supervisors go through this first iteration because 
supervisors are so important in terms of managing the 
workforce, getting feedback, translating the directives from 
headquarters, and so forth, and so that has been very positive 
feedback. That is a 2-week course. Some of our supervisors had 
not had any formal leadership training, so that is part of it.
    So the whole notion is take this group of people, 50,000 
people, that were hired after 2002, many of whom are still with 
us, and to make sure they have the best training, the best 
engagement skills, the best professionalism, if you will, and 
so all those things are an issue. There are other things they 
go into, but that is really the focus.
    Ms. Roybal-Allard. Yeah. I just want to suggest that also 
one of the problems is--and I travel through LAX--is that very 
often you get the TSOs yelling at you or the way they talk to 
you in a way that then creates this adverse reaction from the 
public, and so I think that is also a very important scenario 
to address.
    Mr. Pistole. It is, and that is part of what this tactical 
communication training is; you don't yell at a passenger. You 
may disagree with the way the passenger is treating you, but 
you don't respond in kind.
    Ms. Roybal-Allard. Or just a ``get against the wall'' or 
whatever it is.
    Mr. Pistole. You diffuse the situation, and because in 
doing that, you can help the throughput, you can get the people 
moved on and get to the next person. But it is, as noted, it is 
a very challenging, demanding job. And so we work at those 
other things we can do to help empower the workforce.

                           COMPLAINT HANDLING

    Ms. Roybal-Allard. And along those same lines, I have 
received a lot of complaints about TSA's poor record of 
customer service. Between October 2009 and June 2012, your 
agency received more than 39,000 complaints from passengers 
through the TSA contact center. And even more concerning is the 
fact, as I understand it, according to a November 2012 report 
by GAO, TSA lacks an agency-wide policy or consistent process 
to guide how it handles that information. GAO also concluded 
that better complaint policies could help TSA to enhance both 
its operations and its customer service.
    So what steps are being taken to improve the way you handle 
complaints in response to GAO's report?
    Mr. Pistole. Let me start by saying, anecdotally, the 
number of complaints are down substantially, for example, in 
the 75 and older and 12 and under categories because we 
modified those screening approaches more than a year ago, 
almost a year and a half ago for 12 and under. We have also 
consolidated all those; from the recommendations from that 
report, we consolidated our complaint reporting system so we 
can better track and address. But one of the key enablers for 
us is this passenger support specialist.
    Again, 2,500 people, for many of whom it is a collateral 
duty, because you don't have a complaint every minute or even 
every hour or day in some smaller airports. And so how can that 
PSS [passenger support specialist], as we call them, engage and 
resolve the situation at the checkpoint so by the time the 
person is walking away from the checkpoint, it has been 
resolved? And thus far, we have had--I will have to get the 
exact figures--over 500 opportunities to engage in specific 
situations. So we just drew this up a few months ago, and in, I 
believe, 90 percent of those, the situation is resolved at the 
time the person walks away from the checkpoint, and so that has 
been one of the lingering issues from before. The people would 
walk away; they are really upset. And then they think about it, 
and then they do something, as opposed to resolving it at the 
checkpoint. And that is our goal: to make sure that we have 
secure satisfied passengers as they walk away from a 
checkpoint. So that PSS program, I think, will go a long way.
    We also instituted in the last year, since our last 
hearing, TSA Cares, a hotline, particularly for people with 
disabilities and those who may need additional assistance or 
information. We put a lot of information on our TSA.gov Web 
site, to say, if you have this situation, here is what you can 
do. But we do have these, on the TSA Cares hotline, people who 
call to get information about, okay, here is my medical 
condition or here is my situation, how can you work with me? 
And it may even, again, manage expectation, but it may even 
involve personal assistance at the checkpoint before you get to 
the checkpoint.
    Now that, just given our resources, that would be very 
limited, but there is lots of good information, so I would 
encourage anybody with questions to go to the TSA.gov Web site 
and just say, here is my issue, how can I best be prepared, 
because obviously, a well-informed, prepared traveler is a 
great partner for us. So we can work in partnership to help 
them get through in a safe and secure way.
    [The information follows:]

    Response: As of February 26, 2013, there have been a total 
of 2,094 Passenger Support Specialist (PSS) interactions at 145 
airports. Of the 2,094 interactions, 936, or approximately 45 
percent, were deemed significant. Note: A ``significant'' 
interaction is defined as an interaction in which the PSS was 
utilized by the passenger to perform duty as trained. For 
example, an interaction in which a PSS assists a passenger with 
medical needs through the screening process would be considered 
``significant.'' On the contrary, a PSS helping a passenger 
find his or her departure gate is recorded as an interaction, 
but is not considered significant.

    Ms. Roybal-Allard. I just wanted to say also there have 
been some very positive experiences also with the TSO, 
especially the young women who pat you down.
    Mr. Pistole. Yeah.
    Ms. Roybal-Allard. They are very professional and very 
courteous, at least that has been my experience.
    Mr. Pistole. Thank you for that positive feedback. I am 
sure the workforce will be glad to hear that. Thank you, ma'am.
    Ms. Roybal-Allard. Thank you, Mr. Chairman.
    Mr. Carter. Thank you, Mr. Pistole.
    We appreciate you. We have given you a long day here, but 
you have done a great job. Thank you for coming.
    Before I close this hearing, let me take a minute on the 
record to recognize the service of one of the subcommittee's 
outstanding professional staff members, Jeff Ashford, right 
here.
    Jeff is abandoning us. No, he is moving on to continue to 
work for another Appropriations subcommittee. This time, he is 
going to be working for Commerce, Justice, Science. You know, 
that is the big kids, and we are proud he is going there.
    We want to let you know we thank you for what you have done 
for this committee. You have been here since it started 10 
years ago. You have been a great resource and a great help, and 
I personally want to thank you, and I am sure all the previous 
chairmen would also like to thank you for your service, and I 
hope you don't forget about us. The door will still be open 
over here. You can come back and say hello.
    Mr. Price. Mr. Chairman, let me confirm that. Indeed, the 
previous chairman would like to thank Jeff. I can approve that 
instantaneously because I had four very pleasant years as 
chairman working with Jeff and appreciating his depth of 
knowledge, his professionalism, his cooperative approach, his 
ability to work with the staff team. He has been an outstanding 
member of this subcommittee's staff, and I am sure he will do 
great work at Commerce, Justice. Hard to imagine why he would 
want to abandon us, but we wish him well and we thank him for 
his continuing service.
    Mr. Carter. All right. With this, we conclude our hearing.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                         Wednesday, March 13, 2013.

OVERSIGHT HEARING--FEDERAL EMERGENCY MANAGEMENT AGENCY--HURRICANE SANDY 
                                FUNDING

                                WITNESS

W. CRAIG FUGATE, ADMINISTRATOR, FEDERAL EMERGENCY MANAGEMENT AGENCY

                   Opening Statement: Chairman Carter

    Mr. Carter. All right. This hearing is called to order. And 
it says here on this piece of paper: gentle strike of the 
gavel. I will tell you a story. I never struck a gavel in 21 
years on the bench but one time. Had a room about twice this 
size full of lawyers, and all of them were talking and I could 
not get them to shut up. And if you have never hit the gavel 
and you slam it down, it is very effective. But you can use it 
too much. So we will not use it too much.
    This morning we welcome Administrator Craig Fugate to 
discuss the response and recovery to Hurricane Sandy.
    Administrator, I want to thank you for being here and 
joining us today. This is important business we are talking 
about. Last week, Mr. Price and I traveled to New York to see 
firsthand the impact of the hurricane on the area. And we 
reviewed the recovery from the devastation of the hurricane and 
the widespread flooding that many areas experienced as the 
storm pushed inland.
    It is very obvious to me that while much has been done, 
there is still a long road ahead for thousands of organizations 
and families that are struggling to find the new normal. We 
look forward to hearing from you today on the status of FEMA's 
response and recovery efforts and what challenges you will face 
long term from the recovery. The recently passed Hurricane 
Sandy supplemental provides you with new authorities that will 
enable FEMA to provide communities with additional options for 
recovery, to include cost estimates for public assistance 
grants and new debris removal programs. We look forward to 
hearing how these new authorities will allow for a quicker and 
more cost-effective recovery. Further, we want to hear how we 
can continue to find more efficient and effective ways to 
respond and recover from disasters. This is vitally important 
to our Nation as our Nation confronts our fiscal crisis.
    Administrator, your written statement will be placed in the 
record, so I ask you to take 5 minutes to summarize it.
    I would now like to recognize Mr. Price, our distinguished 
ranking member, for his opening remarks.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                      Opening Statement: Mr. Price

    Mr. Price. Thank you, Mr. Chairman. I am pleased to join 
you in welcoming Administrator Fugate to this hearing on 
disaster response and recovery.
    The work of FEMA is critical in helping our country prepare 
for, mitigate against, and recover from disasters. Over the 
past few years, the number of Presidentially declared disasters 
has skyrocketed. In 2011, for example, there were 99, an 
unprecedented level. In comparison, 2012 had about half of that 
number, with 47 Presidentially declared disasters, but it 
included Hurricane Sandy, a storm of historic magnitude. 
Currently, every State in the Nation has pending disaster 
recovery projects with FEMA. And now, with the passage of the 
Sandy supplemental, we are seeing direct requests for disaster 
declarations from tribal areas as well.
    As the chairman said, he and I visited New York last week 
to witness the damage caused by Hurricane Sandy and to review 
the rebuilding efforts, a storm, as we know, that lashed the 
States of New York, New Jersey, Connecticut with heavy rain, 
winds, and record storm surges. The results were 340,000 homes, 
200,000 businesses damaged or destroyed, more than 8.5 million 
families left without power, heat, or running water for weeks 
or months, and some of our Nation's premier hospitals and 
transportation systems shut down.
    Because Hurricane Sandy hit such a populous region 
directly, the National Hurricane Center estimates that it will 
be the second-costliest in our Nation's history, behind only 
Hurricane Katrina. We saw firsthand the devastation that tore 
apart communities such as Breezy Point and Long Beach, as well 
as the massive reconstruction efforts underway in lower 
Manhattan and across the region.
    In recent years, climate change has made extreme weather 
events more common and more intense, stretching Federal, State, 
and local relief efforts thin. The variability and the breadth 
of these storms makes our mitigation efforts increasingly 
critical. We cannot continue just to make investments in 
rebuilding after an event occurs. We must pay equal attention 
to preventing damage from occurring in the first place. These 
efforts are critically important to vulnerable communities, but 
also to the Federal budget and our national economic prospects.
    The benefits of mitigation efforts are especially clear in 
the aftermath of Hurricane Isaac, which hit much of the same 
area affected by Katrina 6 years earlier. Housing that had been 
elevated after Katrina experienced much less damage. Flooding 
occurred in green spaces where commercial or residential 
properties once stood. While areas were still deluged from 
Hurricane Isaac, it would have been much, much worse without 
critical post-disaster and then pre-disaster mitigation 
efforts.
    Yet the impacts of both sequestration and the Republican-
passed continuing resolution will continue to hamper the 
efforts of FEMA and our State and local governments to address 
these needs. Under sequestration, the Disaster Relief Fund will 
be reduced by almost a billion dollars, $928 million, 
endangering long-term recovery efforts in Joplin, Missouri, in 
Alabama, and ultimately through the Tri-State region we are 
going to be discussing today. Combine this with the draconian 
55 percent cut in State and local grants in the Republican-
passed CR, and we are slashing funding to protect our 
communities at the exact time we should be building up our 
capabilities and resiliency. Fortunately, the Senate's 
approach, which includes the negotiated Homeland Security bill 
in the CR, will help considerably, but sequestration's 
destructive effects will still be felt.
    Today we will examine the achievements, gaps, and 
challenges that communities are experiencing as they work to 
recover from Hurricane Sandy and other natural disasters. We 
will also hear how sequestration will affect FEMA's role across 
the Nation. While FEMA has made great strides since its 
disastrous performance in Hurricane Katrina--and I give you, 
Administrator Fugate, you and your team much of the credit for 
that--we cannot rest on our laurels, thinking our response and 
recovery efforts are sufficient. I know that you attempt to 
learn from each natural disaster and continually to improve so 
that we wisely invest in the best programs and resources to 
support our citizens during their times of needs.
    So, Administrator, I want to thank you for your service to 
our country, I look forward to a productive discussion today 
and continuing to work together to build a more resilient 
Nation.
    Mr. Carter. Thank you, Mr. Price.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Carter. We are very pleased to have Ms. Lowey, the 
ranking member of the whole committee here, and the 
Congresswoman from New York. We are glad to see you got 
shovelled out of that snowstorm we got caught in last week, and 
we are glad to have you here. And I want to yield to her for an 
opening statement.

                     Opening Statement: Mrs. Lowey

    Mrs. Lowey. Thank you, Mr. Chairman. It is a pleasure for 
me to be here with you.
    And welcome, Administrator Fugate. It has been my pleasure 
working with you over the past 4 years, particularly with your 
efforts to return the Urban Areas Security Initiative to its 
congressional intent and your support for our first responders. 
I commend you on your response to Superstorm Sandy, which took 
the lives of more than 100 Americans, damaged 305,000 homes in 
New York alone, devastated businesses, and crippled 
infrastructure along the East Coast. You managed the storm with 
a steady hand. And I also sincerely appreciate your updating 
Members frequently so we could communicate important updates to 
our local partners on the ground and get the resources quickly 
into hard-hit communities.
    It has now been nearly 5 months since this catastrophic 
storm, yet many families are still struggling to rebuild their 
homes and many businesses are wondering whether they will be 
able to survive the year. You and I know that rebuilding cannot 
be a decade-long path. Our communities must begin rebuilding 
without delay. Earlier this week, I attended meetings between 
local elected officials and FEMA representatives in my district 
to discuss Sandy recovery and updated flood maps. One of the 
common concerns I heard is that as families and businesses 
start to rebuild, there is uncertainty regarding what standards 
should be used to comply with Advisory Base Flood Elevation 
maps. My constituents, who are acting in good faith, are 
attempting to rebuild structures to withstand future disasters, 
do not know with certainty what the standards will be or how 
they will impact their flood insurance rates. This uncertainty 
is standing in the way of rebuilding. I look forward to 
discussing this more.
    I am also concerned that the sequester could impede this 
disaster response. As you know, the sequester is expected to 
take a billion-dollar bite, as my ranking member said, out of 
the Disaster Relief Fund. While funds should be available for 
those who suffered damage in Sandy, FEMA continues to play an 
active role in the recovery of other areas devastated by 
natural disasters. These weather events are not a coincidence. 
Hurricanes, flooding, droughts are becoming more frequent and 
more severe. I am concerned that the sequester could limit 
future funding as the year progresses. Victims of natural 
disasters should not be victims of political consequence, and 
we cannot allow the sequester to neglect those most in need.
    Again, I would like to thank you for coming before the 
subcommittee today. I would also like to thank Chairman Carter, 
Ranking Member Price for holding this important hearing and for 
their important support to New York, New Jersey, and the 
surrounding States as we rebuild.
    Thank you, Mr. Chairman.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Carter. Thank you, Mrs. Lowey. We are pleased you are 
here.
    We will now, Mr. Fugate, ask you to give your presentation 
to the committee.

                Opening Statement: Administrator Fugate

    Mr. Fugate. Thank you, Mr. Chairman, Ranking Member Price, 
Congressmen. The storm that now seems almost painfully obvious 
it was going to devastate New Jersey, New York, and Connecticut 
and the Tri-State region actually started out as a storm that 
was threatening the entire United States East Coast. Early on 
some of the projections had it threatening Florida. As it moved 
up the coast, it was almost like dominoes, the Outer Banks of 
North Carolina. First time in my career I have ever seen the 
National Hurricane Center talking about a tropical system with 
a blizzard warning for a State included in the statement. To 
give you some idea of the area we were planning for, it was 
literally from the Carolinas all the way to West Virginia, 
north through the Ohio Valley to Vermont, up toward the East 
Coast, all the way to Maine. We were deploying teams and 
personnel based upon potential impacts.
    As the storm began moving closer to the northeast, the 
concern was now focused on some of the most densely populated 
areas in the United States. From New York to Boston, you know, 
30-plus million people were potentially in the path of impacts, 
and there was not yet certainty over who and how bad this would 
be. And if we remember Hurricane Irene, much of the damages 
occurred well inland from flooding. So that was what we were 
prepared to respond to and began mobilizing resources. Those 
resources would not have been available without the work that 
Congress had done to ensure FEMA had the resources and the 
tools in the aftermath of Hurricane Katrina. But in the 
aftermath of Sandy, Sandy Improvement Act, you have given us 
additional tools.
    Mr. Chairman, it is not often that I have seen people 
testify and actually address the people who made things happen, 
but I have to thank your staff. There were several key issues 
that Congress had addressed in the previous session that were 
not put into law because Congress adjourned. Your staff worked 
tirelessly to get things back into the supplemental to give us 
tools, one of which I think is a landmark decision, and that 
was to recognize the sovereignty of Federal tribes. To give you 
an idea how we are acting on that, we have already had two 
tribal governments request for a presidential disaster 
declaration that has been declared under that authority you 
gave us.
    There are other tools you are giving us to speed up the 
response and reduce the overall cost--estimating tools we did 
not have before and the ability to provide advancements for 
mitigation dollars we did not have before. Mr. Chairman, this 
is going to make, I think, substantial improvements over 
getting recovery faster, and is more cost-effective; your staff 
played a big part of working with us to support that. I need to 
recognize them because it is not often that we actually get 
something that both of us worked so hard to see come into 
fruition and be able to use.
    But back to Sandy. Very complex disaster, more than 8.5 
million customers without power. That probably is closer to 25 
million people without power. And it was not a short-term power 
outage. Sandy is essentially two disasters. You had those areas 
that were devastated by the flood and the wind, and you had the 
rest of the communities devastated by the power outages. I 
think for a lot of people, the images that when the power came 
back on, it was not that bad, but those people did not go into 
the basement of NYU Medical Center, did not go through Bellevue 
and walk hallways where millions of dollars of equipment were 
destroyed by saltwater. Go to Coney Island Hospital, which is 
still, at the time I visited, only able to run a clinic, and 
they are the primary trauma center in that area. And so we know 
that the impacts were grievous, it is going to take time to 
recover, and that in the rebuilding phase it will not just be 
FEMA.
    The other thing that we recognized and we supported was the 
fact that in the supplemental you chose to fund a variety of 
agencies that have key programs that will be required for not 
just the FEMA programs, but the longer-term recovery. We saw 
too often in Katrina that FEMA would provide temporary housing, 
and 5 years later displaced people were still in temporary 
housing because there was never a housing plan. So funds for 
Community Block Development Grant dollars through HUD [the 
Department of Housing and Urban Development], funds for the 
Corps of Engineers to address beach and other issues that they 
are focused on, funding for Federal transportation to fund 
transportation infrastructure because they do a much better job 
at doing those types of programs----
    So these are programs that will be required to rebuild. And 
our goal is not to spend decades rebuilding, but to get the 
communities back on their feet, get people back into affordable 
housing, and move this recovery to a point where the 
communities are able to take over and continue the final work 
as they rebuild from this storm.
    Thank you, Mr. Chairman.
    Mr. Carter. Thank you, Mr. Fugate.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Carter. And I will say we visited those hospitals, and 
we know what you are talking about. We will have some questions 
about that.
    Thank you for reminding me. Ms. Lowey has more than she 
knows what to do with, with this job she has got, and I want to 
give her a chance to question first so she can rush off to do 
good work someplace else.
    So, Ms. Lowey.

                        GRANTS: REBUILDING COSTS

    Mrs. Lowey. Thank you for your generosity, Mr. Chairman. 
And I also want to take the opportunity to thank you again for 
visiting New York. As you know, I had to be on the phone 
because I could not get out of the driveway, there was so much 
snow. And thank you again.
    The New York metropolitan area is amongst the highest cost-
of-living areas in the United States, as well as around the 
world, and prices for housing, labor, equipment, and parts are 
higher than in most other areas. Tens of thousands of 
homeowners along waterways will have to completely rebuild. And 
for many, insurance will not come close to meeting the basic 
needs of making their homes habitable. And you know that from 
visiting New York.
    I was concerned to read a recent Wall Street Journal 
article stating that out of 252,296 FEMA grants issued to New 
York and New Jersey residents, only 5,485 were for the maximum 
amount of $31,900. Given the level of destruction and the costs 
associated with rebuilding, this rate, which amounts to just 
over 2 percent, does not match the need I am seeing on the 
ground. So is FEMA undervaluing the cost to rebuild these 
damaged homes? And what percent of these homes do you believe 
accurately describes the amount of those who will need the 
maximum in order to rebuild their homes and make their homes 
habitable? And as FEMA continues to work with homeowners, do 
you expect the number of those receiving the maximum amount 
will rise? Or what other recommendations do you have? Thank 
you.
    Mr. Fugate. Thank you, Congresswoman. I think the answer to 
the first question is all assistance from FEMA is means tested. 
So the first step would be to look at income insurance and what 
the uninsured loss is. And that would also explain why the 
number of people who have received the maximum amount is not 
that high yet. It is also important to know that much of the 
assistance provided so far has been in temporary housing 
assistance and rental assistance. And there are still outgoing 
claims and processes to look at that, and I would expect that 
to continue to go up. But I would not think it would go up 
enough. And it will not go up substantially.
    This is part of the reason why, in working in the 
administration to craft the supplemental request, we put such 
request emphasis on Community Block Development Grant dollars. 
As the chairman pointed out and as Congressman Price pointed 
out, these have been reoccurring events and we have got to 
build back better. We know that the cost of elevation and 
buyouts, where appropriate, are two good strategies to ensure 
that future homes are not damaged in the next storm, but those 
are very costly. We provide some assistance with the FEMA 
mitigation grants, but that has a cost share of 25 percent, 
which could be higher than what a person could afford. States 
have been very effective in using block grants to match the 
cost share.
    And so this is part of where Shaun Donovan, Secretary 
Donovan has been working on the recovery, the long-term 
Rebuilding Task Force, to match up Federal programs to identify 
where the gaps are going to occur to support the governors' and 
locals' mitigation efforts, where we want to do targeted 
buyouts, where we have flood insurance programs and other 
things, or elevations where there will not be enough FEMA grant 
dollars to cover the costs. But we could leverage mitigation, 
and we can leverage the HUD dollars if that is the priority to 
do those elevations.
    We have already been doing 125 percent of our normal rental 
rates because of the cost. Something that has impacted all of 
our decisions is to make sure that we do as much as we can with 
our programs; we understand the cost of living, the cost of 
rebuilding is going to be higher in this area.

                   ADVISORY BASE FLOOD ELEVATION MAPS

    Mrs. Lowey. Thank you. And just one other point. As I 
mentioned earlier, I am concerned about a lack of certainty in 
the Advisory Base Flood Elevation maps or ABFEs. You should 
have seen those roundtables yesterday, I had two of them. 
Communities are being told that if structures are not improved, 
National Flood Insurance Program rates will significantly 
increase. Yet some, such as Rockland County, are not yet 
finalized. Homeowners and business owners are so frustrated. 
They do not know what improvements should be made, are 
concerned that even if they raise structures now, years down 
the line they could be forced to do so again, which is a costly 
process, or risk paying thousands of dollars more per year in 
insurance premiums. This uncertainty impedes the economic 
recovery of the region, and residents of Westchester and 
Rockland Counties need better information from FEMA so that 
they can work to mitigate future disasters. So I just want to 
stress that we need to be honest with homeowners, give them the 
best information available, and certainty so they can plan 
accordingly. Could you just share with us when residents of 
Westchester and Rockland expect to receive an updated ABFE map? 
And if the maps are finalized, how long will they be in effect?
    Mr. Fugate. Well, the Advisory Base Flood Elevation maps, 
there are some that are still being updated that will be coming 
out in the next weeks to the next month. So we know there is a 
time frame here to get the best information to make decisions. 
Once the Advisory Base Flood Elevation maps are published, the 
local communities still will need to adopt them by ordinance to 
make them an ordinance as part of their National Flood 
Insurance Program. That adoption period will take more time. 
But that is why we try to get the Advisory Base Flood data out 
early so that we have the best available data when we start the 
rebuilding process.
    That will stay into effect until we have new data or things 
have shown that there are additional risks that were not 
factored in. And that process, again, will be situationally 
dependent. Unless we have new data to suggest that the risk is 
greater, the maps stay in effect for the time frame of the 
communities' programs, adjusted only when we either have new 
data or new storm impacts that suggest that the maps are not 
correctly forecasting the 100-year risk. And as you point out, 
it sets the insurance rate, and if you are 1 foot above that 
base flood elevation, you get preferred risk versus those who 
are not in that, that are in high risk and have a much higher 
obligation for insuring their homes.
    Mrs. Lowey. Well, I appreciate that information. And I 
think it is so very vital, because many of our businesses are 
making a decision now, should they lift, should they rebuild, 
or should they relocate? So I appreciate this information. I 
look forward to continuing to work with you.
    And thank you, Mr. Chairman, Mr. Ranking Member. 
Unfortunately, I have to go run. Thank you.

                       MITIGATION: POST-DISASTER

    Mr. Carter. Thank you, Ms. Lowey. We are sure glad you were 
here.
    A lot of what she said is curiosity things that we heard 
when we were over there about both those subjects. Since 
Hurricane Sandy struck the East Coast in October of 2012, which 
seems a long time ago now, FEMA has been working tirelessly in 
New York and New Jersey for the area to recover from this 
impact. Here is three questions I want you to answer. What is 
the status of FEMA's and the impacted States' recovery to 
Hurricane Sandy? While in New York last week we visited those 
hospitals. We saw that when that water came over that East 
River it funneled right in there with all those high-dollar 
machines that they kept in the basement. What is the status of 
getting the hospitals operational and mitigating against future 
threats, and if you have some idea of the thoughts of that 
mitigation? We heard some things in the conversations we had 
this week, but I would like to hear your view on it. And what 
challenges can FEMA and the impacted States anticipate in 
coming months? And how are you planning on addressing them for 
both individuals, like Mrs. Lowey was talking about, and public 
assistance?
    Mr. Fugate. I think where we are at right now in the 
response and recovery is total payments are a little more than 
$1.69 billion in individual assistance. Public assistance that 
has been obligated is a little more than a billion dollars; 
$5.5 billion dollars has been paid out in flood insurance 
claims just in the immediate area.
    I would characterize the response to Sandy very much moving 
now to permanent work for recovery. And this kind of gets to 
your second question on the hospitals. Much of what has been 
done at this point has been the emergency work, cleanup of 
debris, protective measures, and in the cases of the hospitals, 
providing very temporary capability. The hospitals themselves 
have been phasing in getting more and more of their operations 
back on line. But this is all on an interim and temporary basis 
because permanent work has yet to begin. And in some of these 
hospitals, the mitigation is going to be rather substantial.
    An example both at Bellevue and at NYU, a lot of decisions 
are being made about moving various pieces of equipment and 
other key infrastructure out of the basements. Well, that is 
going to result in utilizing space in the hospital that 
previously was used for providing patient care and 
administrative offices. So they are going to have to look at 
not only moving equipment, but also where do we move other 
operations and how does it impact the overall design?
    This is why we were very supportive of the effort to get a 
cost-estimating tool built into the Sandy supplemental. If you 
remember Charity, we were over 5 years in an arbitration before 
we could get to resolution there, and have delayed the 
rebuilding of that hospital. We would much rather go in with 
the hospitals and get their experts, their engineers to attest 
to and give us what the best cost estimates are and build in 
mitigation so we can get permanent work started.
    Now, mitigation is going to be a bit of a challenge, Mr. 
Chairman, because historically we have looked at mitigation, 
the return on that, more like you would insurance, in looking 
at what is the cost to rebuild and what is the cost of the 
contents? And I think in some cases it has underestimated what 
it takes to mitigate certain key infrastructure. Obviously, the 
function of a hospital cannot just be measured in the cost of 
the building or the cost of the equipment. It is the loss of 
the services. And with as many hospitals that were impacted and 
the types of services provided, it is not easy to make those up 
even in a metropolitan area as big as the New York City area.
    So we are asking our staff to go back and look at 
mitigation not just for the 100-year event, but looking at what 
are the impacts if this infrastructure is damaged or destroyed 
in the next storm and does it make sense only to rebuild back 
for a 100-year risk versus putting more effort into key 
facilities and building them back, understanding that the 
impacts to the community are much greater than just the value 
lost of the replacement cost.
    Mr. Carter. One of the things that, you know, we had 
exactly the same question that came from the press and others 
when we had the flood in the medical center in Houston. 
Everybody had their high-dollar machines down in the basement. 
And we were told they weigh an awful lot, and it is the safest 
and best foundation to put them on, put them on the ground, you 
know, on the foundation. And if you put them on elevated 
floors, some of those floors are not shored up to the effect 
they will hold that many MRIs and CAT scans and those things. 
And from what we were hearing, Mr. Price and I, I think the 
plan is to move that one or two floors up above the basement 
and then fill in the basement with other services or uses that 
we would not lose such high-dollar machines when we would have 
another incident, God forbid. That is one of the things that 
their engineers are going to try to get together with you and 
do.
    Mr. Fugate. Yes, Mr. Chairman. Again, as you point out, 
there will be structural costs that you have to reinforce those 
floors. There are shielding requirements. There are more things 
you have to do to isolate against vibrations. But I think they 
have looked at the loss of this equipment was so great, and the 
delays in replacing some of this equipment, so it makes sense 
to elevate it and harden a higher floor.
    Mr. Chairman, I did not get to the third question. Could 
you repeat that?
    Mr. Carter. Oh, those challenges that both FEMA and the 
impacted States are going to have in the coming months, and how 
we are going to address them both for the individuals and for 
the public, for public assistance.
    Mr. Fugate. I can give you an example, and I think our 
Federal Coordinating Officer, Mike Byrne, may have referred to 
this. He has identified a little more than a dozen projects 
that are going to be very complex and very difficult. The 
tendency has been that we take the hard stuff and we put it 
aside and do everything we can do fast on the front end. And 
that just delays. What we are wanting to do and work with the 
applicants to do is get the complex issues on the front end. So 
we are working with Governor Christie's team, working with 
Governor Cuomo's team and going, we know that history tells us, 
and by the damages we are seeing, these are going to be very 
complex projects, hospitals, in particular in New York. We have 
a wastewater pumping station in New Jersey that was totally 
destroyed that is going to be very complex, to look at how you 
do that.
    And we do not want to just limit ourselves to the way we 
have always done it. So part of this, the challenge for us will 
be implementing the new tools you gave us so that we do not 
delay making decisions to do rebuilding, but we are able to use 
that to improve the product, speed up the recovery, build it 
back better, but substantially reduce the overhead cost of 
managing that.
    Again, we are working toward the interim process to start 
this as early as April, to start briefing the applicants on how 
we propose to do this. We have already been talking to many of 
these applicants already about using cost-estimating tools and 
using a cost estimate. So I think our challenge will be 
implementing this and getting these complex projects to the 
front and get answers, and not merely delay, postpone, and be 3 
or 4 years later and we have not gotten decisions to rebuild.
    Mr. Carter. All right. Thank you.
    Mr. Price.

                            LESSONS LEARNED

    Mr. Price. Thank you, Mr. Chairman.
    Mr. Administrator, I have often heard you say that you try 
to learn from each disaster and to apply those lessons to 
ensuing disasters. And on our visit I think we saw some 
evidence of that. And you have touched on these matters here 
today. And I want to ask you to elaborate on lessons learned, 
both from the past and going forward.
    The saga of the FEMA trailers is one we are all familiar 
with. And of course there was not any place to put FEMA 
trailers in New York even if you wanted to, or in a lot of the 
damaged area. But in any event, you elected to take another 
course. And you have already, in answer to Ms. Lowey, you have 
talked about some of this, and I wonder if there is anything 
more you would want to say about that. The CDBG money filling 
some of the gaps here is going to be part of the solution, 
obviously. I wonder if there is any downside to this in terms 
of quickly getting to homeowners and helping them get back in, 
in ways that create facts on the ground, so to speak, and may 
make some of the mitigation solutions more rather than less 
difficult.
    But in any event, you seem to have gotten past some of the 
obvious dilemmas that come with temporary housing and that drag 
on and on and make ultimate resolution of the situation of 
homeowners very difficult.
    The second thing we heard a lot about was these upfront 
agreements you are talking about, the upfront cost estimates, 
the upfront agreements, not dribbling out payments, as in the 
Charity Hospital case, but actually coming to an understanding 
early on as to what FEMA's obligations are going to be. Maybe 
you could elaborate on that, because that does seem very, very 
promising in terms of not just cost savings, but also giving 
assurance to the communities affected that FEMA is going to be 
there, and giving a definite early indication of what you are 
going to be able to cover.
    So that is my question, generally. What have you learned? 
What are you applying in the current situation that comes from 
lessons learned in the past? And then what is the next 
iteration going to be? What kind of lessons have you learned 
from the Sandy experience that you can utilize before and when 
the next disaster strikes?
    Mr. Fugate. Thank you, Congressman. I think one of the 
things that we have historically done, and it is one of the 
most visible things you will see us do in the aftermath of a 
hurricane, is putting tarps on roofs trying to save homes, 
oftentimes called the Blue Roof program. The goal here was, if 
we could do minimal repairs to a home, we do not lose the home 
and people do not require temporary housing or shelter 
assistance. But in this event, and one of the things that I had 
asked staff to look at as soon as we got there looking at 
catastrophic housing, why are we stopping at a blue roof? Why 
are we just stopping at a tarp? Are there other things we could 
do that would not be permanent work, but would be enough 
expedient repairs to allow people to stay in their homes? 
Wouldn't that be more cost-effective than the cost of setting 
up temporary housing sites or long-term rental and lease 
assistance? And in this case, in Sandy, because so much of the 
damage was flood related, just protecting the exterior of the 
building would not be enough. We had to ensure they could take 
power, they would have heat, they would have water. So we 
authorized a program to work with both States, New Jersey and 
New York, to do temporary repairs to keep people in their 
homes. And that allows us to, again, not have people out of 
their homes, out of their communities, away from their jobs, 
away from their schools.
    Now, this would not work for everybody, but where we could 
do it, it did allow us to preserve a lot of housing stock that 
in previous disasters would have probably been abandoned and 
driven up the cost of recovery because people would not be in 
their homes and there would be challenges there from the 
schools, the jobs, the transportation, everything that happens 
when you displace people away from their communities.
    The caveat you point out, though, as we get into the 
permanent work, will all of those families that have been able 
to stay in their homes be able to merely rebuild as they were 
or will there be additional requirements? And I think that will 
be the challenge. But the first step was try to provide 
immediate expedient repairs to get people back in their homes 
as quickly as we could in order not to exasperate the housing 
crisis.
    The second thing we did, which we have learned and been 
applying successfully in previous storms, is prior to having a 
formal cost-estimating tool we would oftentimes delay 
reimbursement for a lot of the emergency costs on the front 
end, debris and protective measures. And this causes undue 
hardships on local communities because they are not budgeted 
for this, and it is a cashflow issue. We are going to reimburse 
them, but we would oftentimes wait until all the bills came in. 
This forced them into having to go into borrowing programs, 
using community disaster loans and other financial tools, and 
particularly in New Jersey, the fiscal year for many 
communities were going to end in December. I mean there was no 
way for them to wait until we went through and got all the 
bills to pay them.
    So what we did, sir, is we have enough history of looking 
at this, we can do a pretty good estimate of what the number 
should look like. And we were advancing numbers of up to 75 
percent of what we estimated their costs would be on the front 
end, figuring that as they got the final bills in we could 
finish out and close out the rest of the disaster. So rather 
than waiting until we had all the bills on things we knew they 
had already spent money on, protective measures and debris, we 
would advance them that against their claim while we got the 
final bills in, and then we would adjust that at the very end. 
And that for a lot of communities in New Jersey meant that they 
could get to the end of their fiscal year without necessarily 
going too deep in the hole or having very huge balances of 
obligations going into the next fiscal year to get 
reimbursement.
    So those were two things we have done, but they are more 
indicators of what we are trying to drive at FEMA. We are 
looking at it from the standpoint of how do we get things done 
faster while maintaining accountability and fiscal controls, 
but not delaying the process until we have all the answers. 
Knowing what we know, we can do a lot of this working with the 
estimates and get money moving and get communities moving 
faster on their debris pickup and their recovery operations.
    Mr. Price. Thank you.
    Thank you, Mr. Chairman.
    Mr. Carter. Mr. Frelinghuysen.

                WORKING RELATIONSHIP WITH OTHER AGENCIES

    Mr. Frelinghuysen. Thank you, Mr. Chairman. Thank you for 
having this hearing. I want to thank you and Mr. Price for this 
particular focus this morning. And taking a page out of Mr. 
Fugate's remarks, I also want to thank your staff for the 
considerable work they did. And, actually, some of the unsung 
heroes are all the Appropriations staff that came together to 
put together a bill that was not without controversy, but is 
focusing on meeting the needs of so many people whose lives 
have been devastated.
    And taking a page out of Ms. Lowey's comments, indeed you 
have a very steady hand, and not only from other disasters, but 
particularly in this one. And I want to extend the thanks, I am 
sure, for all those in the New York-New Jersey metropolitan 
area for all the professional work that you have done to help 
our citizens. As you are well aware, and I know Mr. Price 
mentioned some of the statistics, those statistics are human, 
there is a heck of a lot of misery out there still. And as you 
are well aware of, Mr. Fugate, there is still in New Jersey, I 
do not know the New York figures, there are about 40,000 people 
that are still displaced, not living in their former abodes, 
but indeed living with friends and relatives and others that 
have been helpful to them.
    So first of all, I praise you for the work you do, the 
teams that you assembled. And I have not heard much criticism. 
I have obviously heard some angst and concerns about flood 
maps, and there is the issue of claims, which I would like to 
ask about, but I think there has been some progress there.
    I would like to know, could you give me a sense of what 
your working relationship with the other players are here? At 
some point in time Mr. Donovan is certainly going to be one of 
the major gatekeepers, not that you are not. But just how are 
we putting this together? I know this afternoon in my committee 
on Energy and Water, we have General Bostick coming in from the 
Army Corps, Jo-Ellen Darcy, who is the head of the civilian 
portion of the Army Corps. How are you working and coordinating 
your efforts? And particularly focusing on those who have an 
immediate situation. I know we are looking at what you call 
complex projects, which are of course a high priority. Could 
you talk a little bit about your working relationship with 
other agencies? Thank you.
    Mr. Fugate. Thank you, Congressman. Again, my experience in 
this administration has been, and working on disaster response 
and now recovery, each agency has its strengths and its 
inherent weaknesses, often based on our legislative 
authorities. And by working together, we are able to address 
issues that individually as agencies we oftentimes could not. 
And I think that has been really the focus.
    One of the recommendations--actually it was not a 
recommendation, it was a congressional mandate in legislation 
post-Katrina--was there was not a coordination mechanism for 
recovery. Long-term recovery was split among a variety of 
agencies, and local governments and State governments 
oftentimes had to go through the catalogue of assistance to 
figure out what could be done by whom. In response to that, the 
President signed out the National Disaster Recovery Framework, 
which identifies all of our recovery functions and roles 
working together. The President, in recognizing that the 
complexity of Sandy was going to be multiple States and 
crosscutting policy issues beyond just program implementation, 
established a long-term Recovery Task Force. He has asked 
Secretary Donovan to lead that. But our role in that is very 
strong in that we are bringing each of our agencies 
capabilities to look at not only our immediate functions, but 
what are the longer-term issues that historically individual 
programs did not address?
    So I can say unequivocally, working with General Bostick 
and his team starts with getting ready for the disaster, 
responding to the disaster, and now in the recovery. They are 
an integral part of our team, and we work very closely with 
them as well as the other Federal agencies.

                   HOUSING FOR DISPLACED INDIVIDUALS

    Mr. Frelinghuysen. Can you say something about the people 
that are displaced? I mean, I do not have the New York figures, 
but it is pretty staggering. I think sometimes people, we 
talked about this informally before the hearing, because while 
there was loss of life, people do not recognize that actually 
the leadership of Cuomo, Malloy, and Christie actually kept a 
lot of people from dying. Can you talk about the issues, the 
immediate issues--we are looking towards permanent issues--but 
some of the immediate issues that you are dealing with?
    Mr. Fugate. Well, as you point out, we still have people in 
what we call transitional shelter assistance, where we are 
still leasing hotels and motel rooms because there is no other 
capacity there. We have been extending that incrementally 
because we continue to do casework to try to find a longer-term 
solution. And as you point out, I think because so much of the 
area that people looked at where the power outages were, when 
the power came back on, they do not see damages; it kind of 
masked how many homes have been impacted. So we are working 
case management, where people have registered with us, to look 
at what available programs are there, financial means, Small 
Business Administration, whether it is going to be our 
programs, whether they have a national flood insurance policy 
to be processed.
    And again, we have been working with your office to get you 
updates. And I have talked with Governor Christie. He wants to 
have that answer as quickly as he can, because he is looking at 
now the first obligation of his block grant dollars to some of 
these people that need immediate help and affordable housing 
solutions now. And he does not want to wait, you know, another 
6 months to make those decisions. And he is going to use who 
has not gotten assistance or who will not get any more 
assistance based upon the program's limitations so he can 
direct where he is going to fund that assistance.
    Mr. Frelinghuysen. Well, thank you, Mr. Chairman.
    And I want to thank you, Director Fugate, Administrator 
Fugate, for your hard work.
    Mr. Carter. Thank you, Mr. Frelinghuysen.
    Ms. Roybal-Allard.

           FUNDING CUTS' EFFECT ON LOCAL EMERGENCY MANAGEMENT

    Ms. Roybal-Allard. Thank you, Mr. Chairman.
    And welcome, Mr. Fugate. At previous hearings you have 
spoken repeatedly about the critical role your State and local 
partners play in effectively responding to disasters. And 
according to the DHS Office of Inspector General, State and 
local governments have significantly reduced their spending on 
emergency management as a result of the economic downturn. And 
on top of that, it has been projected that the sequester will 
result in cuts of $120 million to State and local homeland 
security grants and $100 million to Department of Justice law 
enforcement grants.
    I am told by your partners in California that these 
reductions will further degrade the capabilities of our first 
responders and could even lead to layoffs. What concerns do you 
have about the cumulative impact of these cuts to emergency 
management spending at the local level? And what will be the 
impact on FEMA's ability to respond to emergency situations if 
local governments lack effective emergency communication 
systems and are unable to adequately respond to terror attacks 
and natural disasters?
    Mr. Fugate. Well, the obvious answer is when you reduce 
funding there is going to be a reduction in some capabilities. 
And depending upon how governors and local governments choose 
to make those decisions, it could result in additional layoffs. 
Those are all potentials. But I also think that there are other 
tools that we need to look at. If the funding is what it is, 
and that is what I accept, I work with the tools that we are 
given, then I think we have to also look at how we mitigate 
against that. Part of this is we have made substantial 
improvements and investments across this country in resources. 
But oftentimes that has been looked at jurisdiction by 
jurisdiction.
    I think, again, through tools such as the States' Emergency 
Management Assistance Compact, the National Guard being able to 
utilize more Title 10 forces in support of the National Guard 
of a dual-status commander where the governor still has the 
control of his task force and his Guard, I think these are ways 
that we continue to bring resources to communities rapidly and 
we can address the specific shortfalls that can occur.
    But I think for the Nation we have to look at how we invest 
in preparedness. And I realize that, having worked State and 
local and now the Federal Government, there is always a bias to 
what level you are at as opposed to should be and the direction 
of who is making the decisions. But it is hard for me to 
justify building national capabilities with each jurisdiction 
being funded to certain levels but not being included as, what 
does it mean as a Nation? Are the priorities national 
priorities we are investing in? And as we invest in those 
priorities, are they seen as national assets or are they 
strictly going to be a local investment?
    This will not be easy to do. But I think that through 
mutual aid, focusing on the capability we built in going to 
maintenance mode, we have seen most definitively where that 
capability has sped up the response, allowed the Federal 
Government to focus more on recovery efforts faster, both in 
Sandy, but in Isaac, as far back as the tornadoes that hit 
Alabama and Joplin, Missouri. Again and again it was that local 
capability to provide that initial response to lifesaving 
activities, allowing us to focus almost exclusively on the 
recovery and immediate needs of the survivors and their 
families.

                             GRANTS: AUDITS

    Ms. Roybal-Allard. Now more than ever ensuring that grants 
are spent effectively and responsibly is one of FEMA's most 
important tasks. And I was pleased to learn that your agency 
has made important progress in this area by improving the 
cooperation with the DHS Chief Financial Officer and issuing a 
new plan to guide FEMA's financial monitoring efforts. However, 
because the new plan requires only a random sampling of grants, 
the DHS Office of Inspector General issued a report expressing 
concern the new plan does not ensure that all grants at risk of 
being misspent will be financially monitored by FEMA. Can you 
please explain your approach to the financial monitoring of 
FEMA grants and what protections do you have in place to ensure 
that Federal tax dollars are spent effectively and 
appropriately as recommended by DHS' Office of Inspector 
General?
    Mr. Fugate. Well, the first answer is sometimes I think we 
spend so much time looking at where people are getting it wrong 
that we need to make sure on the front end we are providing the 
right grant guidance so that they do know how to do what they 
need to do. But the outright people that are abusing the system 
is always going to be problematic. So we randomly sample 
statistically significant groups to see if we see trend data. 
But hopefully if we have abuses of the system, there are a lot 
of additional controls in the Single Audit Act and other 
programs and whistleblower programs to go after those that are 
abusing those funds.
    But I think we want to make sure we are giving the best 
grant guidance on the front end to avoid where they may not 
intentionally have violated the program, but, through lack of 
understanding or lack of clarification and guidance, may have 
funded things that an IG investigation may say would require 
de-obligation. But to be able to audit every grant is not going 
to be possible with the resources we have. I think we want to 
make sure we are putting the focus on using the standard audit 
tools that are already out there, looking at the financial 
controls we are putting in on the front end, and then looking 
for those patterns that suggest we either have a programmatic 
issue or potential anomaly, whether that is fraud or not, and 
make it very clear that the abuse of these grants is not 
tolerated.
    And the ability to go and see everything that is happening 
when we are on a reporting structure, the easy answer would be 
we will audit everything and we will have somebody in the field 
look at every single purchase. That is not possible. It would 
take more money away from the grant's purpose. But we want to 
have enough controls there that we are able to detect early 
trends and issues that we can address, and more importantly, if 
we find abuse in the system, take appropriate and swift action 
to correct that so that it does not continue and cause a 
further drain on those resources.
    Ms. Roybal-Allard. Okay. Mr. Chairman, is my time up or do 
I have time for another question?
    Mr. Carter. I believe it is up.
    Ms. Roybal-Allard. Okay. Thank you.
    Mr. Carter. I am going to go a little out of order. Mr. 
Dent has agreed to this. Mr. Latham has something that he has 
to get to. And I am going to yield the floor to Mr. Latham for 
his questions. And I want to ask Mr. Dent to take the chair. I 
have to meet with General Milley, the commander of III Corps 
and Fort Hood out in the hall. I will be right back as soon as 
I get through with General Milley.
    Mr. Latham.

                          LEVEE ACCREDITATION

    Mr. Latham. Thank you, Mr. Chairman. And thank you Mr. Dent 
for being so kind as to give me some time here.
    We had the flood on the Missouri River last year, you know, 
in western Iowa, and we have heard an awful lot from local 
communities about the costs, and how complicated the 
accreditation process is. A lot of these small communities just 
cannot afford the hundreds of thousands of dollars that it 
takes to do the studies to be able to get in compliance. Is 
there anything that we can do, that you can do to help those 
communities? And is there a way for them to express their 
concerns? I know in 2010, I think you were directed, along with 
the Army Corps of Engineers, to come up with better solutions. 
I do not know where that is. But apparently it is not working 
yet.
    Mr. Fugate. This is in reference to accreditation of 
levees?
    Mr. Latham. Right.
    Mr. Fugate. Yes, sir. You are exactly right, what we were 
directed to do----
    Mr. Latham. Of course.
    Mr. Fugate [continuing]. Was to look at adjusting our 
current policy in doing mapping, which says unless a levee is 
fully accredited, we do not factor in the levee, and we map it 
without the levee being there, even though there are structures 
there. We have done the preliminary work and are in the process 
of rulemaking to adjust and change that by rule, but that is 
not going to be a quick process. We knew that, going in, it was 
going to take time because it will actually drive how we 
calculate flood risk and the cost of insurance based upon 
structures that are not accredited. Our Region 7 administrator 
works very closely with the State. I will pass this back to our 
staff to make sure we are doing follow-up with those 
communities.
    But the longer-term solution will be the change in that 
policy by regulation so that, when we look at earthen 
structures or other structures that provide protection, we do 
not give them a value of zero if they are not accredited. We 
will factor that in and then update the maps based upon that. 
And I am sure you have got communities where they may be 
several feet short of being accredited, but it offers 
substantial protection short of a maximum event, yet they get 
no credit for that levee structure.
    Mr. Latham. What is the status of the regulation and the 
rule? Has it been written yet?
    Mr. Fugate. It has been in draft, and it is getting ready 
to go to being published as a notice for comment.
    Mr. Latham. Okay.
    Mr. Fugate. We will get the updates to your office on the 
status of that.

        FEDERAL TRANSIT ADMINISTRATION: MEMORANDUM OF AGREEMENT

    Mr. Latham. Okay. Just one other issue. I chair the 
Transportation-HUD Subcommittee on Approps here; one item does 
have some effect on my bill. On March 5, FEMA and the Federal 
Transit Administration signed a memorandum of agreement as to 
the roles and responsibilities which you have on funding for 
transit projects. Based on that, can you tell me what projects 
will still be funded by FEMA, how any changes the FEMA role 
will play out and has played for past disasters? And then also 
apparently you are going to be funding toll projects? Tell me 
about that.
    Mr. Fugate. The simplest answer, sir, is that roads that 
are funded by Department of Transportation [USDOT] fall into 
two categories. There are Federal aid highways, which they 
fund, and then there are local highways that generally are not 
funded with Federal aid dollars. Historically, FEMA has paid 
for the non-Federal aid dollars; Federal Highway Administration 
did those that had the Federal assistance. And that history we 
have dealt with for a long time.
    One of the projects involved, though, is a local road, not 
a Federal aid highway. And, yes, they have a toll process 
there. So we are working with that applicant because the work 
is eligible, but they also have a revenue source that has to be 
factored into that.
    The other piece of this is where we had transit. If we have 
rail involved in that, then USDOT and the agreement will be 
taking care of the transit piece of this. But this one 
particular road that has toll does not have any transit on it, 
does not have rail on it, and is a local highway, not a Federal 
aid highway, so, under our program, will be eligible. But we 
also have to work with them on the pieces that involve the toll 
charges and how that factors into the assistance that is 
provided.
    Mr. Latham. So that will be taken into account. Okay. I 
thank you very much, Mr. Dent, for your indulgence, and I yield 
back.
    Mr. Dent [presiding]. Thank you, Mr. Latham.
    At this time the chair recognizes Mr. Cuellar for 5 
minutes.

                      GRANTS: PERFORMANCE MEASURES

    Mr. Cuellar. Thank you very much, Mr. Chairman.
    Mr. Fugate, it is a pleasure seeing you again. And I also 
really appreciate the experience you come in, working at the 
State level, and bringing that experience up here.
    I want to follow up where Ms. Roybal-Allard left out. A 
couple years ago, I think it was two years ago, I passed a 
piece of legislation that called, after it was sent to the 
President, that called for having you streamline, coming up 
with performance measures. I never got to see a copy of that 
plan. I would appreciate if you can send it. But it has to do 
with the same thing.
    And I can understand the frustration not being able to go 
out there and monitor and audit every single grant that is 
given. But since at least in 2002, from 2002 to 2010, FEMA had 
invested $29 billion in those grants to the States. And at the 
time, the reports that were coming out was that you all were 
not doing very well in measuring the performance and the 
investment and could not answer the basic question is, how 
secure is the country now after putting $29 billion, I am sure 
now it is over $29 billion.
    So, one, I would like to see a copy of that report, and to 
see if there is anything that has gotten us where now, and I 
will mention a couple things where grants have been used, and I 
know you are familiar because they have been mentioned in the 
media. I think some of the grant money was used to buy 13 snow 
cone machines in Michigan. I think Project Shield that was used 
in Cook County in Illinois failed because they could not 
withstand the Chicago harsh weather. It was used for one thing, 
but when it was tested out there after $45 million on this 
camera surveillance, it stopped working.
    The one that gets my attention of course is the, what is 
it, a Halo counterterrorism summit in San Diego in late October 
where they promoted a zombie apocalypse demonstration. I do not 
know who is a fan of ``The Walking Dead,'' but apparently, 
whatever the reason was, using those, quote, zombie folks came 
up.
    So I want to know since the legislation was passed what 
have we done to take into consideration some of the examples I 
gave you? What are we doing? And I understand your frustration. 
You cannot go out there and audit everything. But, you know, we 
cannot say, you know, after we spend over, I am sure it is over 
$30 billion now, saying we cannot measure the effectiveness, we 
cannot measure the performance, we cannot measure this. I mean 
there has got to be a way, because we've got to provide 
oversight, and you have a responsibility to the Congress as we 
provide oversight. But there has got to be an answer to this.
    Mr. Fugate. I took to heart our first meeting we had, and 
you brought these issues up. And it sounded like a broken 
record that we could tell you how much we have invested, but we 
could not quite tell you what it bought. We could give you all 
kinds of anecdotal data and show you examples. So what we did 
was, because much of this funding was driven by--there was a 
broad range of things local and State governments could do, and 
then they picked among that. It was kind of hard to say where 
is your baseline, because everyone was approaching it 
differently. Quite honestly, some investments were not wise. 
Some investments probably started out as a good idea, but as 
you got into the complexity of the project management, it did 
not achieve the outcomes.
    And this is where we have been going and looking at 
prioritizing funding direction, which had changed from, here is 
the money, this is the range of things to do, to these are the 
priorities, we need to fund these. Because when we showed the 
report to you, one of the things we wanted to show was, where 
have we actually bought down risk or built capability?
    Mr. Cuellar. Right.
    Mr. Fugate. So we took our search and rescue teams. We had 
the 28 teams that FEMA funds through Congress and our 
appropriations, but you had a lot of States and local 
governments that built additional teams that were at least a 
Type II-type team. We mapped all of our existing Federal teams 
and said with an 8-hour response time, 4 hours for 
notification, 4 hours of drive time, how much of the population 
did we cover? We did not try to do just geographical. We looked 
at population density and population, and there were huge gaps. 
And we said, well, because the funding has coming, how many 
teams do we have, and identify those teams, and using the same 
criteria--4 hours--notification to get your team together, 4 
hours drive time--how much of the country did we reach to show 
what that now looks like? And so we started looking at not only 
a capability, but also a response time.
    Now, not every capability--an example would be a fusion 
center--has a response time. But where we could look at 
deployable teams, we looked at how much capacity had we built 
and how much of that response covered the populated areas of 
the risk. Knowing that some of this risk is very diffuse now, 
it is no longer just a specific area we are concerned about, 
particularly with some of the threats that are out there that 
could potentially result in the need for mass casualty, those 
types of things. And so we have began that process of 
quantifying, what capacities do we need as a Nation to respond 
to catastrophic events? How much of that have we built with the 
existing funds and what does that look like? Does there need to 
be increased capability, or more importantly, do we need to 
emphasize funding to maintain that capability? Because if there 
are fewer dollars and we start cutting away from these existing 
teams, that is going to create gaps. And we saw that from the 
tornadoes several years ago, through Isaac this year, through 
Sandy, much of the first response where we would have had to 
deploy substantial Federal resources for search and rescue was 
oftentimes met with the local responders with minimal 
augmentation.
    That is what we have bought. But we never quantified it. We 
could never show you this is what the country looked like 
before the funding, and this is what it looks like now. Not 
everything translates into that. But it begins showing that 
there are certain types of capabilities as a Nation we need to 
have to respond to catastrophic disasters. It is not cost-
effective to build that at the Federal level. We need to build 
it and leverage the local preexisting capabilities. But we need 
to look at it as a national capability, not just jurisdiction 
by jurisdiction hoping it adds up.
    Mr. Cuellar. I want to thank you.
    And Mr. Chairman, one of the things that I think we need to 
look at as a committee is, and Mr. Fugate is doing a great job, 
I am a big supporter, big fan of him, but if we invested, when 
you and I used to be in the Oversight Committee in Homeland, 
was that as of 2 years, and I do not know what the amount is, 
but if we invested over $30 billion, what are we getting in the 
bang for this? I mean, what is the capability? What are we 
getting this? I mean, that is something that I know it is hard 
to get a handle of, but I think it is something we need to work 
with, Mr. Fugate.
    Thank you, Mr. Chairman.
    Thank you, Mr. Fugate.

                      DISASTER PREPAREDNESS COSTS

    Mr. Dent. Thank you, Mr. Cuellar. At this time the chair 
recognizes himself for as much time as he may consume.
    Administrator Fugate, thank you for your efforts to work 
with Pennsylvania in the aftermath of Hurricane Sandy. Although 
Pennsylvania was not as gravely impacted as some of our 
neighbors, many of our communities certainly withstood 
significant damage.
    One issue that I believe Superstorm Sandy that really 
highlighted and brought attention to, particularly with respect 
to the Commonwealth of Pennsylvania, is that FEMA placed a huge 
emphasis on preparedness, insisting that States take all 
necessary steps to prepare, with assurances of Federal support. 
But the financial assistance provided after the fact does not 
line up so much with that directive, in my view. In other 
words, FEMA's policy documents state that financial assistance 
for declared emergencies is provided to save lives and to 
lessen the threat of an impending disaster. My State took very 
significant steps, made considerable efforts to prepare for the 
storm.
    Fortunately, the impact of the storm was not as 
consequential in Pennsylvania as all the models had 
anticipated, and consequently Pennsylvania was able to provide 
incredible support to New York and to New Jersey. Our 
responders, because they were so well positioned, 
prepositioned, and the consequence in Pennsylvania was not as 
great as anticipated, were able to respond very quickly into 
New Jersey, Mr. Frelinghuysen's district, Ms. Maloney's and 
others, and we are very proud of that. But now as a result, 
Pennsylvania has not been made whole for the very successful 
preparedness actions that the State undertook. Do you have any 
recommendations for addressing this issue going forward?
    Mr. Fugate. An observation, sir. In 2006, working for 
Governor Bush, we got ready for two storms and expended over 
$20 million getting ready. We never got the first dime from the 
Federal Government. That is the cost of doing business. We ask 
States to get ready based upon their capabilities, and we look 
at when they exceed their capabilities for reimbursement. All 
the teams that went out of state would be eligible for 
reimbursement under the Emergency Management Assistance 
Compact. We looked at the emergency declarations and we looked 
at the direct cost. But in our request to get ready, the caveat 
has always got to be, when it exceeds your financial thresholds 
that are established by rule, you are going to be eligible.
    I have been in several responses where we did that; we did 
not meet the thresholds, and we were not eligible for 
reimbursement. And what Governor Bush, his observation at that 
time was, you know, that is part of our responsibilities. And 
it is really something that we get direction from you as 
Congress. What is that threshold between the shared 
responsibility of State and local governments to prepare for 
reoccurring threats, and when does it become a Federal shared 
investment in that. Make sure that is appropriate so that we do 
not shift that unfairly to the taxpayers, but we also do not 
put States in a bind. When we are trying to get ready for these 
large-scale events, there is not some assistance that we can 
bring financially.
    Mr. Dent. Yeah, I mean the challenge for the Commonwealth 
was that many of the models showed that Pennsylvania was going 
to be the brunt of the storm. In fact it was not the case. And 
we had taken preparations, you know, through the emergency 
protective measures program and later for debris removal. I do 
not know of any storm that we have ever prepared so much for 
and incurred so much cost for. So this was an extraordinary 
event for us. And that is one reason why we have been perhaps 
more vocal than has ordinarily been the case, because of this 
tremendous effort that we have expended.
    Mr. Fugate. Mr. Chairman, I understand perfectly. And it is 
not to sound like I do not acknowledge this is an issue, but it 
is trying to make sure that we do a shared responsibility here. 
Knowing that the Commonwealth--Because we were looking at those 
rainfall forecasts like everybody else, you know, the concern 
was we were going to have torrential flooding in the 
Commonwealth. It did not materialize as much as expected. 
Again, the assistance that left the State will be eligible for 
reimbursement under the Emergency Management Assistance 
Compact. The question is, and I understand in talking with 
Director Cannon and others, is the preparing costs, and why 
that is not eligible, and the thresholds they have to reach.

                 HURRICANE SANDY REBUILDING TASK FORCE

    Mr. Dent. I understand the after-the-fact support is there. 
It was really the preparedness measures where we felt we could 
have done better.
    I have another question, too, if we could. In December, the 
President established the Hurricane Sandy Rebuilding Task Force 
and named the Secretary of HUD, Housing and Urban Development, 
as the head of the effort. How will the establishment of the 
task force make response and recovery from Hurricane Sandy 
different from other disasters?
    Mr. Fugate. I think, Mr. Chairman, the focus is going to be 
not on the FEMA traditional rebuilding programs, it is the gaps 
that occur when you look at the types of devastation and 
preexisting conditions, and knowing that even if you were able 
to be successful with all the FEMA programs, you are not going 
to have enough affordable housing available, you are not going 
to have jobs back, you are going to have eroded tax bases and 
communities where the repairs will not get them back to where 
they need to be to be sustainable.
    Previously, we kind of approached this, each Federal agency 
would get funds from their appropriate committees, and we tried 
to solve that piece by piece. The lesson of Katrina was, in 
very complex disasters, that gets a little bit haphazard and 
you miss things. And that is why, again, we knew that long-term 
housing is not FEMA's authority nor our strong suit. That is 
HUD's. So if you are not building this looking at what FEMA is 
doing in the short run tied to is there a housing solution long 
term, we will have gaps.
    So part of this was to bring--In addition to the National 
Recovery Framework, which has brought a lot of the agencies 
together, there are certain policy issues that we want to make 
sure that we are consistently applying across programs. Because 
if I am a local official, I am talking to the Corps, I am 
talking to HUD, I am talking to FEMA, and I may be talking 
about projects side by side, yet all three agencies have 
different criteria for considering environmental historical 
reviews, which this committee says we need to do that jointly. 
If we are using different cost-benefit analysis, it becomes 
very complex and very confusing for the local officials.
    So part of this is to make sure that we have put the policy 
pieces together to support the governors as they determine 
their long-term recovery and to make sure the Federal programs 
are now lined up with the governors' recovery plans, not each 
of us trying to approach it with what can we do here, but not 
necessarily sharing that with the other agencies.
    Mr. Dent. So is it fair to say that FEMA's role in the task 
force is playing that of a coordinator in terms of, and how 
does that impact these FEMA recovery plans?
    Mr. Fugate. It is really looking at, if you took a disaster 
and you did everything FEMA did and you stopped, we still have 
everything that FEMA does. It is what is next, particularly in 
looking at those programs that FEMA does not do that require 
other Federal programs to ensure that we have solutions that 
are moving forward. And an example would be on the Advisory 
Base Flood Elevation maps. Some of our agencies use whatever 
the local codes require, and that would be the adopted maps as 
existing without the new data. Well, could you imagine if you 
had the same Federal agency talking to you saying we want you 
to use this standard and another agency comes in on the same 
project and says we want you to use this standard? And so we 
want to make sure that we are consistent across the board in 
applying our policies and guidance through our program areas 
and giving the flexibility to the local officials to move 
toward a long-term recovery.
    Mr. Dent. My last question. Do you see any potential 
changes in the roles and responsibilities in the National 
Disaster Recovery Framework as a result of the findings of this 
task force?
    Mr. Fugate. That is a possibility. Originally, as we were 
discussing this, the lead role was oftentimes debated, would 
that be FEMA, would that be HUD? It was determined that it 
would be FEMA. We have moved out with that. I think as we get 
into this, we are going to see refinement in that role. Whether 
it stays at FEMA or moves, that is a potential discussion. I 
think what we are probably going to see more likely, though, is 
a lot of the other Federal agencies are now much more engaged 
in this response and many of our disasters do not warrant their 
level of engagement. So it is oftentimes the trilogy of us, 
HUD, and the Corps of Engineers works most disasters together. 
We are bringing in a lot more of the Federal family. And so I 
think what we will see as we do this may be some revisions in 
those roles as we get greater input of what other Federal 
programs can do in recovery activities.
    Mr. Dent. Thank you, Mr. Fugate. And at this time the chair 
recognizes Mr. Fleischmann for 5 minutes. And I see the chair 
is returning, and will relinquish the gavel back to him, though 
I like the gavel.
    Mr. Carter [presiding]. I was afraid you would. That is why 
I came back. Thank you for doing that.

                          ADMINISTRATIVE COSTS

    Mr. Fleischmann. Thank you, Mr. Chairman.
    Mr. Administrator, before I begin my questions, I represent 
the Third District of Tennessee. And last year and the year 
before that, in my first 2 years in Congress, unfortunately we 
had a tremendous rash of tornadoes. I had never seen 
devastation like that in my life. And I do want to thank you 
and FEMA. At that time, I was a freshman Congressman, I had 
just been serving a few months, and FEMA was very responsive, 
came in and did a very good job. And it happened the next year 
again. So thank you for all your hard work for the people of 
East Tennessee in getting us through those disasters, sir.
    I have a question or two. The GAO recommended that FEMA 
implement goals for administrative cost percentages for 
declaration and monitoring the performance to achieve these 
goals. What is FEMA doing to address this recommendation?
    Mr. Fugate. The administrative costs, which are the costs 
that we provide in addition to the grant funds for the State to 
administer the programs, that adjustment is being based upon a 
rule that is in process to adjust cost share for management 
costs. And so that is a process, we will have our staff update 
you on that, but it is still in the rulemaking process to 
adjust management costs.

                    ASSISTANCE TO IMPACTED FAMILIES

    Mr. Fleischmann. Okay, sir. Mr. Administrator, in your 
testimony you mentioned two provisions designed to directly 
financially assist those who have been affected by Hurricane 
Sandy, the Individual and Households Program, and the 
partnership between FEMA and the Small Business Administration 
to provide low-cost loans. Two-part question, sir. What steps 
has FEMA taken to ensure that those who need this assistance 
receive it in a timely and effective manner? And my second 
question, how is FEMA making sure that tax dollars used for 
these programs are utilized wisely and only go to those who are 
in need of the assistance?
    Mr. Fugate. With the number of families that were impacted 
and number of households, the traditional approach that we had 
adopted to ensure that only those that are actually impacted 
get assistance and minimize fraudulent applications was to tie 
a registration where you have registered with FEMA requesting 
assistance and a home inspection. We would literally send 
somebody to your home to look at the damages, determine that 
you lived there before we would approve any assistance.
    That would not have worked in Sandy because so many people 
were impacted and there was such a great need for immediate 
assistance. So we had piloted some looks at some technology of 
using satellite imagery and in some cases Civil Air Patrol 
flying with a camera with a GPS recorder shooting pictures so 
that we could see areas and verify that those homes were in an 
area of impact. So if you called and registered, we would look 
and verify that your home, that you had something like a 
driver's license, utility bill, something that verified that 
was your address, we would use remote sensing, whether it was 
Civil Air Patrol flying a camera or whether it was a satellite 
image, we would verify that your home was in the area of 
damages and that we had reported damages there. And then we 
would provide a partial advance, primarily for rental 
assistance, until we could get an inspector there.
    That allowed us to get a lot of assistance to people. And 
again, we put the controls in there to verify that we had some 
information that we could say you did live there. We had 
imagery that says, yes, that is an area of impact. And based 
upon what we are seeing, we feel comfortable that we can 
advance you a small amount of a total amount that may be 
eligible until we can get an inspector there. So our goal was 
to get money, get people some place to stay, but not get away 
from just blanket go block by block, ZIP Code by ZIP Code that 
had been done before, because there was not a process to be 
able to account as each family registered.
    And again, we have looked at continued auditing of this and 
looking for fraud and abuse that has occurred. Our percentages 
during Katrina were very high. Our more recent experience, 
including in your State, had been below 1 percent. We are 
looking again to ensure that, as much as we can, we have 
eliminated duplication of benefit, we have eliminated fraud. At 
the same time, we did not want to penalize people by being so 
egregious to make sure that there was no fraud there that we 
were holding up.
    So as we get through this, I believe this will be hopefully 
an area that when the IG looks at this, we will get a better 
sense of whether the controls were adequate? Did we keep this 
error where we wanted it to be? And again, it is not even a 
question, if there is absolute fraud committed, we prosecute. 
We do not tolerate that. A lot of times it is mistakes. But 
when it is fraud, it is a criminal act, we will refer that to 
the IG for investigation and prosecution, and we will go for 
our full recoupment, as well as whatever actions the U.S. 
Attorney may determine to take in that case.
    Mr. Fleischmann. Thank you, Mr. Administrator.
    Mr. Chairman, I yield back.

                          DISASTER RELIEF FUND

    Mr. Carter. I guess we are going to start the second round 
now. Let me start off by saying, you know, if you want to 
prosecute them, I will hold their coat, because I agree with 
that 100 percent. Kind of my nature.
    You know, we are looking at 2013, you kind of told us what 
the big cost drivers are going to be. And I am sure you are 
budgeting and looking at the budget, we have some of your 
reported numbers. Do you feel like that to finish out what you 
have to do both here and the other events, and we always have 
the unforeseen that we do not know about, that you will be able 
to finish out the 2013 budget? And then as we are looking down 
to the 2014, to the future requirements, both in this area and 
in the overall Nation, we need your input in that. So I was 
just curious about do you feel like you can finish out 2013 
effectively? Do you have the funds to do it?
    Mr. Fugate. I think when we are talking about the Disaster 
Relief Fund, I feel very comfortable that we will not have to 
slow down, stop, or do anything to impact the individual 
assistance programs. That will be our first priority. I have no 
doubts we will be able to fund that out for the rest of the 
year.
    For permanent work, we look at the Disaster Relief Fund as 
not only for what we are doing with previous disasters, but the 
ability to respond to the next disaster. So we want to make 
sure that as we get into payments, it is really going to depend 
upon how much we obligate and how much these tools speed up 
things other than we anticipate. We do not see anything before 
August that would even suggest that the fund balances may get 
to that point. And a lot of that is going to depend upon where 
we are in the budget process and what we are looking at for the 
next fiscal investment.
    One tool that you have given us, and Ranking Member Price, 
when I first got here it was a huge issue of contention, staff, 
and we have always struggled with how do you fund the relief 
fund? Historically had been done supplementals, but then that 
meant that budgetarily we were operating outside of the budget 
process. Last year, with the comprehensive budget agreement, we 
saw for the first time that we fully funded the relief fund 
based upon what we projected with reserves there to allow us to 
respond to the next event.
    If you remember the year before that, Hurricane Irene, we 
were very close to having to shut down major pieces of our 
response just to keep going. This year that was never a factor 
in Sandy. So I think I am very comfortable that the funding 
levels are there for individual assistance with no question. I 
think the only caveat, on public assistance, will be at the 
rate we draw down, and part of this will be with some of these 
new tools, if we are obligating on some of these larger 
projects, do we see a drawdown faster? And I see nothing that 
would suggest that it would be any time before we would get to 
the next budget cycle. And so there may be a window there 
looking at the budget cycle and what we are seeing in the 
appropriations as to whether we would need to do anything or 
whether or not we would be able to go into the next budget 
cycle and continue that work.
    There is one area that I am watching, and that is going to 
be wildfires and some of the other disasters that are 
emergencies because they are not funded out of the catastrophic 
funds. So that is one area that is kind of a concern for me. It 
may not be this year, it could be next year, because usually 
with Fire Management Grants we will declare them in this fiscal 
year, but oftentimes there is a delay in getting those 
reimbursements. But because that comes out of what we call the 
surge account--it is a separate piece of the relief fund that 
is designed to respond to the next disaster and deal with 
emergencies and fire grants--I am concerned that I do not have 
a good sense of what that looks like. But again, that will be 
something, as we see, that we will be working with staff and 
saying if we start seeing trend lines that say we have more 
fire activity and we are going to have more payouts there than 
we have anticipated, we will see that before it would become an 
impact and be something that would adversely impact the budget 
and our ability to respond.
    Mr. Carter. Fire grants, we are very familiar with 
wildfires in my State because we are kind of perpetually in a 
drought, but the country has got a lot of drought in it right 
now. Yeah, I can see that issue. But even after the impact of 
sequestration, FEMA estimates that the Disaster Relief Fund 
will carry over more than $2.5 billion into fiscal year 2014 
based on the March 5 disaster relief monthly report. All things 
being considered that you just talked about, will you be able 
to carry that over?
    Mr. Fugate. Mr. Chairman, I feel very good about individual 
assistance. For the public assistance, the only caveat will be 
do we see some of these big projects use the estimating tools 
and get full obligations on the front end where normally they 
would be reimbursed over a 3- to 5-year period? And it really 
depends upon, as you point out with some of these hospital 
stuff, those are going to be very large projects. And that is 
the unknown. But again, I think----
    Mr. Carter. Right.
    Mr. Fugate [continuing]. If we see that, we will be 
communicating with staff, we will know that is happening. It 
will not be something that happens and then we are going to run 
out of money or we are going to run out of cash flow or we are 
going to have to look at some controls.
    The other thing we have done, Mr. Chairman, to address this 
is we used to fully obligate every dollar on projects that were 
going to be reimbursed when we did the project, even though 
that work may not be done for several years. So what it showed 
in your balances, we wrote the check but it was not going to be 
cashed this year. Well, that meant that we were constantly 
running into issues about the next disaster.
    We have put in financial controls where, if we are doing 
actual reimbursement, we are reimbursing them as they draw the 
money down, not obligated on the front end. And so this has 
allowed us to manage our cash flow much better and avoid having 
to obligate dollars that may not be expended for several years 
when the projects improve, but make sure that we have the 
funding available as they need it.

                          DEBRIS REMOVAL COSTS

    Mr. Carter. And I know I have run out of time, but I have 
only got one more thing I just want to address with you. It has 
been communicated to me that, as usual, New York has stepped up 
in some things. You got to be proud of the police and the fire 
department and everybody else. New York, they are the model for 
the entire world. And in the cleanup, New York City, of course, 
they have lots of parades, and I guess they are experts on 
cleanup, but they really did a yeoman's job of cleaning their 
city up in record time and at a good cost to us. It was a 
bargain. If you compare it to the cost in Long Island, which 
the Corps is contracting out, it is an amazing difference, and 
which I think commends New York City and FEMA for thinking 
outside the box and upfronting, as you pointed out, the funds 
for them to get started. And they delivered I think very 
effectively.
    Is this going to be a trend you are going to be looking 
for, trying to get the locals more federally funded and 
involved rather than contracting with that variation on costs 
that we see out there?
    Mr. Fugate. Yes, sir, Mr. Chairman. In fact, we had worked 
with staff previously on previous language that had not been 
passed in the previous Congress. We took one piece of that, 
where previously FEMA did not reimburse you for your actual 
cost of cleanup if you used your crews. We would only pay you 
for your overtime. That oftentimes put local jurisdictions in 
the point of saying, well, I am just going to contract out 
because you will pay me all my contracting costs, but if I use 
my own folks to pick up the debris we only get overtime.
    We had worked with staff, and we saw in the Alabama 
tornadoes and other places where if we were doing that we would 
drive down the cost of cleanup and speed it up. So we got from 
the President guidance that we would do this one time and do 
this for a 30-day period. And again, what you saw was debris is 
not there 6 months later in some of those neighborhoods. It got 
cleaned up. We can move to recovery.
    So part of what you gave us in the legislative improvement 
with the Sandy supplemental is now to do the rules to do this 
for all disasters going forward so that we speed up the cost, 
we drive it down, but we also reward communities by doing more 
work on the front end, because we know the quicker debris gets 
out of those disaster areas, the better it is for recovery, but 
we also know that debris can be one of the largest cost 
factors. And we need to control that cost and drive 
efficiencies and reward the incentives to not penalize 
communities for doing their work, but reward them for getting 
it done faster at lower cost to the taxpayer.
    Mr. Carter. I agree 100 percent. And I believe I have used 
up my time.
    Mr. Price.

                        MITIGATION: PRE-DISASTER

    Mr. Price. Thank you, Mr. Chairman.
    I want to return to the matter you were raising with 
Chairman Latham about the intersection of FEMA and 
Transportation Department support for the transportation needs. 
Just one quick point, though, apropos this last discussion. I 
did not hear you focus specifically on pre-disaster mitigation, 
although you stressed it and have stressed it consistently in 
your presentation. Pre-disaster mitigation is subject to 
sequestration. True? And we are dealing with appropriated 
levels there that are a fraction of their past levels. True? 
Both statements accurate?
    Mr. Fugate. Yes, sir.
    Mr. Price. And what would you say about the emphasis you 
placed on post-disaster? And post-disaster mitigation of course 
is a percentage of the relief funds. But the pre-disaster 
appropriations, what kind of shape is that in and what would be 
the potential sequestration impact there?
    Mr. Fugate. Even in our requests we have had to reduce 
that. Initially, there has been a lot of discussion about what 
role it would play. Here is our challenge. Pre-disaster 
mitigation, while noble, the greatest benefit we have seen from 
that is the planning efforts to get plans in place. My question 
is, if we want to truly drive down the cost of disasters, 
mitigation dollars that go to individual projects will help 
that one project, that one community. More systemic adoption of 
building codes and land use regulation appropriate for hazards 
would be of greater benefit to the Nation.
    And I think this is again where looking at States 
developing mitigation strategies, looking at how we use the 
Flood Insurance Program, the more we get communities to adopt 
and enforce building codes appropriate for their hazards is how 
we are going to drive down the large-scale cost of disasters. I 
think the greatest benefit from the pre-disaster mitigation 
grants, though, was getting local communities and States to 
talk about mitigation and drafting those plans, because once 
that conversation started, regardless of whether it was Federal 
dollars, there was always the potential as projects came up, 
they were incorporating that in on the front end, not merely 
looking at if there is no funding, we cannot do something about 
it. So the planning effort I think is giving us the greatest 
return on that. Then of course any individual project gives us 
a return, but that return is based upon that project and its 
singularity versus what are we seeing systemically that we are 
changing across the Nation.

 FEDERAL TRANSIT ADMINISTRATION: DELINEATION OF REBUILDING/REPAIR COSTS

    Mr. Price. Thank you. This is material for a much longer 
discussion, because I know that what you say is true. I also 
know that politically the incentives are often strongest after 
a disaster, and so the post-disaster mitigation is an important 
piece of this as well, and how to blend those together into a 
truly effective and cost-effective mitigation effort is 
something that we need to address long term quite apart from 
what the sequestration impact may be in the near term.
    Let me ask you about transportation. You had only a modest 
amount initially in your request to rebuild transit roads and 
bridges, some $390 million. But you did acknowledge that these 
figures were based on very preliminary assessments. And you 
assumed that the Federal Transit Administration would bear most 
of the rebuilding costs. On February 25, you, though, came 
forth with a much greater cost estimate, $1.23 billion for 
transportation projects in New York and New Jersey. That was 
more than three times your original estimate. And then of 
course on top of that is what FTA would fund, which at that 
point was estimated at roughly $3.7 billion.
    We know of course that the transit systems were crippled by 
storm waters following Sandy. We know this was extensive 
damage. But still it is an important question I think why your 
cost estimate grew threefold over a 3-month period. So that is 
one question.
    Secondly, on March 5 you concluded a memorandum of 
agreement with FTA about the division of labor between your 
agencies with respect to transit projects. The MOA clearly 
states that when funding is available, FTA will provide funding 
to public transportation agencies for eligible costs even if 
such costs might otherwise be eligible under FEMA's PA program. 
Now that you have this memorandum, what do you have underway in 
the way of revising cost estimates so that FTA in fact will 
make good on its obligations in terms of transit system 
rebuilding and repair? And what transportation rebuilding needs 
do you think FEMA would still be responsible for at the end of 
this process? And how much do you anticipate this will require 
in the current year?
    Mr. Fugate. Congressman, to speak directly to why it went 
up threefold I will have to have staff respond in writing.
    I do know there were several projects that I think we 
probably looked at because they were toll roads and others that 
we assumed were Federal aid or would be transit and that does 
not appear to be the case. But we are still working those 
issues.
    The most important part of this, though, is to ensure that 
there is nonduplication of benefits and we do not have 
applicants going after transit dollars and then coming back and 
getting FEMA. It is very clear that when you look at the 
Stafford Act, much of this work is eligible, but we want to 
make very clear, and that is part of this agreement with DOT, 
is to make sure that we only fund the project from one pot of 
money, we do not end up funding the same project twice with 
duplication of benefits. And so we are working very closely.
    And the delineation, as you point out, is those transit 
authorities that DOT Federal transit would fund, and then what 
we probably find ourselves still funding are those that are 
non-Federal aid highways that do not have a rail component, we 
would still be looking at them as eligible because they would 
be eligible in almost any disaster. They do not directly 
receive Federal dollars for that. They are not subject to the 
Federal Highway Act as far as those dollars go. So the clear 
delineation right now is, are there those that are kind of a 
blend? So this one toll bridge toll road is a blend. Is it 
strictly a Federal aid? Does it have characteristics that would 
be funded? The initial answer is, this is going to be a local 
project, it is going to be funded by FEMA, but we are working 
closely to make sure that that is what will be done.
    But if it is not a rail, it is not a Federal aid highway, 
historically FEMA has always funded that in previous disasters. 
What we do not want to do is, because a lot of the work that is 
eligible, we do not want to have applicants coming in twice for 
the same funds. And so that is going to require that both FTA 
and us work, and we are doing this in the joint field offices, 
and looking at these projects. And I think part of what Mike 
Byrne was referring to when he says he has got several big 
projects, I believe he calls them his dirty dozen, he is trying 
to get, for these types of projects where there is complexity 
and there is overlap, the answers on the front end before we 
start obligating money and find out we funded something that 
should have been funded by Federal transit or Federal transit 
was funding something that ultimately we were going to fund 
anyway in another program. We need to make sure we do not 
duplicate that benefit.
    Mr. Price. You have been very clear about what your 
obligations on the highway side would be compared to other 
agencies. I am not quite sure I heard your answer as to on the 
transit side what those obligations would be. And then your 
answer points up I think the necessity of making sure the 
applicants know----
    Mr. Fugate. Yeah.
    Mr. Price [continuing]. Who to submit their applications to 
and that you do not have a lot of confusion where one agency is 
approached and rejects an application and then there has to be 
a new effort made. So I would hope you are ensuring that this 
situation is clear to the applicants as well as to your own 
administrators.
    Mr. Fugate. Part of getting the memorandum signed was to 
provide that framework so that FTA, working with our folks in 
the joint field office, are working as one approaching the 
project so we do not end up working separately. Right now our 
preliminary view is most of the transit impacts look to be 
clear Federal transit funded. There may be some things that the 
transit authorities own that would not be directly tied to the 
rail or transportation that would still be public, may be 
eligible. So we are not precluding it, but that is what we are 
looking for: Is there something that was not the intention of 
the funding that transit authorities would have that they would 
still look to FEMA for? And we want to make sure it is clear 
that that was not eligible for the transit funding. If it is 
eligible for the transit funding, we want it funded through 
that mechanism. But we realize there may be outliers because 
some of the transit authorities may have things that go above 
and beyond that that were damaged that would be eligible and 
that is not going to get Federal transit.
    I do not know if that is there, but that is what we are 
looking for. But what we do not want to see is what you point 
out: applicants getting a mixed message from FEMA and Federal 
transit over what is eligible and having duplication or have 
missed opportunities.
    Mr. Price. Thank you.
    Thank you, Mr. Chairman.
    Mr. Carter. Mr. Frelinghuysen.

                             CLAIMS PROCESS

    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    As we approach high noon, I am sure we would all commend 
you for the width and breadth of your knowledge. I would just 
like to say for the record no one has had to come forward to 
assist the administrator with any supplementary information. So 
we commend the fact that he retains so much knowledge right at 
the table.
    I would like to sort of take a look at the claims process. 
I know there was some initial concerns that our governor had--I 
cannot speak for New York--that there was a backlog. And from 
what I can understand, there is some pretty good figures here. 
For New Jersey, correct me if I am wrong, about 52,000 claims 
have been closed out of a field of about 74,000, which gives us 
about a 71 percent win record, with about $2.2 billion in 
payments. Where do we stand relative to claims generally? There 
was some confusion in the beginning and now it is somewhat 
clearer.
    Mr. Fugate. This is what staff has found as we have 
investigated. We are under the belief now that if you have 
filed a claim, an adjuster has been there. An initial concern 
early on was getting adjusters out there fast enough. If you 
agreed to the adjustment, then the money is being paid out. I 
do not know New Jersey specifically, but I think overall we are 
up to 85 percent. New Jersey was a little bit lower, but we 
were going, why is that? And we are trying to work on that.
    One of the things that has been expressly concerned, 
though, is that the first party payer in many mortgages will be 
the mortgage lienholder. So even though they may have a 
settlement, oftentimes the payment goes to the first holder of 
that, which is your mortgage company. And we were not sure how 
many were being told that the claim was being held there, how 
much had been given in advance to the owner to make repairs. 
Governor Christie is working with his financial regulators to 
get clarification there. Governor Cuomo had done that in New 
York.
    Our goal is, because this is something Governor Christie 
has expressed to me directly, that he wants to know as much as 
he can about who is not going to be made whole or not have all 
their claim processed so that he can direct where he is going 
to fund his community block grant dollars for elevations and 
buyouts. Our goal is in the next weeks to have everything in 
the known universe processed, paid. There may still be issues 
as to the claim getting to the owner if it is still being held 
by the mortgage company, and we are working with the governors 
on that. The final piece, though, is if you are going to 
dispute your settlement, which is your right, we are giving up 
to a year to get that resolved. We have paid out more claims 
faster than we had done before. But that is not a good answer 
when I am sitting there not getting money, I had insurance, and 
I have to make decisions. So our goal is, over the next several 
weeks, to get all the claims that have been filed serviced, get 
final determination, allowing people to appeal that, but also 
wanting to get closure as quickly as we can so that we can 
provide the assistance.
    Mr. Frelinghuysen. How would you characterize your 
interaction with private insurers?
    Mr. Fugate. Well, the write your owns, again, we work with 
them very closely because ultimately we own the policies, but 
they administer that for us. I think early on there was a lot 
of challenges getting enough adjusters. Again, flood insurance 
is not like the rest of the homeowner policies where they 
oftentimes can pull from vast resources. There are a finite 
number of inspectors who can do flood insurance, and they all 
tend to share that resource. So what we immediately saw was a 
bottleneck, because all the write your owns were pulling 
against the same contractors to service those.
    Several companies stepped up. We provided additional 
training. They trained some of their own agents to service 
those, and that helped out. But I think that piece of it was 
the first delay: getting enough adjusters in the field who 
could do that, who were trained to do it given the limited pool 
of those. And then the second piece of this has been getting 
these processed and getting them paid and not always knowing 
did the money get to the homeowner or did it go to the mortgage 
company? A lot of times there was a disconnect between that and 
the person who said, I have had the adjuster, but I have not 
heard anything, what happened? We go back and look and go we 
have already paid this claim, but it goes to the first payee, 
it is the person holding that lien.

                           HAZARD MITIGATION

    Mr. Frelinghuysen. We commend you for your attention to 
this in particular. And lastly, on the issue of hazard 
mitigation, under our package I think we sort of directed that 
a study be produced, what was it, within 60 days? Where do we 
stand relative to FEMA's mitigation practices and things of 
that nature? I think some sort of a study was called for.
    Mr. Fugate. Well, going back through the legislation there 
are some things.
    Mr. Frelinghuysen. Yeah.
    Mr. Fugate. The one thing I know specifically the 
mitigation was the ability to advance up to 25 percent of 
approved projects without going through the formal 
reimbursement process. That would help get projects moving 
faster. I will have to get back to you.
    Mr. Frelinghuysen. Yeah, I think the funds were to be sort 
of combined with Community Development Block Grant funding from 
HUD depending on sort of what we would call I guess municipal 
proposals. So you will get back to us on that.
    Mr. Fugate. Yes, sir.
    Mr. Frelinghuysen. Mr. Chairman.
    Thank you, Mr. Administrator.
    Mr. Carter. Thank you, Mr. Frelinghuysen.
    I do not intend to go to a third round unless somebody has 
something that is really pressing. If you do, I will recognize 
either one of you at this time.
    Mr. Administrator, you have done an excellent job here 
today. And by the way, thank you for commending the staff of 
this subcommittee. We appreciate that. They deserve 
compliments. Both the majority and minority work hard on this 
committee.
    Mr. Fugate. Mr. Chairman, we and the staff will agree to 
disagree, but when they knock it out of the park, I have to 
recognize them. There was a lot of things they were working on. 
I asked them to do something. If you will indulge me, sir, I 
asked for something I was told not to ask for. I asked to put 
the tribal language back into the supplemental. I was told that 
is a bad idea. Your staff heard me out, they made me no 
promise. And when the law got passed, we corrected an injustice 
to the tribal governments and we recognized their sovereignty. 
Your staff got that done.
    Mr. Carter. I am aware of that, and I am proud of them. 
Thank you. And thanks for your testimony here today. And thanks 
for your organizational skills and administrative skills. I 
think we got a lot of compliments on FEMA when we were on our 
little short trip, and they were well deserved. Thank you for 
being here.
    Mr. Fugate. Thank you, sir.
    Mr. Carter. We are adjourned.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                          Thursday, March 14, 2013.

                  IMMIGRATION AND CUSTOMS ENFORCEMENT

                               WITNESSES

DANIEL H. RAGSDALE, DEPUTY DIRECTOR, IMMIGRATION AND CUSTOMS 
    ENFORCEMENT
GARY MEAD, EXECUTIVE ASSOCIATE DIRECTOR, ENFORCEMENT AND REMOVAL 
    OPERATIONS, IMMIGRATION AND CUSTOMS ENFORCEMENT
JOHN MORTON, DIRECTOR, IMMIGRATION AND CUSTOMS ENFORCEMENT

                   Opening Statement: Chairman Carter

    Mr. Carter. Good morning. I will call this committee to 
order, this hearing to order.
    This morning, we will hear from witnesses from U.S. 
Immigration and Customs Enforcement or ICE about facts 
surrounding the recent release of detainees from ICE's custody.
    Everyone has a lot of questions about what happened and 
why, and I expect full disclosure.
    More than two weeks ago, Director, we talked. You promised 
me full details regarding the releases. The same day two weeks 
ago, your boss, Secretary Napolitano, expressed surprise and 
concern over the releases and promised me the same information.
    Until eleven p.m. last night, the subcommittee still had 
not received a single answer to the legitimate fact-based 
question we asked. As a result, we could not shed any light on 
the conflicting reports released by the media, the 
Administration, and off-the-record sources within the agency. 
Before we can talk about why ICE took this drastic action, we 
need to discuss these facts.
    Before eleven p.m. last night, we had no knowledge of how 
many people were released. The Secretary repeatedly asserted 
that hundreds, not thousands, were released for supposed 
budgetary reasons.
    We have documents indicating more than 3,000 detainees were 
released. Now we know the exact number which is slightly less 
than that. And it all started on February 9th, which was before 
the President's sequester order.
    What risk do these individuals pose to national security 
and public safety?
    In previous meetings with ICE and in tours with ICE, you 
have been very proud to point out that you are the second 
largest law enforcement agency in this country, and we need to 
know how law enforcement was affected by this release.
    The Secretary has insisted that none of these people were 
criminal aliens. I think that is not correct. Internal sources 
note that a number of convicted criminals were released, mostly 
level three detainees.
    We now know that there are some from all categories of 
detainees, and it has been indicated that there were no serious 
people who were charged with serious crimes released. We now 
know that that is not a correct answer from what we received 
last night at eleven o'clock.
    And I will remind you, I do not need to remind you, you are 
all well aware of what your mission is, but the 9/11 offenders, 
none of them would have been in any of the categories you 
released. They were just visa overstays, and I would say they 
committed a pretty horrendous act in this country. And that is 
part of the responsibility of this agency.
    Now, there is risk when you release people that are either 
convicted criminals or are pending waiting trial on serious 
criminal activity. And level one is the most serious, but there 
are others just as serious and I would argue publicly possibly 
more risk to the American people than maybe even some level 
three offenders.
    The Secretary stated that all these individuals remain in 
removal proceedings and are being supervised. Implications were 
that they were being placed on alternatives to detention such 
as monitoring, so forth. I do not believe that is exactly 
accurate. We are going to talk about that.
    And what is ICE's posture going forward? What is the policy 
going forward?
    We have heard different stories about whether ICE will 
undertake further releases. We need to know about that.
    Along with demanding answers to the above, this committee 
is appalled by public statements that ICE was not provided 
adequate resources in the current Continuing Resolution or CR.
    And for that reason, it is important to note that based 
upon the data ICE provided, the agency absolutely was funded at 
a level necessary to maintain 34,000 beds in fiscal year 2012, 
and further under the current fiscal year 2013 CR.
    While our current fiscal crisis dictates thoughtful 
decisions to put limited dollars against priorities, it is not 
a political opportunity to ignore the law. And, in fact, you 
are the second largest law enforcement agency in the United 
States and your one duty is to enforce the law.
    I am further disappointed by any effects this incident has 
on the bipartisan discussion towards comprehensive immigration 
reform. I think the American people are going to be very 
concerned and are very concerned that you have released 
potentially dangerous criminals back to the public for assumed 
budgetary purposes.
    Immigration enforcement matters to our national security, 
our public safety, and the integrity of the legal immigration 
system of the Nation.
    I would like to recognize the subcommittee's distinguished 
ranking member, Mr. Price, for his opening statement at this 
time.
    [The statement of Mr. Carter follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                      Opening Statement: Mr. Price

    Mr. Price. Thank you, Mr. Chairman.
    Mr. Chairman, I appreciate your calling this hearing this 
morning and particularly agreeing to my request that given the 
topic, Assistant Secretary Morton should be present.
    There are many answers owed to this subcommittee and to the 
American people regarding the impact of sequestration and the 
Continuing Resolution on Immigration and Customs Enforcement 
and in that context, the recent release of detainees.
    Late last night, we received cursory information about how 
many people have been released and we still need to know under 
whose order, how the determination was made on which 
individuals to release, what form of alternative supervision 
they are now currently under, or if we can expect additional 
releases such as this as the sequestration stays in place.
    Some of these actions took place in the context of 
unworkable and onerous conditions that the Republican majority 
has placed on ICE funding. I am referencing in particular the 
floor of 34,000 detention beds that ICE must maintain, a rigid 
requirement I have never felt was wise in good fiscal times or 
bad.
    Assistant Secretary Morton, you have stated many times that 
this language mandates not only that you maintain 34,000 
detention beds, but you fill those beds with detainees on a 
daily basis, further limiting your flexibility.
    No doubt eliminating such an unnecessary threshold would 
provide ICE the flexibility required during these tight fiscal 
times. Instead the majority has doubled down on this unwise 
approach in the CR passed by the House last week, maintaining 
the 34,000 bed threshold while doing nothing to prevent the 
devastating impacts of sequestration across your other 
programs.
    In fact, the rigid requirement about the bed level makes it 
inevitable that the sequestration ax will fall even more 
severely onto other programs. We want to hear about that today.
    And, by the way, this was done in a bill that was touted, 
as increasing agency flexibility. That was the mantra on the 
floor of the House.
    I hope this hearing will give us a better understanding of 
how these contrived cuts, which the majority obviously prefers 
to a comprehensive fiscal plan, are affecting your programs 
overall.
    For example, ICE apprehensions are currently at an all time 
high. What percent can we expect apprehensions to drop as a 
result of sequestration? What will the reduction in 
deportations be, particularly for criminal aliens where 
removals are double what they were in fiscal year 2008? What is 
the impact on investigations into human smuggling or child 
pornography rings?
    I hope your testimony today will answer such questions.
    Finally, I should remind the subcommittee of what this 
hearing was originally supposed to be about. For weeks now, 
this date has been set aside to hear from Customs and Border 
Protection Deputy Commissioner Aguilar prior to his departure.
    It would have provided an important examination of CBP's 
ongoing budget issues, of their technological needs to ensure 
that harmful goods and materials are not entering the country 
illegally, and of the impacts of sequestration on CBP personnel 
which we know could involve furloughing thousands of border 
patrol agents and officers.
    So while I look forward to the testimony today, I remain 
concerned that we have cancelled that preplanned CBP hearing 
when we could just as easily have had Assistant Secretary 
Morton appear after the release of the 2014 budget.
    Thank you, Mr. Chairman.
    [The statement of Mr. Price follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Carter. A matter of note, we will have CBP in to 
testify later this year.
    Now to recognize our witnesses. Today we have the Director 
of Immigration and Customs Enforcement John Morton here with us 
today, Deputy Director Dan Ragsdale and Executive Director for 
Enforcement and Removal Operations Gary Mead.
    Director Morton, you have provided a statement to this 
panel; is that correct?
    Mr. Morton. I have indeed.
    Mr. Carter. Okay. Before we begin, I want the record to 
reflect that we require testimony submissions three days in 
advance. Today's statement was submitted to the committee at 
eleven p.m. last night.
    In addition, the testimony does not clear up any questions 
we have raised. It does, however, document that ICE's mission 
requires more than 34,000 beds and that 34,000 beds were 
funded.
    To the extent that ICE needed additional funds to manage 
its operational needs, I cannot understand why the department 
did not seek a reprogramming or transfer of funds to sustain 
its operations.
    And although the sequester may be looming, it is my 
understanding the first releases took place whether there was 
any indication of sequester. I really do not think a sequester 
is the subject of this hearing.
    I am ready to proceed with your statement.

                   Opening Statement: Director Morton

    Mr. Morton. Well, good morning, Chairman Carter, Mr. Price, 
and Members of the committee.
    With me as the chairman had noted are Dan Ragsdale, our 
deputy director, and Gary Mead, the head of ICE's Enforcement 
and Removal Operations or ERO. Both men are long-time career 
employees and a credit to the agency.
    Mr. Chairman, let me pause a moment to thank Mr. Mead as he 
prepares to retire after nearly 40 years of federal service. 
Running ERO is a tall order and he has done an excellent job 
charting a middle course in choppy waters.
    The immigration enforcement business is not for the thin 
skinned. We get more than our fair share of attention and 
artillery fire from every corner of the social spectrum. Gary 
has handled himself with a calm professionalism that few could 
have mustered under similar circumstances and I am deeply 
grateful for his willingness to lead ERO not once but twice in 
his career.
    While much has been made of ICE's recent reduction in 
detention levels, the truth is that the reduction was a direct 
result of ICE's efforts to stay within its budget in light of 
the Continuing Resolution [CR] and the possibility, now 
reality, of sequester.
    As the committee knows, we do not have a traditional 
appropriation for fiscal year 2013. Rather, we are coming to 
the end of a continuing appropriation that funded ICE at fiscal 
year 2012 levels for the first 6 months of the fiscal year and 
we do not yet know what Congress will provide for the remaining 
6 months.
    Additionally, as of March 1st, we are living under a 
sequester of 5 percent of our annual funds, a reduction of just 
shy of $300 million. Thus, while the expiring CR provided ICE 
budget authority to maintain an average of 34,000 detention 
beds for the year, sequestration has in turn reduced those same 
funds by 5 percent, a reduction that if left unchanged by 
Congress will affect our average daily population going 
forward.
    Despite these challenges, ICE continues to produce 
impressive enforcement results. During the first 5 months of 
the 6-month CR, that is, the portion without sequestration, we 
were solidly on pace to maintain an average level of 34,000 
beds a year. Indeed, on the last full week of that period, our 
annual average daily population was 33,925 beds.
    This, Mr. Chairman, is the highest level of detention ICE 
has ever maintained over the first five months of any fiscal 
year in the agency's history and close to the record annual 
level of 34,260 beds ICE maintained at Congress' direction last 
year.
    At times during this fiscal year, we have maintained well 
over 34,000 beds due in part to increased support we have given 
the Border Patrol on the southwest border. On October 2nd, 
2012, for example, we had an actual level of 36,036 beds in 
use.
    With budget authority that only supports 34,000 beds, we 
obviously could not maintain such highs over the year, so we 
had to temporarily lower our detention to levels below 34,000 
to ensure that at the end of the CR we remained within budget.
    This need to lower our detention levels was heightened by 
several factors. First, two of the firms we use to maintain 
detention space did not receive the funds we expected. The 
breached bond fund in particular had a projected shortfall of 
$20 million for this fiscal year.
    Second, 4 months into the fiscal year, on January 18th, 
2013, we were maintaining an average daily excess of 630 beds 
over 34,000. Had we continued to operate at this level, we 
would have faced a year-long shortfall of $128 million.
    Finally, our transportation and overtime expenses used to 
support our immigration enforcement efforts exceeded our 
execution plan by $16 million for the first two quarters.
    In the context of a known full-year budget, we can usually 
address these sorts of issues over the balance of the fiscal 
year. Because this year our CR funding was only for 6 months, 
we had to make significant adjustments in a short period of 
time or we would have run out of funds.
    Therefore, ERO in conjunction with the chief financial 
officer decided to reduce our budget execution level by 
lowering our detention levels throughout the month of February. 
To do this, ERO released some detained aliens to other forms of 
supervision on a weekly basis throughout the country.
    These releases focused on aliens who are not subject to 
mandatory detention and who do not pose a significant threat to 
public safety. Everyone released for budget reasons remained in 
removal proceedings.
    From February 9th through March 1st, on average we released 
over 700 aliens per week to this end. Contrary to some reports, 
those released for budget reasons did not include thousands of 
criminals who posed a significant risk to public safety.
    Indeed, 70 percent of those individuals released had no 
criminal record at all. The remaining 30 percent were either 
misdemeanors or other criminals whose prior conviction was not 
a serious violent crime.
    During this period, most of our field offices released on 
average fewer than 15 detainees each week. Five larger offices 
released an average of 92 detainees per week. In total, we 
released 2,228 aliens over a 3-week period in February for 
solely budgetary reasons bringing our year-to-date detention 
average on the last full week prior to sequester to 33,925 
beds, 99.8 percent of 34,000.
    In short, Mr. Chairman, I assure you that there are no mass 
releases of dangerous criminals underway or any plan for the 
future, just efforts to live within our budget. We will 
continue to do our level best over the remaining 6 months of 
the fiscal year to maintain strong detention levels subject to 
the requirements of the sequester and whatever funding Congress 
provides the agency at the end of this month.
    Thank you.
    [The statement of John Morton follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                     DETENTION BEDS: NUMBER NEEDED

    Mr. Carter. Well, thank you, Director Morton.
    To start off with, I was very confused about some of the 
arguments that are being made by the department, so let's just 
start with the argument, in the last round we discussed this, 
that Congress was mandating that there would be 34,000 beds, 
which is what you talked about.
    We were told, we do not need 34,000 beds; the max we need 
is 32,500, or something like that by Ms. Napolitano, I believe, 
and maybe by you. Actually, later, Ms. Napolitano said really 
25,000 beds is all we need. And, yet, you just gave me a 
statement where you said you topped 34,000 at one time at 
36,000.
    And I believe it is the position of the Administration that 
we have the lowest number of border crossings in the history of 
the republic going on right now, that we have a secure border. 
Ms. Napolitano stated that now and on a half a dozen different 
times.
    So at the best time in our life, we are 2,000 over the 
number that Congress mandated and you are saying that--and you 
had turned those people--you had to let certain people loose 
because the--you averaged 630 over. And, yet, the position of 
your agency and Ms. Napolitano's office is that we do not need 
34,000 beds.
    But we funded truly 34,000 beds, didn't we?
    Mr. Morton. The committee appropriated 34,000 beds, yes, 
sir.
    Mr. Carter. Okay. And at least you are hired to manage the 
money and you have people that are hired to manage the money to 
make sure that you stay within the budget. And you told me you 
do not need this many beds, but you have been over, by your 
testimony, most of the year. That is very confusing.
    Can you explain that?
    Mr. Morton. The President's budget calls for 32,800 beds 
this year and it called for an increase in alternatives to 
detention. And so the way we have approached things, Mr. 
Chairman, is--you are right, we are responsible for managing 
the budget that Congress provides and Congress directed us to 
maintain a level of 34,000 beds last year and 34,000 beds in 
the CR, and we have done that.
    The President's budget calls for a different approach and 
less of a mandate in terms of hard detention and more 
flexibility with regard to alternatives to detention. I would--
--
    Mr. Carter. Mr. Morton----
    Mr. Morton. Yes, sir.

                   RELEASED DETAINEES: TOTAL RELEASED

    Mr. Carter [continuing]. First off, I am not going to play 
the-- I have been around here long enough to figure out that we 
can talk forever and I do not get to the rest of my questions.
    The President's budget is not at issue. In fact, the 
President's budget went to the Senate and did not pass. So it 
is a congressional budget that we are talking about here, not 
the President's budget. And the congressional budget that we 
base our numbers on, this is what we are talking about. And 
whatever the President proposed, his own Democratic Party-
controlled Senate rejected his budget. So, I mean, that is just 
history.
    We are not going to go there. I got questions I need to ask 
that are important and I do not want filibusters here. I want 
simple answers.
    Okay. We know some numbers that I had asked questions to. 
How many total detainees were released? For the record, how 
many was that?
    Mr. Morton. Two thousand two hundred and twenty-eight for 
solely budgetary reasons.

               RELEASED DETAINEES: BREAKDOWN, BY OFFENSES

    Mr. Carter. Okay. How many were level one offenders?
    Mr. Morton. Ten individuals were level one offenders. Four 
of those----
    Mr. Carter. For the benefit of the record, could you give 
me some examples of the crimes that are level one offenders?
    Mr. Morton. Yes. Just to provide even more detail, four of 
those individuals are back in our custody.
    Mr. Carter. Were they picked up for other offenses?
    Mr. Morton. They were not.
    Mr. Carter. Just decided maybe we should not have turned 
those bad guys loose?
    Mr. Morton. In some of those cases, there was a question as 
to whether the records were accurately entered into our system. 
And when I had all of them looked at, there were a couple where 
the computer record did not accurately reflect----
    Mr. Carter. Would you answer my question as to what type 
of--it is my understanding aggravated offenses fall to that 
category.
    Mr. Morton. That is right. They are the most----
    Mr. Carter. Can I use some examples from a state law which 
is where I have the experience? Like aggravated sexual assault, 
like aggravated robbery, like aggravated kidnapping. And what 
does aggravated generally mean?
    Mr. Morton. Congress defines aggravated felonies in the 
statute for purposes of immigration enforcement. It includes a 
whole host of offenses.
    Mr. Carter. Including the ones I just talked about?
    Mr. Morton. It includes the ones that you noted, but also a 
wide variety of financial crimes and those are the sorts of 
cases that we released here.
    Mr. Carter. You know, I asked you actually for the names 
and offenses of the individuals which is not what we got. We 
just got ten.
    Today can you tell me generally--can anybody at this table 
tell me what offenses these people were in for?
    Mr. Morton. I cannot give you from memory all 10. I can 
tell you that I know that some were for financial offenses. One 
was for an offense that was 30 years ago in 1979. One involved 
an individual who was a single father of a 5-month-old child.
    Every single one of these, Mr. Chairman, we took--
individual officers in the fields made a call and I am 
confident that if I were to share these offenses with you, you 
would be better reassured that we are not out willy nilly 
releasing serious level one offenders.
    Mr. Carter. That is fine. We may just do that. In fact, we 
may just do this for all of them, okay, because I did ask for 
that and did not get it.
    How many level two offenders?
    Mr. Morton. Level two offenders, we had 159. One of those 
individuals is back in our custody because they did not comply 
with the orders of supervision and so we brought them in.
    Mr. Carter. Okay. And one of the things that is in that 
category is drunk drivers, right?
    Mr. Morton. Yes, sir. And a fair number of these 
individuals, the vast bulk of these sorts of folks are going to 
have--their most serious offense will have been for a theft 
offense, for example, petty larceny or shoplifting, traffic 
offenses. The largest category will be for DUIs as you----
    Mr. Carter. Today can you tell me generally--can anybody at 
this table tell me what offenses these people were in for?
    Mr. Morton. I cannot give you from memory all ten--every 
single one of these, Mr. Chairman, we took--individual officers 
in the fields made a call and I am confident that if I were to 
share these offenses with you, you would be better reassured 
that we are not out willy nilly releasing serious level one 
offenders.

    Response: Based upon data available as of March 25, 2013, the 
offenses for which the released criminal alien detainees had 
convictions--many of which were misdemeanors--are as follows: traffic 
offenses, immigration violations, controlled substance offenses, 
assault, weapons offenses, driving under the influence (DUI) burglary, 
larceny/theft, fraud, smuggling, trespassing, evading arrest, 
harassment, and resisting an officer.

    Mr. Carter. It is multiple DUIs in some cases.
    Mr. Morton. In some cases, multiple DUIs, that is correct.
    Mr. Carter. You are an old law enforcement officer. What 
kind of headlines do you get when--because, you know, you guys 
do not fall--you do not feel that heat. The heat comes to the 
judges when they release these guys.
    But what happens when some illegal alien runs over and 
kills somebody about the age of some of these folks out here in 
this audience?
    Mr. Morton. Well, obviously that is a terrible result.
    Mr. Carter. Yes.
    Mr. Morton. And one point that----
    Mr. Carter. The first thing they are going to do is scream 
who the hell----
    Mr. Morton. Yeah. They are also going to scream about ICE 
as well, but----
    Mr. Carter. And guess who is going to scream that? Me and 
David sitting up here.
    All right. Now, here is the thing. Level three?
    Mr. Morton. Level three, we had 460 individuals and those 
are simple misdemeanors.
    Mr. Carter. What are those guys in for?
    Mr. Morton. They are going to be a wide variety of 
misdemeanor offenses. It could have been a single traffic 
offense, a single DUI. It could have been shoplifting.
    Mr. Carter. But there are DUIs in that category?
    Mr. Morton. There will be single DUI offenders in that 
category, yes, sir.
    Mr. Carter. When you have multiple DUI offenders, what kind 
of multiples are you talking about?
    Mr. Morton. So typically we are talking one or two. In rare 
instances, you may have more than that.
    Mr. Carter. And at least in my state, three or more is a 
felony.
    Mr. Morton. Yeah, it depends on the state law as you know. 
Some states, the third or fourth DUI can be a felony and can be 
the serious----
    Mr. Carter. And, by the way, for the record, which state 
had the largest number of people released?
    Mr. Morton. Your home state republic, the State of Texas.
    Mr. Carter. The republic of Texas.
    Mr. Morton. The republic of Texas.
    Mr. Carter. We will accept that.
    Mr. Morton. Right.
    Mr. Carter. We are a state.
    Mr. Morton. Although I will note there were no level one 
releases in your state.
    Mr. Carter. I am grateful for that. I am grateful for that.
    ICE priorities for detention include illegal aliens who 
have not been convicted of crimes, but otherwise pose a threat 
to national security or public safety?
    Mr. Morton. That is correct.
    Mr. Carter. How many of those were in the----
    Mr. Morton. I am not aware of any national security cases.
    Mr. Carter. Your testimony would be you do not think there 
were any?
    Mr. Morton. I would think that answer is zero.
    Mr. Carter. How many were pending criminal proceedings?
    Mr. Morton. I do not know the answer to that question, Mr. 
Chairman. We will have to look at that. Our classification 
level is based on a hard conviction and not a pending charge.
    Mr. Carter. How many were known gang members?
    Mr. Morton. I am not aware of the answer to that question. 
I can look at that and get an answer for you.
    Mr. Carter. You should be able----
    Mr. Morton. I did not----
    Mr. Carter. You probably have that information.
    Mr. Morton. We certainly might be able to find some of that 
information out. I did not see any of that in my materials in 
preparing for----
    Mr. Carter. How many were pending criminal proceedings?
    Mr. Morton. I do not know the answer to that question, Mr. 
Chairman. We will have to look at that. Our classification 
level is based on a hard conviction and not a pending charge.
    Mr. Carter. How many were known gang members?
    Mr. Morton. I am not aware of the answer to that question. 
I can look at that and get an answer for you.
    Mr. Carter. How many have removal orders?
    Mr. Morton. I am not aware of any who had outstanding 
removal orders, but, again, I can check for you on that.

    Response: Among the non-criminal alien cases, the number of 
aliens released with pending criminal charges was approximately 
475.
    Based on information from March 25, 2013, ICE became aware 
of two aliens with potential gang affiliations who were 
released. Both were subsequently taken back into ICE custody.
    Based upon data available as of March 25, 2013, of the 
aliens released, approximately 212 are subject to an 
administratively final order of removal. At this time, ICE 
cannot execute most of these orders immediately for a variety 
of reasons including a lack of travel documents, an appeal is 
pending in a federal court, or the alien is from a country that 
refuses to accept the return of its nationals.

    Mr. Carter. How many have removal orders?
    Mr. Morton. I am not aware of any who had outstanding 
removal orders, but, again, I can check for you on that.
    Mr. Carter. How many were violent criminals?
    Mr. Morton. I am not aware of any violent criminals in the 
sense that you and I are talking about. There were one or two 
of the individuals that we pulled back into custody in the 
level one offenses that upon closer examination of their 
record, the amount of time that they served was such that the 
legal----
    Mr. Carter. Was one of those the guy that made the 
television? When this first broke, some channels were showing 
some guy that they said was released.
    Mr. Morton. I do not believe so. I believe it was an 
individual we----
    Mr. Carter. How many were border patrol apprehensions?
    Mr. Morton. Border patrol apprehensions, some of them may 
have been border patrol apprehensions, but here it just--I 
think what you are asking is were any of those people who would 
otherwise have been affected by the end to catch and release. 
And that answer is no.
    Part of our instructions to the field was to treat 
expedited removal cases that we received from CBP [U.S. Customs 
and Border Protection], as not eligible for release. There are 
instances in which we get somebody from the border patrol and 
they go into formal immigration proceedings because they claim 
asylum or the like.
    Mr. Carter. I am glad you brought up catch and release 
because, you know, catch and release was a policy that 
basically was a border patrol policy. Somebody came across the 
border, they caught them. They took them back and released them 
back to the country that they came from which would have been 
the Mexicans that came across from Mexico. It would not 
necessarily have been Salvadorans. That was a different 
situation. Those were ``OTMs'' they called them, ``other than 
Mexicans.''
    When you started this criminal alien criminal program four 
years ago when the Democrats were in the majority and we 
started this program, it was about rounding up serious 
offenders and let them be subject of detention and ultimately 
deportation because we were going to clean up our jails and 
clean up our city streets. And we came up with a lot of things 
to do. That was the whole purpose of this program.
    Now, doesn't it seem unusual to you that you told us these 
were serious people? I remember that testimony, ``serious 
people,'' because I questioned how they are defined. They are 
all in jail, most of them are. We had a talk about it. You 
remember that conversation several years ago? All right. Now, 
this is this program.
    You are releasing people that are in the serious criminal 
activity program but protecting--we are not going to do catch 
and release on the border where some guy comes across the 
border, they catch him and turn him back.
    Isn't what you are doing more serious than catch and 
release?
    Mr. Morton. No, sir. A couple of things that are going on. 
The cases along the border are expedited removal. They are not 
even going into formal immigration proceedings. You have to 
remember we are dealing with over 470----
    Mr. Carter. Okay. You say that it is okay. I just wanted 
you to say yes or no it is serious. I have got to get to Mr. 
Price, but I have two more questions.
    Mr. Morton. Yes, sir.

             RELEASED DETAINEES: ALTERNATIVES TO DETENTION

    Mr. Carter. Ms. Napolitano told me that these people were 
under alternative detention. How many?
    Mr. Morton. Some of them are under alternatives to 
detention. Some of them are on bond. Some of them are on orders 
of supervision. Some of them are on orders of recognizance.
    Mr. Carter. Can you get me the numbers on that?
    Mr. Morton. We can work with the committee to get 
breakdowns on it, but they will not all be on alternatives to 
detention.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Carter. Alternatives to detention, I did a whole lot of 
this in my lifetime. An alternative to detention is a program 
that is designed for you to be able, at the behest of any 
judge, to produce that person in court because you know where 
they are.
    Mr. Morton. It is an intensive form of supervision that 
either involves----
    Mr. Carter. They are calling in every day.
    Mr. Morton [continuing]. A brace or what they--we call 
them----
    Mr. Carter. They have an ankle bracelet on. You can track 
them and you can get them in here.
    Just out of curiosity, if I were to ask you to produce X 
number of people from this thing, could you produce them?
    Mr. Morton. We would have an awfully good chance, yes, sir.
    Mr. Carter. You feel confident that those that are on 
alternative detention, and you are saying it is multiple 
numbers, not just one or two----
    Mr. Morton. Yes, sir.
    Mr. Carter [continuing]. That you could produce them if we 
asked for them?
    Mr. Morton. Yes, sir, I think we could. Just to be clear, 
our alternatives to detention covers many different forms of 
supervision. It is a little bit different than the criminal 
justice system, but what you have said is essentially correct.
    Mr. Carter. Okay. But you are the second largest law 
enforcement agency in the country.
    Mr. Morton. Yes, sir.
    Mr. Carter. Okay. Mr. Price.
    Mr. Price. Thank you, Mr. Chairman.
    Mr. Morton, I want to just make sure I am understanding 
what you are saying about these detainees who were released 
solely for budget reasons.
    Mr. Morton. Yes, sir.
    Mr. Price. The total is 2,228?
    Mr. Morton. Yes, sir.
    Mr. Price. Of those, ten are level one offenders?
    Mr. Morton. That's right.
    Mr. Price. Four of those have been brought back into 
custody?
    Mr. Morton. That is correct.
    Mr. Price. And none of the remaining six are violent 
criminals?
    Mr. Morton. That is right.

                     CONTINUING RESOLUTION'S IMPACT

    Mr. Price. All right. All right. Let's look at the context 
a bit. I think it is important to do that. I want you to walk 
us through the impact of the CR, but especially of 
sequestration on ICE. I mean, that is the context here.
    And I want to know how you are going to allocate almost 
$310 million in reductions due to sequestration and user fee 
shortfalls and how you are going to do that while still 
maintaining 34,000 detention beds, which will cost your agency 
about $71 million more, as we calculate it, than you had 
planned for originally.
    And that is the point, of course, of the President's 
budget. It says what you are planning for originally. And 
whatever you are not able to do that you were planning for is 
going to have to come from somewhere.
    For instance, ICE apprehensions are currently at an all 
time high. By what percent might we expect apprehensions to 
drop as a result of sequestration? What might the reduction in 
deportations be? What will be the impact on investigative 
activities? For example, will ICE continue to prioritize 
investigations into human smuggling, child pornography, key 
investigative areas?
    In other words, what is the tradeoff here? It is not just 
sequestration. It is also sequestration with a rigid 34,000 bed 
requirement. That means everything else you are spending money 
on will have a more severe impact. I mean, that is just simple 
arithmetic.
    So to the extent you can tell us what the impact is going 
to be, we need to know.
    Now, unlike other law enforcement agencies within DHS, I 
understand you do not at this moment plan on furloughing any 
employees.
    Mr. Morton. That is correct.
    Mr. Price. All right. That is good news. We have been told 
if you did furloughs, it would come at the expense of 
apprehensions and removing detainees expeditiously because the 
personnel that you need to carry out these activities would not 
be available.
    I wonder if you could put a finer point on why ICE is not 
furloughing and whether you might have to reconsider that 
decision because of the bed mandate.
    So if you could just give us as much detail as you have 
available on this sequestration impact.
    Mr. Morton. So we are a law enforcement agency and the 
overwhelming number of our employees are law enforcement 
officers. And in order to carry out our enforcement mission, we 
need those officers in place. And my own view is, of course, as 
the leader of the agency, that my first duty is to those 
employees.
    And we cannot carry out our criminal investigative mission 
and we cannot carry out our immigration enforcement mission 
without those law enforcement officers. So I am going to do 
everything in my power not to furlough those individuals 
because what good is it to have detention beds if there are no 
immigration officers to apprehend individuals who go in them, 
to process those cases, to process them for removal.
    The challenge that we face is that, listen, I am 
approaching sequestration from the context of the agency and 
only the agency. It is a 5-percent reduction, which is roughly 
$300 million. And the truth of ICE's budget is that our single 
largest PPA [program, project, activity] is the custody 
operations at $2 billion. It is not as if we are talking about 
a $5 million cut. We are talking about a 5 percent cut to the 
largest appropriation Congress gives us.
    The second largest appropriation Congress gives us is to 
domestic investigations at $1.9 billion. And that is money we 
use to go after drug traffickers on the southwest border, alien 
smugglers on the southwest border, child pornographers, money 
launderers. In my view, it does not make any sense to rob Peter 
to pay Paul when those are the two accounts that you would do 
it from.
    So with regard to the CR and the 34,000 mandate, that is on 
the agency under normal circumstances to manage its budgets 
within what Congress has provided. And I completely accept 
that. And we did exactly that last year. We met the average 
mandate of 34,000.
    Sequestration if it is coupled with a direction to maintain 
34,000 beds at all cost simply requires us to make tradeoffs 
that there is not an easy answer to. The amounts of money are 
too great.
    And so we would be forced if Congress were to direct us to 
maintain 34,000 and to deal with the cuts from our largest PPA 
at the expense of all of the other PPAs. The only other way to 
get there, because the next biggest account and the only other 
big account is domestic operations, is to reduce the activities 
of our domestic investigations. And, again, that is about child 
pornographers, drug traffickers, alien smugglers.
    We are the second largest criminal investigative agency in 
the United States, second only to the FBI [Federal Bureau of 
Investigation]. That is serious work. I take that work very 
seriously. I am a former federal prosecutor. And we need to 
maintain it and I do not think it would be good policy to ask 
us to maintain 34,000 at the expense of those kinds of 
investigations.
    Mr. Price. Particularly when there is a good alternative to 
the most expensive form of detention in the form of the 
Alternatives to Detention program, which has a remarkably low 
absconding rate as I understand and which you had planned 
sequestration or no, in the current fiscal year to rely more 
heavily on and to have the kind of flexibility one would think 
an agency of your sort should have to determine what level of 
bed occupancy is required and to be able to deal with that even 
in good budget times in a flexible way.
    Now, to impose this on you ironically in a bill designed to 
create flexibility to mitigate the impacts of sequestration, to 
impose this requirement on you in tough budget times, the 
impact it seems almost inevitably will fall on these activities 
that you have described.
    Do you say anything about the Continuing Resolution you 
have been operating on up to this point? We hope it is going to 
change shortly, of course. The Senate has written the Homeland 
Security bill into their Continuing Resolution.
    But how has the lack of a final year appropriations bill 
affected your carrying out of your mission thus far on both 
sides of your house, immigration and customs, and does the 
sequester then compound some of those effects?
    Mr. Morton. Yeah. Obviously, Mr. Price, having budgets come 
to you in 6-month increments and without a clear sense of what 
the remaining year will hold from a budget perspective is less 
than ideal.
    We are a large operation. Much of what we are doing is 
about trying to move the ship in a few degrees at a time. Just 
to give you some perspective of it, there are 350,000 people in 
immigration proceedings at any given time, and only about 
34,000 of whom, actually fewer because some of the border 
patrol cases are not even in formal proceedings, are in 
detention. The vast majority of people are not detained and by 
design, Congress has provided for their release on bond or 
supervision. Immigration judges make those calls.
    When you are planning your activities over the course of a 
year, obviously if you have a full 12-month formal budget with 
advanced notice, it is a lot easier to do than to deal with 
temporary funding measures.
    And I take full responsibility for the agency for the 
management of our beds. You know, and as I have said and the 
secretary has said, you know, I regret that there is a level of 
surprise and questions about what we did.
    All I will say is we have got a lot of hard working career 
folks doing the best they can under a challenging budget 
environment to do the right thing. And at the end of the day, I 
think the results that the agency has achieved speak for 
themselves.
    We had the highest level of detention we have ever 
maintained and we have removed the most people we have ever 
removed. And we have tried to focus them in the right 
priorities. Criminal offenders and border cases, that is our 
focus.
    Mr. Price. Thank you, Mr. Chairman.
    I would just assume that under these conditions, it would 
take some very adroit management indeed to avoid furloughing 
given this requirement sitting there in the bill.
    We will return to this. Thank you.
    Mr. Carter. Mr. Fleischmann.
    Mr. Fleischmann. Mr. Chairman, I would be glad to yield 
some time to the chair.
    Mr. Carter. Just very briefly. The releases started on 
February 9th?
    Mr. Morton. Yes, sir.
    Mr. Carter. The sequester came in after the 9th?
    Mr. Morton. Yes, sir.
    Mr. Carter. How were you able to conjure up the ability to 
know what the Congress was going to do? The President did not 
seem to know. He was asking us to fix it 24 hours before it 
became law. The Congress was debating it and discussing it and 
there is debate on the floor. How did you know what we were 
going to do when you made these decisions based on the 
sequester?
    Mr. Morton. I did not, Mr. Chairman. Just to be clear----
    Mr. Carter. So the sequester was not why you started 
releasing? It was other particular matters?
    Mr. Morton. As my statement laid out and as I just said, a 
big part of what we were doing in February was trying to live 
within the budget that Congress provided us.

                        REPROGRAMMING AUTHORITY

    Mr. Carter. You know, you have reprogramming authority 
because you may make a request for reprogram authority. Did you 
make any request for that?
    Mr. Ragsdale. We did not. Let me say this. What we have 
tried to do is be conservative in our approach because the 
degree of uncertainty we face in this year is novel.
    Mr. Carter. Well, I made a statement about filibusters and 
I am not a filibuster--I asked you a question. You gave me an 
answer we have not.
    Mr. Morton. We have not.
    Mr. Carter. Okay. But you do have that authority?
    Mr. Morton. We have that authority to seek reprogramming. 
We do.

                 RELEASED DETAINEES: WHO MADE DECISION?

    Mr. Carter. Okay. So there were other funds available. You 
would not have had to lay anybody off and would not have to 
release anybody from detention if you just asked.
    I have a question of Mr. Mead. You are the guy that 
everybody threw under the bus. Okay. You are the guy that 
turned them loose. Okay.
    Did you have any directives from anybody on what procedures 
you should go through?
    Mr. Morton, when I met with him a couple weeks ago, he told 
me he did not know anything. He knew absolutely nothing about 
it. And that seemed to be Ms. Napolitano's position when I 
talked to her the same day. I do not know anything about it. We 
will get to the bottom of this.
    And all of a sudden, the buck has trickled down to you. You 
are the guy. It seems to me the only guy that made any 
decisions about releasing them.
    Did you set up any priorities you sent out to your field 
directors telling them what is the basis that you will release 
these people?
    Mr. Mead. We did. We actually were very thoughtful about it 
and came up with some strategies that we felt were not only 
consistent with our priorities but consistent with just 
operational realities.
    Mr. Carter. I am going back to Mr. Fleischmann in just a 
minute. Let me ask you. You want to answer my question? I do 
not want the detail. I just want to know whether you did. No 
one communicated with you to do this? You did this on your own?
    Mr. Mead. Well, I mean----
    Mr. Carter. Mr. Ragsdale did not say, hey, Gary, we have 
got shortfalls in our budget? Mr. Morton did not contact you 
and say we need to do this? You just made this decision on your 
own?
    Mr. Mead. Well, I made the ultimate decision about who to 
release and how to release them, but it was following a 
conversation with Mr. Ragsdale and our chief financial officer 
that I did that, learning that if we did not reduce our 
detained population, we ran a very likely risk of running out 
of funds before the end of the CR.
    So, yes, it was me that made the decision to release people 
and who to release. It was based on information I received from 
our CFO.
    Mr. Carter. Okay. Question to everybody. Did anybody have 
any direction from any political appointee, the secretary, her 
office, or anything else to start this proceeding? This is 
totally an ICE-based procedure and no one above on the 
political spectrum had anything to do with it? Anybody want to 
tell me? Is that your statement?
    Mr. Mead. My only conversations about this entire matter 
were with Mr. Ragsdale and the CFO.
    Mr. Carter. And, Mr. Ragsdale, did you have any direction 
from anybody?
    Mr. Ragsdale. Absolutely none.
    Mr. Carter. So really this is your decision as much as----
    Mr. Ragsdale. Correct.
    Mr. Carter. And, Mr. Morton, you are still in the I do not 
know, I was not there?
    Mr. Morton. No. No. The Secretary had no part to this. I 
never had any conversations with people above.
    Mr. Carter. How about the White House?
    Mr. Morton. Not the White House. This is an ICE call. I 
take full responsibility for it. I am the agency head.
    Mr. Carter. And you called up before sequestration?
    Mr. Morton. And we called the need to get to 34 before 
sequestration. That is the truth.
    Mr. Carter. Thank you.
    I yield back to Mr. Fleischmann.
    Mr. Fleischmann. Thank you, Mr. Chairman.
    So just to confirm, Mr. Mead in consultation with Mr. 
Ragsdale and your CFO, that was unilaterally your decision to 
make the release prior to the sequester, plain and simple?
    Mr. Morton. That is correct.
    Mr. Fleischmann. So the sequestration really had nothing to 
do with your decision, is that correct, because it was done 
prior to March 1st?
    Mr. Morton. The sequestration was always looming in the 
background. The principal driving forces were that we were 
running hot. In other words, we were maintaining over 34,000 
beds. We had a shortfall in the breach bond fund and we needed 
to make sure that we ended the CR because, remember, our 
funding literally ended at the end of the CR. We did not have 
another 6 months of funding. We had to get that right.
    Were we cognizant of the fact that the sequester was 
looming, of course we were and we contemplated that. But the 
principal reason was to get right within the budget by the end 
of the CR.

                    RELEASED DETAINEES: SUPERVISION

    Mr. Fleischmann. Okay. I have a three-part question. It has 
been reported that the detainees released by ICE are under 
supervised release. In the past, detainees have also been 
placed on the non-detained docket which averages something like 
6 years in the system before processing, compared to roughly 40 
days or a 40-day average for those in detention.
    First question is, how is ICE treating the detainees 
currently being released? Second question, are all released 
detainees being placed on supervised release or another form of 
supervision? And the third question is, what exactly does 
supervised release entail?
    Mr. Morton. So let me take those in turn. So, yes, 
everybody is under some form of supervision. Now, the law 
provides for different kinds of supervision all the way from 
alternatives to detention [ATDs], which is a formal program 
appropriated by the Congress to orders of supervision, orders 
of recognizance, and a bond.
    The largest number of people on the non-detained docket, 
over 150,000, are on some form of a bond. There are about 
20,000 people that are on ATD and the rest are on supervision, 
recognizance, or some combination. These are not exclusive to 
each other.
    And I am happy to work with the committee to get the 
breakdowns. My sense of it is the largest number of people will 
be on some order of recognizance or supervision, which means 
you have to report in, you have got to give us a call sometime. 
Some people will be on ATD. Some people will be on bond.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    And you are right that the non-detained docket takes much 
longer than the detained docket. The detained docket moves with 
some speed. Depending on where you are in the country, the non-
detained docket can take many years.
    Mr. Fleischmann. If you will kindly provide that 
information to the Committee. Thank you.
    Mr. Chairman, I yield back.
    Mr. Carter. Mr. Cuellar.

                  1952 IMMIGRATION NATURALIZATION ACT

    Mr. Cuellar. Mr. Morton, I appreciate the work that you and 
ICE do. I salute the work that all of you all do and I am a big 
supporter of what you all do. Very difficult times because when 
you try to do the right thing, you get criticized by both 
liberals and democrats.
    For example, you all have deported more criminals than the 
prior Administration; is that correct?
    Mr. Morton. That is correct.
    Mr. Cuellar. And you got attacked by both the conservatives 
and the liberals for doing your job; is that correct?
    Mr. Morton. As I said, we get our fair share of artillery 
fire.
    Mr. Cuellar. All right. Let me get this straight. This is 
the crux. You know, regardless of the reason, and it is a 
budgetary issue, but the authority, and this is the underlying 
factor we have, the authority for you to release aliens from 
immigration detention is nothing new and has existed under our 
laws for decades.
    Mr. Morton. And you are right that the non-detained docket 
takes much longer than the detained docket. The detained docket 
moves with some speed. Depending on where you are in the 
country, the non-detained docket can take many years.
    Mr. Fleischmann. If you will kindly provide that 
information to the committee. Thank you.

    Response: Nationally, the average number of days spent on 
the detained docket is 62 days. Nationally, the average number 
of months spent on the non-detained docket is 92 months or 7.6 
years.

    In fact, the 1952 Immigration Naturalization Act that 
Congress passed provided a number of ways that aliens subject 
to immigration enforcement could be released including parole 
authority, released on bond, released on recognizance, released 
on an order of supervision.
    So anything you did was under the supervision or the 
authority of the 1952 law; is that correct?
    Mr. Morton. That is right. And, Mr. Cuellar, I think there 
is a misperception out there that detention is the norm for 
immigration proceedings. It is the reverse. It is the exception 
to the rule.
    We have limited resources. Congress has directed a level of 
mandatory detention that focuses around mainly violent 
offenders and certain arriving aliens. The vast majority of the 
people in the system, Congress provides for consideration for 
release and it is not solely within ICE's authority.
    Congress has provided that the Department of Justice in 
most instances gets to review and reconsider ICE's decisions. 
So in many instances, we will opt for detention and an 
immigration judge will opt for release.
    Two of the individuals that we released in the 10 were 
exactly that case. Our initial decision was to detain them. An 
immigration judge disagreed with us and felt that those people 
were eligible for release. That is the system. That is the way 
it works.
    Mr. Cuellar. So if we have a problem with the release, 
shouldn't Congress change the 1952 law?
    Mr. Morton. Well----
    Mr. Cuellar. It is not, but that is my----
    Mr. Morton. I do think----

                            DETENTION COSTS

    Mr. Cuellar. That is what we need to do. Now, let me just 
put this. You got 250 detention centers across the Nation; is 
that correct?
    Mr. Morton. That is correct. It fluctuates a little bit, 
but, yes, sir.
    Mr. Cuellar. Right. And in there, besides the ones that 
were mentioned a few minutes ago, you also have men, women, 
children that ICE has put there that are survivors of torture, 
asylum seekers, victims of trafficking, families with small 
children, the elderly, individuals with serious medical and 
mental health conditions, and other folks like that.
    So you got different type of folks who are there; is that 
correct?
    Mr. Morton. We are different than the criminal justice 
system in that we have to detain a wide variety of people all 
the way from, in very limited circumstances, family members who 
are coming in at the airport and they do not have Visas and 
they are a serious risk of flight to criminal offenders whom we 
get from the BOP [Bureau of Prisons] and state facilities after 
they have committed their crimes.
    Mr. Cuellar. And to constantly keep somebody in the 
detention is roughly from $122 to $166 per person per day which 
works out to about up to $59,000 a year to keep somebody 
detained; is that correct?
    Mr. Morton. That is correct. Our average estimate is around 
$122. That is what we work off with the committee. And, you 
know, obviously detention is much more expensive than 
alternatives to detention, which are about $7 per day.
    Mr. Cuellar. Right. And my understanding that if you use 
the alternative to detention, that would be a tremendous 
savings of taxpayers' dollars which could be less than $15.00 a 
day?
    Mr. Morton. That is correct. As long as the alternative to 
detention docket moves quickly, ATD can be very, very cost 
effective. The trick and what we have been working with ERO is 
to get those cases heard because as Mr. Fleischmann noted, 
sometimes it can take quite a long time. And if it stretches 
out too long, then alternatives to detention can cost more. So 
it depends on the speediness, but, yes, you are right.
    Mr. Cuellar. And you are losing about $294,000 if 
sequestration continues, $294 million?
    Mr. Morton. Yes. I wish it were thousands, Mr. Cuellar, 
yes. It is----
    Mr. Cuellar. It is $294 million?
    Mr. Morton [continuing]. Million of dollars plus there is, 
I believe, a $5 million security team, but it all comes out to 
about $300 million.
    Mr. Cuellar. How much time do I have, Mr. Chairman?
    Mr. Carter. Another minute.

                        BUDGET CUTS: SPECULATION

    Mr. Cuellar. Another minute. Okay.
    I guess my question is, what are you supposed to do if your 
budget is cut by $300 million? I mean, and keep in mind that 
there is a law in place that got passed back in 1952 that 
allows you to do certain things. I mean, those are hard 
decisions that your men and women, which I support and I 
respect, have to make that judgment call. It is a hard one. It 
is a hard one.
    Mr. Morton. Yes, sir. I mean, the big issue for us is what 
will Congress decide in 2 weeks when it passes the Continuing 
Resolution or budget for the year and will Congress decide that 
we must maintain a level of 34,000 and deal with the sequester 
at the 5-percent rate. If that is true, it is going to be an 
enormous challenge for the agency to reconcile those two things 
without affecting domestic investigations.
    And as you know coming from Laredo, we are a major force 
along the southwest border. In fact, in most of those southwest 
border communities, we are the largest federal law enforcement 
agency in town by a long shot and that is because our business 
is drug trafficking, alien smuggling, money laundering, border 
crimes.
    And, you know, my view is I am all for efficiencies. I am 
all for trying to do what Congress asks me. I do not support 
the idea of robbing Peter to pay Paul when, you know, Peter is, 
you know, a criminal investigator, a special agent.
    Mr. Cuellar. Thank you so much.
    Thank you, Mr. Chairman.
    Mr. Carter. Mr. Dent.

                           IMMIGRATION REFORM

    Mr. Dent. Thank you, Mr. Chairman.
    And I want to follow-up a little bit on Judge Carter's 
questions and Mr. Fleischmann's. You know, they have kind of 
beaten this issue pretty well.
    But I am just deeply concerned that at the time of 
comprehensive immigration, the optics of this are just 
terrible. It just looks like this might have been an attempt to 
undermine comprehensive immigration reform. It looks like, and 
it may not be the case, but it looks like retreating back into 
the old policy of catch and release. And you are telling me 
that is not the case.
    But, I mean, this should have been handled in a much better 
way than was the case. I am just enormously disappointed that 
we are having this discussion because you are telling me for 
the record that this was not designed in any way to undermine 
the good faith bipartisan negotiations on the immigration 
reform.
    Mr. Morton. I am telling you that 100 percent and to the 
extent that you have those concerns, they should, and criticism 
of it, it should be directed at me and no one else.

                        REPATRIATION CHALLENGES

    Mr. Dent. Well, I just think it is incredible, the 
sensitivity of this immigration reform debate, that this would 
have been done the way it was. And I am just enormously 
disappointed.
    I am also very concerned about the large number of criminal 
and noncriminal aliens both detained and non-detained whose 
countries refuse to take them back and repatriate them.
    In the last Congress, I introduced a bill, the 
Accountability Immigration Repatriation Act, which would give 
leverage to the secretary of the DHS against countries 
unreasonably refusing repatriation.
    As we engage in this immigration reform, it will be key 
that we address this issue and have a clear sense of the 
breadth and scope of these challengers.
    And I think Chairman Carter may have asked you about the 
number of aliens released including routine releases. How many 
of those releases were due to Zadvydas and being classified as 
nonremovable?
    Mr. Morton. Well, can I just start by, Mr. Dent, and I--
that issue is a really serious one. I would be more than happy 
to work with you on it. It is, as I told the chairman when I 
met him, it is one of the biggest challenges we face, that we 
have a large number of people for whom we get a removal order 
and the country in question will not accept them back or will 
not give us a travel document.
    In specific answer to your question, there were about 150 
individuals re-released for special issues. The largest group, 
about two-thirds, were because we could not get a travel 
document or they were from an unremovable country, Cuba, 
Vietnam, and then the remainder were, you know, special medical 
cases, special court decisions, and the like.
    Mr. Dent. We have what, over 100,000 people, I take it, 
well, over 100,000 people who are here from countries where 
they have valid removal orders against them, but their home 
countries will not repatriate them?
    Mr. Morton. I do not know the exact number, but I do not 
think it is going to be far off that because, you know, China 
and India alone have large numbers of people that are hard for 
us to remove.
    Mr. Dent. And specific to the releases ICE made for these 
budgetary reasons over the past few weeks, were any of these 
detainees released because ICE expected them to be 
nonremovable?
    Mr. Morton. Not for purely budgetary reasons, but, as I 
said, there were 150 that we released who are unremovable and 
those were certainly people whom we looked at and said, you 
know what, we are going to look at these people anyway, let's 
release them. Under the law, we have got to release them 
anyway.
    And we can get you a breakdown of that. There are 150. I 
think 100 were because they were unremovable and about 50 were 
for, you know, the 9th Circuit was doing this. They were 
applying for asylum. We thought they were going to get a grant, 
you know, the child has cancer, that kind of thing.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Dent. In 2012, fiscal year 2012, how many Zadvydas 
releases did ICE perform and how many of these releases were 
criminal aliens, do you know?
    Mr. Morton. I do not know, but I would say the vast 
majority were criminal aliens and many of them very serious 
offenders.
    Mr. Dent. So many of the people released were criminal 
aliens?
    Mr. Morton. Under Zadvydas, that is the direction from the 
Supreme Court.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                      MEMORANDUM OF UNDERSTANDING

    Mr. Cuellar. In 2011, ICE signed an MOU [memorandum of 
understanding] with the Department of State. Have there been 
any improvements to ICE's ability to remove these aliens as a 
result of the MOU?
    Mr. Morton. There have been some small steps forward. I 
have met with just about every single one of the ambassadors 
from the countries in question. I would like to say that I have 
had some enormous breakthroughs, Mr. Dent. I cannot say that I 
have. I have tried very hard.
    We did negotiate the MOU. We have had nominal improvements. 
And there were three countries actually, I think, that we took 
off the list, smaller countries. The big countries, the 
difficult ones, Cuba, Vietnam, you know, China, India, I cannot 
say that I have had any breakthroughs.
    Mr. Dent. Well, it seems the easy fix is to withhold Visas 
from people coming from those countries until they repatriate 
their own citizens.
    In 2011, you testified before Judiciary, House Judiciary 
and cited ongoing conversations with China on the repatriation 
of their citizens.
    Have matters improved with China? Is ICE still experiencing 
significant delays with China issuing travel documents for 
aliens in ICE custody?
    Mr. Morton. Yes. We continue to experience very serious 
delays. We are in negotiations with the police authorities and 
the foreign affairs authorities in China. We are trying to see 
if we can't work with them to improve processing of certain 
Visas that they care about and return for a little more 
attention and speed for our documents. But, again, I cannot 
tell you that we have achieved a breakthrough.
    Mr. Dent. And which countries pose the biggest challenge to 
repatriation either through refusal or the delay in issuing 
travel documents?
    Mr. Morton. Well, Cuba is obviously a huge problem for us 
and that is a longstanding problem. Vietnam is a problem for 
individuals who came to the country before a certain date. They 
would only recognize people who came into the United States 
illegally after a certain date for repatriation. And then the 
big numbers for countries where we can occasionally get a 
travel document, but it is hard to get them regularly and 
routinely, are China and India.
    Mr. Dent. And can you give some examples of how long some 
of these countries are taking to issue travel documents, 
understanding your MOU states a benchmark of thirty days?
    Mr. Morton. Yeah, with many instances it can be up to a 
year and/or if we get the document at all.
    Mr. Dent. What is DHS doing to deal with these countries?
    Mr. Morton. They try to support us as much as they can. It 
is a difficult issue. We have to work through the State 
Department and we are talking about some very important 
relationships with foreign countries in which the immigration 
exchange is one part of a much broader relationship.
    Mr. Dent. And I know in 2011 Mr. Mead testified before 
House Judiciary, said ICE complete draft demarches to nine 
countries requesting expeditious issuance of travel documents 
for aliens. Were those demarches ever issued by the Department 
of State?
    Mr. Mead. I would have to go back and check. I believe that 
at least in a couple of the cases they were. In other cases we 
had some progress, as Director Morton said, with some of the 
smaller countries and they may not have been issued. I can get 
you a list of which ones were and were not.
    Mr. Dent. And has ICE prepared additional demarches for 
countries since 2011? Have those been issued?
    Mr. Mead. We have some under consideration right now.
    Mr. Dent. Which countries?
    Mr. Mead. I would have to get back to you on that.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Dent. What legislative changes would be most helpful to 
you in combating this issue?
    Mr. Mead. Well, as the Director said, clearly something 
that addresses in a very affirmative way those countries that 
are uncooperative because it is a problem particularly in light 
of Zadvydas, as you mentioned, that eventually these people are 
going to be released.
    Mr. Dent. Well, it is just, you know, all these people 
being released and we have well over 100,000 from about eight 
or so countries. I mean, we need to get those folks out this 
country and I understand the constraints of the court decision 
but the--I will yield back at this time. Thank you, Mr. 
Chairman.
    Mr. Carter. Ms. Roybal-Allard.

            DETENTION DECISION: MANDATORY VS. DISCRETIONARY

    Ms. Roybal-Allard. Thank you, Mr. Chairman.
    Mr. Morton, I would just like some clarification in terms 
of the discussion that we have had here today. First of all, 
your decision to put these non-violent undocumented persons 
into alternatives for detention did not just come out of the 
blue. This is something that you have been doing for years. It 
has been part of the program to make a determination of who 
should be put into alternative detentions or who should be kept 
in detention.
    Mr. Morton. We make these sorts of decisions every single 
day, as I said.
    Ms. Roybal-Allard. But my point is these decisions have 
been made for years. This isn't just out of the blue that you 
came up with this plan.
    Mr. Morton. It has been going on for years that we have to 
make decisions whether or not to detain somebody or to put them 
on alternates to release. The challenge of the particular 
budget and the releases that we are talking about today was a 
unique situation.
    Ms. Roybal-Allard. Okay. So it was based on the fact that, 
as you mentioned earlier, that the cost is somewhere in the 
neighborhood of, what, $120 for detention versus $7 for the 
alternatives to detention?
    Mr. Morton. Per day, that is correct.
    Ms. Roybal-Allard. Per day, yes.
    Okay, also, in terms of the issue that was raised earlier 
where the secretary said that you probably didn't need more 
than 28,000 beds, and the fact that you have been filling, as 
you stated, 34,000 or close to 34,000 beds, my reading of this 
is that you are actually filling those beds because of the 
mandate and that because you don't have the discretion. Many of 
those who are put into that kind of detention, if you had the 
flexibility, you may decide at some point to put into 
alternatives of detention or is every single bed that you 
filled actually filled with people that you believe needed to 
be detained?
    Mr. Morton. So we maintain and try to maintain an average 
of 34,000 beds at the direction of the committee. And for a 
large portion of those people, there is no discretion for the 
agency. There is mandatory detention where the law directs us 
to detain those people.
    The rest are discretionary decisions where we could detain, 
we could release, or an immigration judge could order release. 
In every single instance, obviously, when we detain somebody, 
we believe that the law allows for that detention. Our 
decisions are constantly being redetermined every day by 
immigration judges.
    We learn things as we go through the process. When we 
picked up a person, for example, we may have not known right 
away that there were extenuating circumstances and then we 
learn that they are a single parent or their child has a very 
serious illness.
    And in the real world of having to balance how do you deal 
with individuals, sometimes we make a decision that although 
detention may have been initially appropriate, under the 
circumstances we can live with a different form of supervision.
    And that is why this very--it is very hard to make easy 
generalizations in this business. We are dealing with well over 
400,000 people we detain per year and we have to make an 
individualized determination by officers in the field. The 
three of us don't make any of these decisions.
    Ms. Roybal-Allard. I understand that, but given that you 
have this mandate, you don't always have that flexibility to 
make those kinds of determinations. Your first goal has to be 
to meet that mandate, even though there may be a different 
thinking in terms of, need to fill all 34,000 because of the 
population, but because of the mandate, we have to put people 
into the detention beds at the costs of $122 a day to 
taxpayers, rather than putting them into the alternative to 
detention at $7.
    So if that mandate were lifted, given sequestration which 
is going to make things even more difficult for you, if you had 
that flexibility to make those determinations based on whether 
or not a person poses a threat. That has to be, of course, the 
primary focus. But in the event that someone does not pose a 
threat and would be a candidate for alternatives to detention, 
would that be a way of you being able to meet your budgetary 
goals by having that flexibility and not having Congress 
mandate that you have to fill beds at the highest cost, 
regardless of whether or not you determined it is necessary?
    Mr. Morton. For everyone who is not a mandatory detention, 
obviously yes. The possibility of an alternative detention 
would give us that discretion where it was appropriate.

                         DETAINED U.S. CITIZENS

    Ms. Roybal-Allard. And now I want to go on to another 
issue.
    When immigrant or minority communities fear police officers 
who patrol their streets, there are fewer witnesses that come 
forward and more victims will choose to suffer in silence. That 
is why the congressional Hispanic caucus and law enforcement 
leaders from across the country, including the Los Angeles 
police chief, Charlie Beck, continue to call for an end to the 
involvement of local police and enforcement of our immigration 
laws.
    Over the past four years, ICE has issued nearly one million 
detainers which ask local police to hold suspected undocumented 
immigrants on behalf of the Federal Government.
    It shocked me that, according to information that was 
obtained by Syracuse University, over 800 of these detainers 
were placed on U.S. citizens, which violates their 
constitutional rights.
    Why is this happening and what is ICE doing to ensure that 
someone who is a U.S. citizen is not put into this detainer 
situation?
    Mr. Morton. First, let me say I don't think that the agency 
agrees with the figures that have been offered, but I will say 
it is clear we do not have the authority to detain and remove 
citizens. That is not what we are about and that is not what we 
want to do, and so we take great lengths not to do that. It is 
more complicated than people would have you believe. It is not 
as if we are making some very simple mistakes and somehow 
putting Mr. Price into removal proceedings. It just doesn't 
work that way.
    What we are talking about is typically individuals who have 
derived citizenship from someone else. They don't even know 
they are a citizen, but the law makes them a citizen. We deal 
with a lot of very complicated situations there. It is our--
don't get me wrong. It is absolutely our responsibility to be 
the leading advocate for not putting citizens into detention. I 
have issued several policies on that. We have a tiger team in 
the Office of the Principal Legal Advisor and in enforcement 
and removal operations to make sure that the second there is 
any issue on a question as to citizenship, we make an immediate 
determination and the presumption is going to be to lift the 
detainer, to not put the person into detention, and to remove 
the NTA [notice to appear].
    We cannot be in the business of even messing around with 
short-term detention or enforcement against a citizen just 
recognized. There are some times when you got to look into 
things and people will lie, for example, that they are a 
citizen. That is a common thing that we deal with, and we just, 
we have to get into it.
    And occasionally, literally we are the person telling 
somebody you think you are a lawful permanent resident or you 
think you are this; in fact, you are citizen by operation of 
law.
    Ms. Roybal-Allard. And Mr. Chairman, if I just may ask for 
the accurate numbers. You said you disagree with the numbers 
from Syracuse University, and if you could provide us with----
    Mr. Morton. Why don't we do this. I would be more than 
happy just to give you the numbers that we deal with every year 
on here is what we look at, here is how many we find are in 
fact citizens, and here are how many that we don't.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


           RESOURCE DISTRIBUTION: NORTHERN, SOUTHERN BORDERS

    Mr. Owens. Thank you, Mr. Chairman and thank you, 
gentlemen, for coming in to testify.
    I noticed that much of the focus has been along the 
southern border and when I went through the detention sheets 
that you gave, it looks like the northern border cities 
represent about 3 percent of those released.
    In terms of how you allocate resources relative to the 
northern border, and as you may know I live along the northen 
border, is there a--I am going to call it disproportionate, you 
may disagree with that terminology, emphasis on the southern 
border or is it based upon the statistical data that you get 
that tells you that that is where the greater number of issues 
arise?
    Mr. Morton. So I will say that there is in just straight 
mathematical terms an uneven distribution of resources. I won't 
say that it is disproportionate. And one of the main reasons 
is, the state with the largest number of detention beds and 
activities in the country happens to be the home state of the 
chairman and Mr. Cuellar, Texas. We run about 6,000 beds per 
day in the Rio Grande Valley in the San Antonio area alone. We 
have about 10,000 beds devoted in any given moment to border 
operations.
    And the hard reality is, that is where the work is and that 
is why we are there. And you know, do we have anywhere near 
those kinds of resources along the northern border? We don't.

                  DETENTION BEDS: KINDS OF FACILITIES

    Mr. Owens. Talking about the beds, we have had a lot of 
discussion about this 34,000 number. Do you own these beds in 
the sense that these are facilities that are owned by DHS or 
are these leased facilities?
    Mr. Morton. So we have three kinds of facilities. We have 
those that are owned by ICE, by the federal government, and 
those are increasingly rare and they are the most expensive of 
our systems. Then there are contract detention facilities that 
are essentially our facilities but they are run by contractors 
only for us. And then there are a large number of 
intergovernmental service agreements that are excess capacity 
at the state and local level and so we have all three.
    We have moved from a government wholly owned and run 
operation to one that is very dependent either on state and 
local governments or contractors. The basic reason being it is 
just a little more efficient and less expensive.

              DETENTION BEDS: NUMBER NEEDED, LOWERING THE

    Mr. Owens. Absent the mandate, how many beds if it were 
within your control, would you choose to operate?
    Mr. Morton. That is a very difficult question to answer and 
I am not trying to avoid your question. I will tell you why it 
is difficult.
    I am a proponent of comprehensive immigration reform for a 
lot of reasons, but one of them is that our present system 
doesn't work particularly well when it comes to removing 
people, making decisions about removal in a short period of 
time. And as Mr. Fleischmann noted earlier, it can take 6 or 7 
years to decide a case.
    So my view is that detention is a very, very important 
power for immediate border cases for criminals who are a 
serious risk of flight or pose a danger to the community. You 
can't take a chance.
    The answer to what is the ideal number depends a lot on 
whether or not there are alternatives to detention that work 
when it comes to the point of the removal order. Alternative 
detention worked quite well at making sure people show up for 
their initial hearings. It is a separate question and the jury 
is still out on whether we can come up with a well-timed 
efficient system that gets people to show up for their removal 
order without detention.
    If we could get there, if a bond or an ankle bracelet got 
us to a quick, efficient, and non-detained resolution to their 
case--and if they win, they win, and if they are removed, they 
are removed--we would need fewer beds.
    Or if we could have a more efficient system. A lot of 
people think that the number of beds is the controlling factor. 
What is really controlling is how often a person has to spend, 
how much time a person has to spend in that bed.
    We have 34,000 beds and it takes a year for each case to be 
heard, detained. Well, that is 34,000 people. If it takes a 
month, well you times it by 12, and so a lot depends on can we 
make the system more efficient and make it such that 
alternatives have real integrity and real credibility.
    If that is the case, we can make a faster system, or other 
alternatives, we could lower the number of beds. If it takes 
longer, perversely, we would actually need more beds.
    Mr. Owens. So if you had immigration reform, it is possible 
at least that that would lead to a need for less beds?
    Mr. Morton. Possible. If it brought a serious reform to the 
way immigration cases were heard or for some reason, as the 
chairman mentioned, other than Mexican nationals, Mexican 
nationals were to--that our border security efforts reduced the 
number of illegal crossers that we were dealing with every day. 
But there is a great deal of speculation there.

                    BUDGET CUTS: FURLOUGH AVOIDANCE

    Mr. Owens. I understand. My final question goes to the 
initiation of your testimony.
    You indicated that you had the ability to essentially 
eliminate the need for furloughs. That is somewhat inconsistent 
with what we have been hearing in other committee proceedings 
from other agencies where there is a belief that there is a 
mandated across-the-board cut so that the line item that goes 
to personnel must be cut 5 percent in the same way that 
operations and maintenance is cut.
    So I am curious as to how you reach that conclusion because 
it is, as I said, inconsistent with what I am hearing in other 
contexts.
    Mr. Morton. I don't profess to be a budget expert. I will 
tell you here is how we got there. First and foremost, we are a 
law enforcement agency and the vast majority of our employees 
are law enforcement agents. If we are going to carry out our 
mission, no sense in having beds if there is nobody arresting 
anybody or maintaining them or processing those cases.
    But more importantly, our two largest PPAs are domestic 
investigations and custody operations from which the salaries 
and expenses for most of those people are coming from. We have 
a little more flexibility, I think, than most agencies that are 
just salaries.
    But we are taking a straight 5 percent cut to all of our 
PPAs. That is our direction. That is what we have been told we 
must do. That, you know, not picking and choosing, our Congress 
could decide differently and Congress in 2 weeks may tell us to 
do things differently. But up until that point, our 
instructions have been to take a 5-percent reduction from each 
PPA that we are given. Our two biggest are custody operations 
at 2 billion, and domestic investigations, the biggest piece of 
which is----
    Mr. Owens. So are you reducing overtime for instance as a 
vehicle to implement that cut?
    Mr. Morton. We are indeed. Yes, sir.
    Mr. Owens. Would it be fair to say that is where you are 
deriving most of the cut from?
    Mr. Morton. Yes, and then the realities of the bed level 
that we would maintain with custody operations and we would 
have to--the custody operations account would take a $110 
million cut alone that we would have to, in effect, satisfy.
    Remember, the cut that is under sequestration is done on a 
yearly basis and we have 6 months left to actually carry it 
out, so we would have to execute a $110 million savings over 
the remaining 6 months. That is just going to affect our 
detention level.
    We will do our level-headed best to maintain the highest 
level of detention those resources allow, and I have always 
understood the direction from the committee on 34,000 to be 
just that. It is a direction and we met it last year. We will 
just do it, we will do the best we can with appropriations we 
are given.
    Mr. Owens. Thank you. And I am quite satisfied with 3 
percent on the northern border.

                 RELEASED DETAINEES: CRIMINAL OFFENDERS

    Mr. Carter. Clarify a few things.
    Mr. Morton. Yes, sir.
    Mr. Carter. All the releases we are talking to you about 
today took place prior to sequester? March 1st was sequester? 
It started on the 3rd? The release were three weeks in a row.
    Mr. Morton. You are right. The only reason I hesitated, Mr. 
Chairman, was we had some releases on March 1st, and so----
    Mr. Carter. Sequester is the limiting factor on being able 
to move things around in your budget. You have got to go 
straight to that cut in each department.
    Mr. Morton. That is correct. That is correct.
    Mr. Carter. However, at the time you released these people, 
you did have the ability to ask for a shift of funds to cover 
shortfalls?
    Mr. Morton. We did.
    Mr. Carter. Under the CR.
    Mr. Morton. Yes, the answer is yes.
    Mr. Carter. Clarify for my friend at the end of the aisle.
    Mr. Morton. Just to be clear, I know we have some 
disagreement between the committee and the agency on whether we 
must maintain 34,000 beds each and every day. From our 
perspective, we were maintaining an average of 34,000 beds.
    Mr. Carter. My friend down here talked about immigration 
authority and I think it is important and I talked to Ms. 
Napolitano about this and perception becomes reality. At the 
time that this news story broke about this release--of course, 
I got the prefaces--it is not your testimony that this is a 
standard release every week and you are just, you are releasing 
around 800 to 1,000 every week.
    Mr. Morton. For budgetary reasons, no, it is not.
    Mr. Carter. I just want to make sure that wasn't your 
testimony.
    Mr. Morton. No. We are releasing people all the time but 
not purely for budget.
    Mr. Carter. At the time this release story broke, the 
President of the United States was going around the country 
telling people what the pain was going to be with sequester. 
Now, that is a fact. I mean, even he admits that, and he backed 
off of it at the very end, but that was the atmosphere. It was 
the chicken-little, the-sky-is-falling atmosphere created 
throughout the entire month of February.
    Your story broke at that time. There are people on this 
dais that have been working immigration reform for almost four 
years, and we have to deal on our immigration reform issues 
with the American public and their perception, and you turn 
loose 1,575 in week three, of which 1,062 were noncriminal 
aliens.
    Why did you have to release any criminal aliens? If 
noncriminal aliens were clogging up your system, why didn't you 
turn loose everybody who was a noncriminal alien? Why do we 
have almost a 1,000 criminal aliens each time turned loose?
    You said we were clogging the system just to meet a 
standard of 34,000 with detainees. Get rid of those detainees 
that don't fit in there that gets you down to the level you are 
supposed to be. Why, at this time, with what was going on in 
the United States did you do this?
    And then how does someone trying to talk to a citizen about 
reform, how does he answer the question what about the 1,000 
criminals you turned loose in week three, what about the 900 
you turned loose in week two? How do I answer that question?
    Mr. Morton. A couple of things. One, just be to clear I am 
not saying that we are clogging up the system. I am saying we 
are trying to manage our budget as reasonably as we can.
    We released a total of 629 criminal offenders over the 
entire 3 weeks and the vast majority of those people are going 
to be very low-level offenders, you know, shoplifting, bar 
fights, a simple assault and detained for a day. And you as a 
former judge will know that, you know, these things happen, and 
you had a conviction 10 years--and I understand and I 
appreciate that.
    The answer on why are you releasing a mix of things, 
remember, Congress directs us. We have mandatory detention for 
certain noncriminals, people that are caught, arriving aliens, 
for example. There is a direction from Congress to maintain 
detention of those people, people on expedited removal and we 
are going to maintain.
    And so we do release a mix of criminals and noncriminals. 
We obviously are going to focus on the mandates that Congress 
gives us in the form of detention decisions.
    Listen, there is no one who wants our efforts to live 
within the budget to do anything to harm the effort at 
comprehensive immigration reform. I am a big supporter of it, 
and again, I said that that piece of it is----

             IMMIGRATION AND CUSTOMS ENFORCEMENT'S MISSION

    Mr. Carter. Let me ask a question.
    Mr. Morton. Yes, sir.
    Mr. Carter. In discussing with Mr. Cuellar, a good friend 
of mine, we had to mention of all the serious criminal activity 
that you deal with, but what is the title of your agency?
    Mr. Morton. It is Immigration and Customs Enforcement.
    Mr. Carter. So your primary mission is Immigration and 
Customs Enforcement, as an ancillary of that, you have become 
involved in what is happening along with the violations of 
immigration laws like human smuggling. That is all part of 
immigration violations. That is your coyotes bringing them 
across. That is your sex clubs bringing across prostitutes. 
That is people bringing across children for child pornography 
and for child sexual abuse. That falls in that category which 
is serious, damn serious stuff, very, very serious, and I agree 
with all that.
    But your mission is still immigration law. That needs to be 
clarified.
    Mr. Morton. We may have a slight disagreement here, Mr. 
Chairman, and part of the problem is, I talked to you before, 
ICE is not authorized as an agency. You cannot find this in the 
statute, and Congress for whatever reason has not put the 
agency on a strict statutory footing so that this question is 
readily answered.
    And so the directions we get are largely from this 
committee. That is the closest thing that we get to an 
authorization every year is our appropriation from this.
    And so we do and we have specific appropriations for child 
pornography, for forced labor, and most people don't people 
realize that we have more special agents than we do immigration 
officers.
    I think people think of us largely in immigration 
enforcement terms because immigration happens to be the first 
word in our name and, two, that particular issue is an 
unsettled part of the national conscience and immigration is 
not----
    Mr. Carter. If you are just an ordinary citizen of the 
United States worrying about immigration laws and who is 
enforcing them----
    Mr. Morton. You think of us.
    Mr. Carter [continuing]. Wouldn't you presume you were?
    Mr. Morton. That is right. You would.
    Mr. Carter. That is my point. That is my point.
    Mr. Morton. But if you were to go look for that in the 
statute, you would look a long time to find it.
    Mr. Carter. You know, the State Department had not been 
authorized by Congress in almost 30 years, but----
    Mr. Morton. I mean, just to give you some sense, the DEA 
[Drug Enforcement Administration] has about 5,000 special 
agents. ICE has 7,000 special agents, and they are doing, you 
know, as the son of a preacher, I say they are doing God's work 
every day.

                 RELEASED DETAINEES: BUDGETARY FACTORS

    Mr. Carter. You know that I have been on of your biggest 
supporters. I have probably visited more of your ICE units than 
anybody sitting up here because I have got more of them in my 
state. I have four of your coins in my coin collection. I am a 
big proponent of ICE. I think you do great work and that is not 
the issue.
    The issue is, this happened at a time when we had two major 
things happening, sequester, which became a totally political 
issue in the month of February, and serious immigration reform 
being worked on by both the Senate and the House, and this was 
like throwing a hand grenade in the middle of that, and that is 
why I called this hearing because this needed to be clarified, 
and I still have serious reservations about this.
    And on the issue of budget----
    Mr. Morton. Yes, sir.
    Mr. Carter. I think we have made it clear, I will ask your 
budget officer, under the CR, prior to sequester, you had the 
ability to come to this committee and ask for a change and to 
shift money around.
    Mr. Ragsdale. And the answer to your question, the answer 
would be yes, but I would just like to add, that as the 
Director already said, difficult tradeoffs would have been 
necessary, robbing Peter to pay Paul, domestic investigations 
versus detention beds, so difficult----
    Mr. Carter. You had no other source of money at all but the 
agents. Is that your testimony?
    Mr. Ragsdale. In terms of our biggest accounts, there is no 
question that the largest other account is domestic 
investigations. We also, as the director said, have had less 
funds and breach bonds----
    Mr. Carter. Well, the department has this ability. DHS has 
this ability.
    Mr. Ragsdale. I can only answer for ICE.
    Mr. Morton. The short answer is, yes, we have authority to 
seek reprogramming and prior to sequestration we had the 
appropriations that Congress gave us that was at the fiscal 
year 2012 level and----
    Mr. Carter. And the communities, I just happen to notice 
now, that there is about $200 hundred million in secured 
communities--$240 million above.
    Mr. Morton. So some of our accounts have some additional 
monies in them. They are all enforcement and removal operation 
accounts that are--and many of them are used to support the 
custody operations efforts, but yes, that is right.
    Mr. Carter. Okay.
    Mr. Price.
    Mr. Price. Thank you, Mr. Chairman.
    The reality of sequestration is, though, the money has to 
come from somewhere. We can argue about the wisdom of it is our 
ability of this or that cut, but there is a certain 
inflexibility to this, first of all.
    And secondly, to pay Paul, we do have to rob Peter often 
and that is what I understand you to have said in the last 
round of questioning with me, that when you add the reality of 
sequestration to the reality of a 34,000 bed requirement, you 
are talking about reduced investigations into human smuggling 
and child pornography. That was your testimony, correct?
    Mr. Morton. That is correct.

             LAW ENFORCEMENT AGENCIES, OTHER: USE OF FUNDS

    Mr. Price. All right. Well, that 34,000 bed requirement 
might be more tolerable if we really could detain people 
effectively only that way, but we know very well that that 
isn't true. This requirement is rooted, I suppose, in etiology 
or whatever it is rooted in. It is not rooted in the realities 
of effective detention and certainly not cost-effective 
detention.
    Alternatives to detention is a very economical alternative 
to holding low-risk individuals in detention. The average ATD 
cost, as others have said today, is $7 a day. And of course, 
those savings are less if you hold those people a long time. 
But assuming you deal with the detainees in an expeditious 
manner, you are talking $7 a day compared to an average daily 
cost for detention beds of $122 a day.
    So the cost is less and ATD is effective as well, with very 
low absconding rates, and yet we continue to overlook this, 
riding on a 34,000 bed requirement year after year. And this 
becomes especially irrational, I think, in the context of 
sequestration.
    Now, we are hearing that you did have to drop below the 
34,000 daily detention beds in use and move lower-level 
detainees into ATD to have enough money to live through the CR, 
the existing CR. And that probably is going to be worse, not 
better, going forward under sequestration.
    Why in the world should we blindly adhere to keeping 34,000 
people daily in costly penal detention when we could make wider 
use of Alternatives to Detention, save some money, and engage 
in equally effective enforcement? That, I think, is a very 
basic question which we need to address going forward.
    Now, of the 410,000 people removed in 2012, 45 percent were 
noncriminal immigration violators as I understand it, so with 
figures like that, it seems on the face of it that there are 
many more noncriminals in custody than there really need to be 
and that they should and would be eligible, based on ICE's 
criteria for Alternatives to Detention.
    So that is my question. How often do you reevaluate who 
could be moved to ATD, and who should remain in custody? What 
are the deciding factors? Does the statutory provision to 
maintain at least 34,000 beds force you to detain at greater 
cost individuals who could be enrolled in ATD at lower costs?
    And then, finally, just comparing ICE's situation to other 
law enforcement agencies, Administrator, you have spent two 
decades in law enforcement, federal law enforcement. Are you 
aware of any of your federal partners who have such rigid 
floors on the use of funds or has ICE been singled out in this 
respect?
    Mr. Morton. I am not aware of another agency that has the 
same, that is in the detention business, that has the same 
detention mandate, but I don't know, Mr. Mead, if you know if 
the marshals or BOP faces something similar.
    Mr. Mead. In the marshal service, I believe they get 
appropriation as a dollar ceiling on it, average daily 
population attached to it saying what they need to, within the 
appropriation.

                 ALTERNATIVES TO DETENTION: EVALUATION

    Mr. Morton. And you know, with regard to ATD, I mean, that 
is the promise of ATD, that if you can come up with a very 
cost-effective way of ensuring people's appearance for 
immigration proceedings and removal, you can save the country a 
lot of money and right now we have about 20,000 people in ATD, 
and if we were given additional flexibility and resources, we 
could increase that, particularly if we can work with the 
Department of Justice to get those cases heard quickly.
    We have got two pilots going on right now, one in Denver 
and one in Baltimore, to get the immigration judges to hear ATD 
cases in the same way that they hear detained cases so that 
they go very quickly. And if we can get to that point, then the 
savings would be quite dramatic. We are not quite there yet, 
Mr. Price, but there is where we are trying to get to.
    Mr. Price. Can you elaborate on the criteria that you use 
and to what extent you think those criteria might apply to the 
present detained population?
    Mr. Morton. So we are always looking at our population and 
we do have to deal with, you know, the resource question all 
the time. It is a little bit complicated by the fact that the 
law mandates the detention of a fair number of noncriminal 
aliens, and so we detain those people. The law does not simply 
focus on criminal offenders. Arriving aliens in particular are 
largely subject to mandatory detention if they are inadmissible 
or they are going through expedited removal.
    But our criteria otherwise for noncriminal offenders, 
unless they are gang members or some national security concern 
is: are they a risk of flight? We are not a penal institution. 
We have detention authority solely to carry out the work of the 
agency as an immigration enforcement force.
    And so in the context of noncriminals, the question is: Are 
you a risk of flight? And, if so, how is that addressed? And 
Congress has provided that we can address that in many ways--
detention, bonds, ATD, supervision, recognizance. And we do a 
wide variety of those things.
    In most instances for noncriminals, we do something other 
than detention because we have other things. As I said earlier, 
the single most common form of supervision is a bond, 150,000 
people on bonds at a given moment.
    Mr. Price. Thank you. I know that we cannot always apply 
the standards of consistency and rationality that we like to 
think are particularly characteristic of the appropriations 
process. Other factors do intervene in policy making, but to be 
flying in the face of such obvious questions of cost 
effectiveness as an appropriations committee and in a bill 
designed to give flexibility in dealing with this unfortunate 
sequester, to be introducing this element of inflexibility that 
is going to have costly tradeoffs, I just believe the American 
people deserve better of this committee and this process and I 
appreciate your being here today and helping us understand that 
more fully.
    Thank you, Mr. Chairman.
    Mr. Carter. Mr. Dent.

           JURISDICTIONS NOT HONORING DETAINERS: COOK COUNTY

    Mr. Dent. Thanks, Mr. Chairman.
    And Director, I have some concerns about several 
jurisdictions that have passed these ordinances precluding our 
law enforcement from honoring ICE detainers. In several 
jurisdictions like Cook County, Illinois; Santa Clara County, 
San Jose area, have failed to honor federal detainers on 
illegal aliens in custody and the Administration really hasn't 
taken any action against these jurisdictions to the detriment 
of public safety and I want to commend you. I know you had sent 
a letter off, I guess, to Cook County, and basically expressing 
a concern over their failure to honor these detainees. I guess 
that was back in January of 2012.
    How many individuals have been released before ICE can take 
them into custody?
    Mr. Morton. In Cook County, everyone. They do not honor any 
of our detainers.
    Mr. Dent. None.
    Mr. Morton. None.
    Mr. Dent. None.
    Mr. Morton. None. And that is one of my principle concerns 
about Cook County is--I understand the argument at some level 
in certain communities about very, very low level offenders. I 
don't understand the argument at all when it deals with serious 
violent offenders, and Cook County will not honor a single 
detainer that we issue.
    Mr. Dent. Wow, that is a major concern. And the committee 
has received preliminary numbers from ICE last year. For the 
record I don't know if that--from September to December 2011 
ICE issued 268 detainers to Cook County for individuals and 
that ICE deemed a serious enough public safety risk. Many were 
criminal aliens, even by the Administration's definition. So it 
was 268 detainers last year and not one of those has been 
honored?
    Mr. Morton. That is right. So what we do is, we do the best 
we can. We continue to submit the detainers. Cook County 
continues to refuse to honor them, and then we on our own 
locate the individuals that we can, and if we can locate them, 
we take them into our custody ourselves. We do, but----
    Mr. Dent. And can you send us the numbers on that?
    Mr. Morton. Identifications for Cook County?
    Mr. Dent. Yeah.
    Mr. Morton. Yeah, sure.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Dent. Okay. Thanks. Last year you exchanged letters 
with Cook County back in January 2012 on the seriousness of 
this issue and offered to refund certain costs, I guess. Has 
the County accepted any funds from ICE to honor detainees, and 
if so, how much?
    Mr. Morton. They have not been willing to enter into any 
arrangement with ICE. They did, however, accept SCAAP [State 
Criminal Alien Assistance Program] funding for reenforcement 
from the federal government for the costs of detaining some of 
these individuals in their own facilities, which I find to be 
an inconsistent position.
    Mr. Dent. So they will take money from ICE. They just won't 
collaborate.
    Mr. Morton. The Department of Justice runs the SCAAP 
funding but, yes, they take it from the federal government, but 
they do not honor our detainers.
    Mr. Dent. It has really been 18 months since the ordinance 
passed and the Administration still hasn't taken any action. I 
mean, notwithstanding what you tried to do with your letter. 
What is the Department of Justice's position on this issue? Do 
you know if there is going to be any judicial action taken?
    Mr. Morton. I don't believe there has been any judicial 
action taken. We have asked them to look at the issue and we 
are still in those discussions with them.
    The statute, you know, requires a, you know, prohibits 
efforts to interfere with communication with ICE. It is not 
entirely clearly how--there is no specific enforcement 
mechanism. I assume it would have to be an injunction, but the 
short answer to your question is we are still in discussions 
and I am not aware of any soon.
    Mr. Dent. I can see your understandable frustration with 
Cook County for failing to collaborate with federal law 
enforcement on these issues, I think that is simply outrageous. 
And it is interesting to note that no additional action is 
being against Cook County, the President's hometown, when they 
are putting public safety at risk. In contrast, you know, the 
Administration filed lawsuits against states like Arizona, 
South Carolina and Alabama for passing pro-enforcement laws. I 
just can't help to notice that, that communities that are 
flouting ICE, failing to cooperate, they get letters, and 
communities that are trying to--states that are looking at 
least, trying to do enforcement, you know, even if some people 
find that controversial or disagree with the way they did it, 
they get lawsuits.
    That really just calls into question this whole issue of 
the seriousness of the enforcement programs and we all want to 
do, many of us want to engage in serious bipartisan, 
comprehensive immigration reform. And you know, the public 
doesn't believe us because they don't think we're serious on 
the enforcement side.
    And that is not because of you. It is just very 
frustrating. And I will yield back my time. Mr. Chairman.
    Mr. Carter. Mr. Cuellar.

                          REMOVAL PROCEEDINGS

    Mr. Cuellar. Thank you, Mr. Chairman.
    Mr. Morton, when you see the numbers, according to the 
Department of Justice reporting last years immigration judges 
heard over 78,000 bond matters for aliens, DHS have placed into 
removal proceedings, and this is part of the picture itself. 
But give me, tell me what are the number of aliens that are 
removal proceedings in immigration courts across the United 
State because we are just talking about detention. Give us a 
bigger picture. What is an ordinary day for your men and women 
that do an outstanding job?
    Mr. Morton. So at any given moment we are handling about 
325,000 administrative cases and we will handle over 470,000 
bookings, that is initial arrests that come into our detention. 
They won't all remain in detention, so some will be released. 
And we maintain, you know, on average about 34,000 people in 
custody every day, so it is a huge operation.
    Mr. Cuellar. How many are detained?
    Mr. Morton. A very small number are actually detained out 
of the large population. So there are 325,000 people at the IJ 
level and about another 20,000 to 25,000 at the Board of 
Immigration appeals levels, so 350,000. At any given moment 
about 20,000 or so of those individuals are detained, and the 
reason there is a delta between that and the 34,000 number is 
that a lot of the people we detain for the border patrol don't 
go into formal immigration proceedings. They get an expedited 
removal order, so they are in our custody, but they don't 
appear before an immigration judge.
    Mr. Cuellar. And the people that you release, were they put 
under supervision?
    Mr. Morton. Yes. Particularly these people, but yes.
    Mr. Cuellar. They were just released out there.
    Mr. Morton. So we have, there are various forms under the 
statute. There are orders of recognizance. There are orders of 
supervision. There are alternatives to detention. You can go 
everywhere from check back in with us every 3 months, give us a 
call, to call us every day to wear this bracelet, to pay a bond 
of $5,000, $50,000. It just depends.
    It is like the criminal justice system. The difference is, 
in certain instances there's actually mandatory detention in 
administrative circumstances. In the criminal justice system 
there are presumptions of detention, but there are no mandates.

            ALTERNATIVES TO DETENTION: COST-BENEFIT ANALYSIS

    Mr. Cuellar. And I knew the answer, but I want to make sure 
everybody understood that they were not just released out there 
in the public with no supervision. In fact, under the prior 
administration, I believe that in June of 2004, ICE began a 
pilot program to keep certain offenders in eight locations. 
This program known as the Intensive Supervision Appearance 
Program, ISAP, provides alternatives to detention using 
electronic monitoring devices, home bases recorded by telephone 
monitor, aliens out there, and I think it is a company named--I 
assume it is still the same company, BBI, Incorporated.
    In fact, they are reporting 99 percent attendance rates at 
immigration court hearings and, again, you get the direction 
from us so if we cut, there is a repercussion. If we add, there 
is a repercussion.
    And in fiscal year 2012, $72.4 million was appropriated for 
ATDs, the alternative detention to include ISAP. So cost 
benefit analysis if we talked about it, what is it, $7 per 
alternatives and then to keep somebody, what is it, $122 a day 
roughly?
    Mr. Morton. Roughly.
    Mr. Cuellar. Yeah, roughly. So cost benefit analysis for 
the ones that are not a risk to the public, it would make more 
sense for Congress--you can't answer this--but it would make 
more sense to me as a member of this committee to add more 
money for ATD so we can save taxpayers dollars because, again, 
the more border patrol that we provide--and this is one thing 
that we all need to look at--the more border patrols that we 
add, the more business is created, more activity, if I can use 
that term. That means that ICE will become, the detention part 
becomes a little bit more crowded. The judges, the prosecutors, 
the U.S. marshals, and it has a ripple effect.
    So when we just add just border patrol, which I am again in 
support of the border patrol, we have to understand that there 
is a ripple effect all the way down to the detention part and 
whatever alternatives and hard decisions you have to make, so I 
just wanted to say--there was no question to that. I just 
wanted to say thank you for the work that you all do, your men 
and women.
    Mr. Morton. Thank you. I appreciate that.
    Mr. Carter. Ms. Roybal-Allard.
    Ms. Roybal-Allard. Yes, in response to a question that Mr. 
Owens asked, you said that one of the things that you may have 
to do under sequestration is to cut overtime?
    Mr. Morton. Yes, ma'am.

                BUDGET CUTS: IMPACT OF CUTTING OVERTIME

    Ms. Roybal-Allard. And so I assume that people are working 
overtime, there is a valid reason for it because work has to be 
done, so if you cut overtime, what will be the impact? Will it 
create backlogs in certain areas?
    Mr. Morton. For us, you know we don't do--we are not 
running daily line operations in the sense of, you know, TSA 
[Transportation Security Administration] with lines at a 
screener. For us it is going to be more in the area of going 
out and looking for people on the streets. You know, how many 
hours are we going to be able to devote for fugitive operations 
for criminal street arrests?
    Flight operations, for example, we have run a very large 
airline, ICE Air, that moves people around. How many flights 
will we be able to maintain? And we have in the past, through 
the appropriations that committee has given us, had some 
flexibilities there and we have been able to add and subtract a 
number of flights. We are going to have to be a lot, lot 
tighter on those kinds of things going forward.
    Ms. Roybal-Allard. So it is going to hurt your ability, 
then, in terms of enforcement, you will have to be very----
    Mr. Morton. We will not be able to maintain the same level 
of operational tempo that we have.

                      PARENTAL INTEREST DIRECTIVE

    Ms. Roybal-Allard. Thank you. I would like to just talk a 
little bit about the parental interest directive.
    Mr. Morton. Yes.
    Ms. Roybal-Allard. As you know, since July of 2010 and 
September 2012, between that period of time, about 205,000 
parents were expelled from the United States and their children 
were put primarily into our dysfunctional foster care system. I 
am pleased that ICE has drafted a parental interests directive 
which will help to ensure that parents in detention can arrange 
for child care for their children and attend family court 
proceedings.
    Can you highlight some of the key provisions of this new 
policy and also when this policy will be implemented because we 
have been hearing about it for some time?
    Mr. Morton. So we have been working on this policy with HHS 
[Department of Health and Human Services] and with the 
department.
    The main focus is to see if we can't better address those 
situations in which someone who is in removal proceedings, 
typically someone who has a criminal record but is also a 
parent with parental rights here and typically a single parent. 
That is where it gets very difficult.
    And we are removing a person from the United States 
pursuant to the law and for good reason and they have a U.S. 
child who all of the sudden by operation of removal will become 
an orphan subject to the local child welfare services system in 
the given state.
    And so we are trying to come up with a series of options 
where we can carry out our mission as a law enforcement agency 
and at the same time try to respect and support any efforts at 
the local level on questions of parental rights. So for 
example, if two parents are fighting and the father is in our 
custody, we want to see if it is possible, not violating our 
mission, that we can help ensure that that person goes and 
shows up at the hearings and has an opportunity to be heard 
about, hey, I am a father and I have rights here as well. Or if 
we remove the person, talk about should the child go with the 
parent. If not, what other relatives who are close enough 
should assume custody.
    Those are the issues. These are tough issues to resolve. 
And I will be frank with you, most of the people that we are 
dealing with here are criminal offenders, so there aren't easy 
answers, but that is what we are doing and it is at the 
department.
    One other thing I should just--if I might have a moment, a 
point of privilege because I know that you care about this 
issue a lot, which is the numbers of deaths in our custody over 
the year.
    Just to let you know, we have made tremendous strides there 
and I give a great, great deal of credit to the man to my 
right. When I first came into this job, we were getting a lot 
of attention over the number of deaths in our custody. In 2004 
we had 28 deaths in our custody and we had an average daily 
population then of about 21,000, 22,000 beds.
    This year so far we have two deaths in our custody and, you 
know, our annual average is about 34,000, so tremendous strides 
have been made and I want to thank Mr. Mead. And I also just 
mention it because I know it was an area that you care about a 
lot.
    Ms. Roybal-Allard. Thank you. And do you know when this 
will be?
    Mr. Morton. I don't. I mean, a lot of headway has been made 
on it and I know that we are talking with the department--let 
me do this. Let me just get you an answer to your question.
    [The information follows:] 


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                         FAILURE-TO-APPEAR RATE

    Mr. Carter. Gentlemen, we appreciate you being here today. 
The fact that we called you up here is because honestly we 
respect what you do and what you have done for us in the past.
    Mr. Mead, I don't want to neglect saying thank you for 40 
years of service. It is hard work. It has been a rough arena 
and you deserve whatever rest you plan to get. I hope it is 
good for you.
    I appreciate all of you, but suggest to you, Director, that 
when the staff makes a request, respond as quickly as possible 
whether it be the majority staff or the minority staff. When we 
make a request to your agency, we could have saved quite a bit 
of time here today if questions had been answered.
    Mr. Ragsdale, I was disappointed in an answer you gave, so 
I want to point out if you don't know, you have reprogramming 
authority from the guys above you, the ability to shift money 
around, then you should because you are in charge of finances 
and if there is money available, you ought to go look for it. 
So I would try to find out about that because I think that is 
kind of important.
    Immigration is a mission that is very important to me and 
one of the things we have been talking about at the last round 
of questioning is the--and I want to see if you know a number 
because I am going to be very impressed about what I think I am 
hearing--what is the failure-to-appear rate, do you know?
    Mr. Morton. It depends on, obviously if you are in 
detention, it is very low.
    Mr. Carter. No, I am talking about, you got 325,000 
processed, you said, last year, the failure-to-appear rate as 
it relates to the 11 million, or whatever number you use.
    Mr. Morton. It depends on the level of--in ATD it is quite 
low for the basic orders of recognizance or supervision, 
particularly people who have been here a long time, it can be 
quite high.
    [The information follows:] 


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Carter. Back in 2002 when I first got, I guess it was 
in 2004, when I got on this committee, in Houston I was hearing 
all of these horror stories about the failure-to-appear rate 
was 90 percent didn't show up. And a lot of what we did 
especially with the alternatives to incarceration--it is a word 
I have used, maybe you don't call it that, detention.
    Mr. Morton. Yes, sir.
    Mr. Carter. The alternatives were to help that rate and it 
has and the people you are tracking and that is good news. And 
by the way, when we did the 34,000 mandate, we also plussed up 
substantially the alternatives; is that correct?
    Mr. Morton. You did.
    Mr. Carter. So it is not like we are just some crazy people 
that want to lock everybody up. We have also worked on that 
part of this program, too.
    Well, you know, we are here to help you enforce the law. 
You are the number-two law enforcement agency in the country, 
but we also have the issue of facing the American public on who 
we turn loose on them every day and responsibility, the way 
this world works up here is going to fall on the people who sit 
on this dais less than you. I will be glad to give them your 
private number, but that would be unfair to you so I won't do 
that to you.
    Mr. Morton. Mr. Chairman, if you would allow me just a few 
things. One, obviously, the relationship with this committee is 
a very important one, not simply because it is the 
appropriations committee, but as I said this is the closest 
committee we have to an authorizing committee in practice 
because we are not statutorily authorized. And so what you tell 
us in your annual appropriation to us, that is the guidance we 
get.
    I take full responsibility for the timing and notification 
of these releases. We owe the committee, both majority and 
minority, quick and thoughtful accounting and oversight and we 
can do a better job, and on this set of cases we have provided 
you some initial information. I am not saying that that is 
going to be the end of it. I am happy to come and brief on all 
of the decisions, why we made them. We are looking at them 
ourselves.
    If we made a mistake in a particular case, we will fix it. 
That is just the way we are, and we may have a disagreement as 
to whether a simple assault 20 years ago, and you got two days 
for it, was something that, you know, we made the decision that 
we did.
    But I can tell you that at least the folks that I represent 
that made this decision, they were making these decisions on a 
case-by-case basis. I don't anticipate that we will see this 
level of release any time soon.
    We are going to have to work with this committee, whatever 
you decide in two weeks on how to go forward for the remaining 
six months of the year. I don't know where Congress will come 
out on that and we shall see.
    Mr. Carter. Again, I thank you for your comments. I will 
point out that, at least the chair and I believe every member 
on this dais, if we were given that information in a timely 
manner, that noted this person that had a simple assault ten 
years ago when they were 19 years old, I think we have got 
enough common sense up here, I would hope, to realize that is 
an extenuating circumstance that will be--and honestly we can 
assure you, I will.
    So I mean that is why communication would have saved a lot 
of effort here.
    And keep a view of the landscape on what is going on in the 
country or you would see why there might be somebody like me 
raising hell about this.
    Okay. Thank you for coming.
    Mr. Morton. Fair point. Thank you.
    [Questions for the record follow:] 


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                           W I T N E S S E S

                              ----------                              
                                                                   Page
Beers, Randy.....................................................   647
Fugate, W. C.....................................................   173
Mead, Gary.......................................................   321
Morton, John.....................................................   321
Pistole, J. S....................................................     1
Ragsdale, D. H...................................................   321
Spaulding, Suzanne...............................................   647


                               I N D E X

                              ----------                              

              TRANSPORTATION SECURITY ADMINISTRATION (TSA)

                                                                   Page
Advanced Imaging Technology:
    Redeployment.................................................    52
    Use by Other Agencies........................................    39
Beyond the Border................................................    44
Canines:
    Passenger Screening..........................................    34
    PreCheck.....................................................    51
Complaint Handling...............................................    64
Credentialing Programs...........................................    38
Employee Morale..................................................    63
Explosives Detection Systems.....................................    53
Foreign Repair Station Security..................................    41
Man-Portable Air Defense Systems.................................    38
Managed Inclusion................................................    57
National Cargo Security Program:
    Coordination with U.S. Customs and Border Protection.........    43
    International Cargo..........................................    41
Next-Generation Detection Technology.............................    59
NEXUS Cards......................................................    43
Opening Statement: Administrator Pistole.........................    10
Pipelines, Security of...........................................    42
PreCheck.........................................................    36
Racial Profiling Allegations.....................................    50
Risk-Based Security Initiatives..................................    31
Screening Partnership Program....................................    45
Sequestration Impacts:
    Coordination with Federal Aviation Administration, Hiring 
      Freeze.....................................................    36
    Transportation Security Officers.............................    49
Technology Certification Process, Streamlining...................    49
Technology Optimization Process..................................    44
Transportation Workers Identification Card.......................    39

   FEDERAL EMERGENCY MANAGEMENT AGENCY (FEMA) HURRICANE SANDY FUNDING

Administrative Costs.............................................   210
Advisory Base Flood Elevation Maps...............................   194
Assistance to Impacted Families..................................   211
Claims Process...................................................   218
Debris Removal Costs.............................................   214
Disaster Preparedness Costs......................................   207
Disaster Relief Fund.............................................   212
Federal Transit Administration:
    Delineation of Rebuilding/Repair Costs.......................   215
    Memorandum of Agreement......................................   204
Funding Cuts' Effect on Local Emergency Management...............   201
Grants:
    Audits.......................................................   202
    Performance Measures.........................................   205
    Rebuilding Costs.............................................   193
Hazard Mitigation................................................   219
Housing for Displaced Individuals................................   201
Hurricane Sandy Rebuilding Task Force............................   209
Lessons Learned..................................................   197
Levee Accreditation..............................................   203
Mitigation:
    Post-Disaster................................................   195
    Pre-Disaster.................................................   215
Opening Statement: Administrator Fugate..........................   182
Working Relationship with Other Agencies.........................   199

             U.S. IMMIGRATION AND CUSTOMS ENFORCEMENT (ICE)

1952 Immigration Naturalization Act..............................   351
Alternatives to Detention:
    Cost-Benefit Analysis........................................   377
    Evaluation...................................................   373
Budget Cuts:
    Furlough Avoidance...........................................   367
    Impact of Cutting Overtime...................................   378
    Speculation..................................................   353
Continuing Resolutions' Impact...................................   344
Detained U.S. Citizens...........................................   362
Detention Beds:
    Kinds of Facilities..........................................   366
    Number Needed, Lowering......................................   366
    Number Needed................................................   337
Detention Costs..................................................   352
Detention Decision: Mandatory vs. Discretionary..................   361
Failure-to-Appear Rate...........................................   382
Immigration Reform...............................................   353
Immigration and Customs Enforcement's Mission....................   370
Jurisdictions Not Honoring Detainers: Cook County................   374
Law Enforcement Agencies, Other: Use of Funds....................   372
Memorandum of Understanding......................................   358
Opening Statement: Director Morton...............................   328
Parental Interest Directive......................................   378
Released Detainees:
    Alternatives to Detention....................................   342
    Breakdown by Offenses........................................   338
    Budgetary Factors............................................   371
    Criminal Offenders...........................................   368
    Supervision..................................................   349
    Total Released...............................................   337
    Who Made Decision?...........................................   348
Removal Proceedings..............................................   376
Repatriation Challenges..........................................   354
Reprogramming Authority..........................................   347
Resource Distribution: Northern, Southern Borders................   366

                                  <all>

</pre></body></html>
